<html>
<title> - ADVANCED NUCLEAR TECHNOLOGIES</title>
<body><pre>[Senate Hearing 105-638]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-638

 
                     ADVANCED NUCLEAR TECHNOLOGIES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION


                               __________

                            SPECIAL HEARING


                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
50-167 cc                    WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057550-8








                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                                 Staff

                             Alex W. Flint
                           W. David Gwaltney
                           Lashawnda Leftwich
                         Greg Daines (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Hank C. Jenkins-Smith, Ph.D., director, Institute 
  for Public Policy, Department of Political Science, University 
  of New Mexico..................................................     1
Opening statement of Senator Pete Domenici.......................     1
Statement of Senator Harry Reid..................................     2
Prepared statement of Hank C. Jenkins-Smith......................     6
Statement of Joe F. Colvin, president and chief executive 
  officer, Nuclear Energy Institute..............................     9
    Prepared statement...........................................    12
Statement of Corbin A. McNeill, Jr., chairman and chief executive 
  officer, PECO Energy Co........................................    14
    Prepared statement...........................................    15
Statement of Richard Wilson, Ph.D., Mallinckrodt professor of 
  physics, Harvard University....................................    16
    Prepared statement...........................................    19
Statement of Senator Larry E. Craig..............................    29
Statement of Alan B. Smith, graduate student, Nuclear Energy 
  Department, Massachusetts Institute of Technology..............    33
    Prepared statement...........................................    36
Statement of Stan O. Schriber, Ph.D., LANSCE deputy division 
  director, Los Alamos National Laboratory, New Mexico...........    40
    Prepared statement...........................................    42
Statement of Linden Blue, vice chairman, General Atomics.........    53
    Prepared statement...........................................    54
Statement of Charles E. Till, Ph.D., associate laboratory 
  director (retired), Argonne National Laboratory................    58
    Prepared statement...........................................    60


                     ADVANCED NUCLEAR TECHNOLOGIES

                              ----------                              


                         TUESDAY, MAY 19, 1998

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Craig, Stevens, and Reid.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF HANK C. JENKINS-SMITH, PH.D., DIRECTOR, 
            INSTITUTE FOR PUBLIC POLICY, DEPARTMENT OF 
            POLITICAL SCIENCE, UNIVERSITY OF NEW MEXICO

               OPENING STATEMENT OF SENATOR PETE DOMENICI

    Senator Domenici. The subcommittee hearing will please come 
to order.
    I thank all the witnesses for being here, and thank you for 
attending. We do have quite a few witnesses. It will take us a 
couple of hours this morning, and I think we may go 
uninterrupted and get the hearing handled in a somewhat 
appropriate manner.
    Good morning, Senator Reid. Thank you for joining us.
    Senator Reid. Good morning, Mr. Chairman.
    Senator Domenici. I welcome you as part of this 
subcommittee. We work together on several things; I hope we can 
on this issue also.
    This morning, the Energy and Water Development Subcommittee 
will focus on the subject of advanced nuclear technologies; in 
particular, we are interested in two aspects: The renewal of 
nuclear power in this country and furthering technologies for 
the future use of nuclear power.
    Electricity from nuclear power plays an essential part of 
the daily aspects of life that we take for granted in this 
country. To most of us, electricity is invisible. We do not 
appreciate that behind that socket in the wall is a huge 
complex of transmission lines, distribution stations and 
powerplants. These powerplants can be coal, oil, natural gas, 
or nuclear.
    The renewable technologies so often referred to by the 
administration cannot replace the power produced by these 
powerplants now or any time in the imaginable future. Even if 
the President will not say it because it is not necessarily 
politically correct, in order to maintain the quality of life 
for Americans, nuclear power is a necessity for this country. 
It is not an option.
    We need to stop hedging on this issue and acknowledge that 
20 percent of the electrically generated power in this country 
comes from nuclear powerplants, and it is essential to our 
continued prosperity. Nuclear power is the only source of 
electrical generation for which we can and do isolate all the 
waste products and prevent the pollution of air and water.
    Coal, oil, and natural gas powerplants cannot make this 
statement. Nuclear energy generates clean electricity. This 
environmental value of nuclear power is all too often easily 
overlooked. We are only beginning to truly appreciate the long-
term environmental effects of pollution from coal, oil, and 
natural gas powerplants. I am uncertain about the existence or 
extent of global climate change; however, given the 
uncertainties, we would be prudent to limit the use of energy 
technologies that release pollutants that accumulate in the 
atmosphere.
    But make no mistake about it, one fact, no matter what 
pollution goals we set as a Nation, we cannot reach them 
without the continuation of nuclear power as a major part of 
our energy production, as well as the world's. The challenge we 
face is to think anew about nuclear power, and to recognize its 
environmental values.
    The rest of the world has already done so. Even though we 
were the originators of it, we led in all of its technological 
aspects for decades on end. The rest of the world is, as I 
indicated, already have made decisions that they need nuclear 
power in their future.
    Other countries are already committed to nuclear power, 
because without it they face an uncertain future of increase 
energy demands and production using fossil fuels, with 
significant pollution of their air and their water. Nuclear 
power supplies over 75 percent of the domestic electricity in 
France, over 60 percent in Belgium, over 30 percent in Germany, 
and over 27 percent in Japan. And China is planning a 
significant expansion of nuclear power. These are all countries 
which do not enjoy the luxury that the United States does in 
terms of multiple energy supplies.
    Further, countries such as France and Japan have not gotten 
themselves into a quagmire over the disposition of nuclear 
waste. They have an effective reprocessing program which 
ensures the continuing of nuclear power as a vital source of 
energy to their people. The case for nuclear power is a 
compelling one not only for its environmental value but also 
for its economic nonproliferation and energy security 
perspectives that support our national and international goals.
    With that, I now yield to Senator Reid, who has an opening 
statement.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Thank you very much, Mr. Chairman. I know 
this might be surprising to some, but I am really pleased about 
this hearing and I look forward to the testimony of our 
witnesses. I think you have set an appropriate tone with this 
subcommittee in not doing the thing we have done many years 
past--just accept what has gone on. You are looking at the 
future, and I think that is important. I think this 
subcommittee is moving in the right direction.
    Mr. Chairman, you have spoken a number of times publicly, 
questioning the wisdom of the decisions that we made 30-odd 
years ago. And I think it is important that we analyze--and let 
me state for the record today that I think it is clear--and I 
am speaking for myself today--that nuclear energy finds itself 
in an unusual and, some say, an uncomfortable position. With 
deregulation going forward and nuclear power being so 
expensive, some say that nuclear power is on its way out.
    The chairman has outlined clearly why we have to give those 
that are advocated of nuclear power every opportunity to see if 
there is any way that nuclear power can fit into the new 
paradigm that is facing this country. I think that the 
disposition of nuclear waste, a substance that remains highly 
dangerous for more than human history can be accounted, was not 
understood when the industry began more than 40 years ago, and 
it is not understood today. Because of that, there is not a so-
called exit strategy if we should conclude that this utility 
will not be cost effective. Or if it is cost effective, what do 
we do with nuclear waste?
    If nuclear energy is ever to have an assured future, its 
waste must be managed in an acceptable way. I am not here, 
though, Mr. Chairman, today to talk only about nuclear waste. I 
think there has been a fine group of witnesses assembled. I 
think this will pave the way for more work for us in the 
future. My record is clear about nuclear waste, and I am not 
going to dwell on that.
    You called this meeting for important reasons, and I am not 
going to diminish the reasons that you have called this. It was 
not for purposes of looking at nuclear waste only.
    Let me welcome the witnesses, all of whom have made 
significant contributions in their fields. I will be interested 
to hear about how we might collaborate to resolve the most 
vexing problems of this complex industry.
    Senator Domenici. Thank you very much, Senator.
    Now, we will start with the first panel. I think they have 
you listed there as Dr. Smith. Actually it is Hank Jenkins-
Smith. If you come back, we will correct it.
    Dr. Jenkins-Smith. Thank you.
    Senator Domenici. Dr. Jenkins-Smith is from the Institute 
for Public Policy, Department of Political Science at the 
University of New Mexico. It is a very formidable group. It 
assesses public opinion from various angles and various 
approaches. Dr. Jenkins-Smith is the director of that.
    Then we have Mr. Joe Colvin, Jr., the president and chief 
executive officer of the Nuclear Energy Institute. Thank you so 
much for joining us.
    And Mr. Corbin A. McNeill, Jr., chairman and chief 
executive officer of PECO Energy Co. And we are delighted to 
have you here. You are in the energy business and you have a 
novel approach to what kind of energy production your company 
would like to own.
    And then we have Dr. Richard Wilson, Mallinckrodt professor 
of physics at Harvard. And I want to thank you for flying all 
the way home from England to be here in time for this hearing. 
I very much appreciate it.
    Let us start with Dr. Jenkins-Smith, and move across the 
table from my left to my right.

                    STATEMENT OF HANK JENKINS-SMITH

    Dr. Jenkins-Smith. Thank you, Mr. Chairman. And thank you, 
Senator Reid. I appreciate the opportunity to speak before this 
committee.
    I will be relying today on the expertise of many of my 
colleagues at the Institute for Public Policy, several of whom 
are here today--Barry Harrin and Harold Silva--here behind me. 
I am also going to be drawing on the views of many thousands of 
American citizens who have participated in focus groups or 
surveys with us over the last decade, really trying to plumb 
the issue of nuclear policy and how Americans think about that 
issue, to try to get past some of the surface conundrums that 
plaque us, to see what the structure of public opinion looks 
like on this question.
    And I will start with my punch line, which is from the 
standpoint of American attitudes on nuclear policy, where we 
need to go now is away from piecemeal nuclear policy to an 
integrated, open assessment of what our nuclear technology 
options are for the future. In the past, we have chopped 
nuclear technology issues into pieces in a way that does 
enormous damage to how American citizens and our elected 
representatives can debate these sorts of issues.
    When we think the segregation of nuclear energy from the 
issue of nuclear demilitarization to the issue of nuclear waste 
transport or storage or disposal, it makes it almost 
incomprehensible to talk about these policies in a sensible 
fashion when we cannot put the pieces together in a fashion 
that allows people to assess benefits, costs, relative risk 
options. We just cannot under the current system.
    Now, much of the problem has to be laid at the feet of an 
historical legacy that can readily be perceived as high handed, 
of ignoring the risks to the public, and imposing substantial 
damage in the interest of national security and other concerns. 
It has also been the case that historically we have not had 
much in the way of open, integrated debates about nuclear 
issues. But I think we are now at a position to put that behind 
us and look forward. And this hearing is a fine example of how 
that might take place.
    The problem really is this issue of fragmentation. 
Fragmentation leads us to do a number of things that I think 
are damaging to the national debate. First off, it leads us to 
separate benefits from costs. National security benefits, 
energy production, reduction in CO<INF>2</INF> emissions tend 
not to get integrated into the discussion, for example, of 
nuclear waste disposal in the current fragmented policy debate. 
Also, due to our regulatory processes, we tend not to make 
comparisons. We do not compare current options against 
continued temporary disposal. Or we do not compare the options 
of alternative modes of storage or disposal. We tend to get 
myopic and look at one option.
    It is funny what happens when you do that. Essentially, it 
forces you into a mode of thinking about absolute risk--the 
absolute risk of a single repository. We see that with the 
waste isolation pilot plant, we see that with the Yucca 
Mountain Repository--in which our Federal program officials are 
charged with coming up with a number representing the risk 
associated with a single repository and all of the complicated 
science associated with that. There is no comparison that takes 
place in that kind of a setting except against benchmarks set 
by regulatory policy.
    It is very difficult in the public mind to come to reasoned 
conclusions when you are only thinking about one option. It is 
a very tricky problem.
    It leads to a risk myopia. Look at the public debate on 
this question. All of the discussion associated particularly 
with nuclear waste or nuclear materials transport focuses in on 
waste or on risk. What is the risk? And look at the 
strangulated language we get into when we talk about this 
stuff. We talk about risk of 10 to the minus 6, stretched over 
10,000 years. These are not reasonable terms for engaging in an 
open debate in a society like this.
    Well, let me just say that this process of fragmentation, 
risk myopia, failure to engage in comparisons, is acutely 
damaging to the quality of the public debate in the arena of 
nuclear waste disposal, nuclear energy, and other issues. As 
you know, when we separate out these issues, we make nuclear 
waste acutely exposed to criticism. Essentially the debate is 
all about risk.
    And when you make the debate about risk you, without the 
integration of benefits and without the benefit of comparisons, 
we put people in the position essentially of acknowledging that 
any policy will impose risk on somebody, and that imposition 
will be unacceptable. Because, again, we cannot integrate it. 
There is no context for that type of a decision.
    This leads to delay, escalation of costs, compounding 
distrust, unnecessary political antagonism and a number of 
essentially poisoned fruits of the fragmented policies. It has 
also led to interesting excursions into stakeholder democracy, 
which have been attempts to get past blockage by giving special 
consideration to named stakeholders, through such things as 
site-specific advisory boards, working groups, stakeholder 
forums, and things like that, which are sometimes quite 
valuable mechanisms for dealing with policy issues.
    On the other hand, there are some problems with these, in 
the sense that they can collide with our established 
institutions of representative democracy. I have had 
impassioned discussions with locally elected officials who 
believe that it is simply wrong for representatives of 
appointed stakeholder groups to represent their constituencies 
when they are not actually elected. They do not have to go home 
and be held accountable as their elected officials do.
    It also leads to problems with commitment. I believe that 
when we create these stakeholder groups, in order to entice 
people to participate, we have to give them some real teeth, 
something that they gain from this very painful form of 
participation, which, in fact, leads them to believe that they 
have made authoritative decisions, which can be overridden by 
this body and others in a representative republic like the 
United States.
    It is quite difficult to maintain these experiments in 
stakeholder democracy in the face of the larger political 
landscape in which we operate. The downside is that we can 
generate more distrust through creating these sorts of 
experiments than we can alleviate.
    Now, where does this leave us? I think that it is time to 
look very closely at what the American public do see 
structurally about nuclear policy in the future. The American 
public sees substantial benefits in nuclear technologies. 
Forty-three percent of the public, for example, in a recent 
national survey said that they wanted to retain existing 
nuclear energy generating capacity, and another 30 percent said 
they wanted to increase it. That leaves 27 percent that said 
they wanted to decrease it or eliminate nuclear energy 
generating capacity.
    Large majorities, 80 percent in the United States, no 
matter how you put the question, say they would like to at 
least consider reprocessing as an option for waste management 
issues. And substantial majorities, while preferring to 
continue to reduce our nuclear arsenals, do not want to go to 
zero. They perceive substantial national security benefits from 
maintaining a nuclear arsenal.
    And the point is the U.S. public sees large benefits from 
nuclear technologies; it does not want to walk away. So where 
do we go?

                           PREPARED STATEMENT

    And that is where we get back to this integrated debate and 
the importance of this debate for shaping future policy 
options. I think all of this has to be on the table for future 
discussion. And I think that is why this subcommittee is so 
important and its mission is so important.
    Thank you very much, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Hank C. Jenkins-Smith

    Thank you for inviting me to address this Committee. For my 
testimony this morning I will be relying on the expertise of my 
colleagues from the University of New Mexico, two of whom are with me 
today--Kerry Herron and Carol Silva. I will also be drawing on the 
insights, concerns and preferences of many thousands of American 
citizens who have participated in our focus groups and surveys on 
nuclear issues over the past decade.
    I will focus my remarks on the nuclear materials problem facing the 
United States. The nuclear problem has several critical dimensions. 
These include:
    Nuclear energy--where we are faced with an aging fleet of reactors 
which currently produce over 20 percent of our domestic electricity. At 
present, there are no apparent replacements for these reactors in 
sight. Should conventional fuels be used to fill the energy gap, U.S. 
dependency on foreign fuel supplies will grow. And CO<INF>2</INF> 
emissions from U.S. energy consumption are likely to rise 
significantly, playing havoc with U.S. efforts to reduce greenhouse gas 
emissions.
    Nuclear weapons demilitarization--which has resulted in the 
stockpiling of plutonium both at home and abroad, poses critical long-
term security issues. The handling of the dismantled plutonium pits--
and the determination of whether they are to be treated as a waste or a 
resource--is a pressing matter yet to be resolved.
    Nuclear waste disposal--in which national efforts to develop 
interim and permanent repositories have met with passionate opposition, 
and about which members of the public express deep concerns about risks 
to their families and local economies. Conflict over waste disposal 
programs has led to enormous costs, program delays, and unnecessary 
political antagonism.
    Nuclear energy, demilitarization, and waste disposal are 
intertwined problems, and I believe that reaching appropriate technical 
and policy solutions will depend on addressing them openly as an 
integrated national policy problem.
    On many fronts, nuclear materials policy in the U.S. appears to be 
hamstrung. Government and industry officials charged with developing 
and implementing U.S. policies are frustrated. From the perspective of 
many of these officials, a vocal opposition to all things nuclear has 
stymied efforts to site facilities or to transport, store and dispose 
of nuclear materials in a safe, efficient and timely fashion. Many 
opponents of current policies are equally frustrated, arguing that 
current policies are merely stop-gap solutions, and that the risks of 
these policies are too large and are unfairly imposed.
    What are the sources of these frustrations? In part, the problem is 
historical in nature. Critics can point to a legacy of high-handed 
policies, a failure to engage in an open and meaningful national 
dialogue on the risks and benefits of nuclear technologies, and to what 
in 20-20 hindsight appears to be a callused disregard for public 
safety. But difficult steps have already been taken to move beyond the 
historical record and to deal with problems we face today. Our research 
leads me to conclude that most Americans are ready to look ahead, 
rather than behind, on these issues.
    Other sources of policy frustration remain to be faced, however. 
The most important is the fragmentation of nuclear policy in the United 
States. For reasons that may have been important at the time, we have 
for all practical purposes segmented nuclear policy into the areas of 
nuclear energy, transportation, waste disposal, and nuclear weapons 
demilitarization. This kind of fragmentation has separated 
consideration of energy production from nuclear waste disposal, and has 
isolated nuclear weapons demilitarization from both. Fragmentation of 
nuclear policy seriously hampers meaningful national dialogue on the 
benefits and costs of any of these critical policy areas. Nuclear 
critics have long complained that U.S. nuclear energy policy ignored 
the waste issue--and they were right. We considered the benefits of 
nuclear energy without adequately addressing the costs. Now the tables 
are turned: we are considering the waste issue in absence of the energy 
and demilitarization dimensions of the problem. In any open dialogue on 
nuclear waste, we now face what are widely perceived to be the costs of 
managing radioactive waste detached from any identifiable benefits. I 
think it is time to take the nuclear critics at their word, and 
reintegrate the cost and benefit sides in an open nuclear policy 
debate.
    One of the key implications of the fragmentation of nuclear policy 
is that it fosters a ``risk myopia''. By segregating the issue of 
nuclear waste we have created a policy context in which the central and 
salient issue is risk. To see this, you only need look at the debates 
over the proposed waste repositories at the WIPP and at Yucca Mountain. 
The debate is fixated on risk, with proponents arguing that risks are 
small and manageable and opponents arguing that risks are large and 
unimaginable. ``Risk'' permeates the public debate. We make matters 
even worse when the discussion of risk is not comparative. Rather than 
compare the risks posed by alternative disposal strategies, our 
regulatory process leads us to focus on the absolute risk posed by a 
given facility. In the process we talk in strange languages, about 
risks of ``ten-to-the-minus-six'' spread over ten-thousand year 
periods. But by talking about absolute risk, without comparisons to the 
risks of other options, and without reference to associated national 
benefits, we put ourselves in a situation where any risk can readily be 
seen as an unacceptable imposition of harm on somebody. To put it 
simply, when risk is without context, any risk can appear to be 
unacceptable. We have created a policy debate which, in the eyes of the 
public, is about the imposition of risk without context. Should we be 
surprised when those who might bear the risk become enraged and ask 
``why me?''
    The isolation of nuclear waste issues has made efforts to site 
nuclear waste facilities and routes easy targets for opponents. Our 
political system offers many opportunities to block policy initiatives, 
and these have been employed with great success. Because nuclear waste 
management policies are so easily blocked, and because of the urgency 
of moving forward in waste management efforts, we have witnessed the 
proliferation of very creative efforts to gain ``stakeholder'' 
acceptance of radioactive waste clean-up and disposal programs. 
Included are such entities as Site Specific Advisory Boards (SSAB's), 
stakeholder forums, various working groups, and many others. These 
efforts have in fact constituted an experiment in how citizens are to 
be represented in American politics. Let's call it an experiment in 
``stakeholder democracy''. The nature of the experiment is to have 
direct--and sometimes authoritative--involvement by those deemed 
``stakeholders'' in the development and implementation of the affected 
program. The implication is that representative democracy, with the 
traditional institutions of elections at federal, state and local 
levels, has proved unsuited to the task. While some of these 
experiments in stakeholder democracy have been notable successes, I do 
not believe resorting to stakeholder democracy is a prudent way to deal 
with the problems created by our fragmented nuclear policies.
    First, stakeholder democracy can--and in some cases does--collide 
with representative politics. Elected officials, who are accountable to 
their voters, may object to having their constituents ``represented'' 
by an un-elected stakeholder representative. From a political 
standpoint, such a step may undermine the elected official, and reduce 
the incentive to raise urgent local issues in political election 
campaigns. If we do that, we undermine the whole point of electoral 
political processes.
    Second, stakeholder democracy can create serious problems of 
commitment. In the creation of stakeholder groups, gaining the 
necessary commitment of time and energy from participants usually 
requires offering them meaningful policy influence. Thus, when 
stakeholder groups make decisions, they may rightly believe that they 
have acted with some authority. But when national policies change--as 
they do when the public elects new leaders--new national priorities may 
override the stakeholder decisions. When that happens, those involved 
are likely to be even less trusting of the government. In essence, 
attempts to gain trust in the short run may actually erode it over the 
longer haul.
    Third, the implications of nuclear policy are so large and far-
reaching that all Americans are stakeholders. Resolution of the nuclear 
problem will require that we bring all Americans, through their elected 
representatives, into the discussion.
    Experiments in stakeholder democracy have value in many public 
issues, but they will not resolve the problems created by the policy 
fragmentation and risk myopia that plague nuclear policy in the United 
States.
    Where do we go from here? Part of the answer comes from listening 
to Americans' views on nuclear technologies and materials in a broader 
context. Generally speaking, most Americans do not want to walk away 
from our nuclear options. Let me illustrate this by three findings from 
surveys conducted by the University of New Mexico over the past several 
years.
    First, Americans do not want to abandon nuclear energy. When a 
nationwide sample of Americans were asked whether the current 
utilization of nuclear energy in the United States should be decreased, 
kept the same, or increased, about 43 percent wanted to keep it the 
same and around 30 percent wanted to increase it. Approximately 27 
percent wanted to decrease reliance on nuclear energy.
    Second, most Americans would like the government to investigate 
prospects for reusing spent nuclear fuel rods, even when apprised of 
the possible proliferation risks associated with reprocessing. In fact, 
whether it is called ``reusing'' or ``recycling'' spent nuclear fuel, 
about 4 out of 5 respondents to a random sample of Americans were in 
favor of making use of spent fuel to produce more energy.
    Third, Americans are increasingly in favor of investing now to 
maintain the infrastructure for possible future research and 
development in the area of nuclear weapons. Americans believe that, in 
today's world, there is an important place for our own nuclear arsenal. 
Americans would like to continue to reduce the number of nuclear 
weapons we and others hold, but four out of five of our respondents 
nation-wide do not want to reduce our nuclear arsenal to zero.
    The point behind these examples is that Americans do see 
substantial benefits in the use of nuclear technologies, whether they 
be for energy or national security. But these benefits are not 
addressed in our fragmented nuclear policy discussion concerning 
nuclear waste management. When it comes to waste, regardless of who 
asks, most Americans are opposed to having nuclear waste shipped 
through their communities or disposed of in facilities in their states. 
Why is that?
    A lot of our research has been focused on why people react as they 
do to the prospect of nuclear waste transport and storage. In a 
nutshell, when faced with a controversial problem like nuclear waste, 
Americans want to hear good and robust reasons for a policy. They want 
to see that the solution offered is a long term one. And they want to 
be able to identify tangible national benefits from the policy.
    How well does the prospect of conventional deep geologic disposal 
stand up? Based on repeated tests in our focus groups, not very well. 
First, because we have disengaged nuclear waste disposal from energy 
generation or national security, we have isolated the perceived 
threats, the negatives, and the nightmares from any associated local or 
national benefits. Second, participants in our focus group discussions 
have generally concluded that, if the repository can't accommodate all 
of the current and expected waste, then it is merely a temporary stop-
gap solution. Other repositories will be needed. Most are reluctant to 
accept a deep-geologic repository option unless it holds promise of 
resolving the long-term problems posed by managing radioactive wastes. 
Third, our focus group participants are appalled by the prospect that 
we'll have to make a wrenching political decision about the location of 
a first repository, only to be faced with having to do it all over 
again sometime down the road. In sum, the deep geologic repository 
approach to nuclear waste management is a hard sell with the American 
public.
    How can nuclear materials policy respond to public concerns? First 
and foremost, gaining acceptance of nuclear materials management 
strategies will require reintegrating the way we address nuclear 
issues. The future of nuclear energy in the United States--with the 
associated implications for our economy, security and environment--must 
be put on the table along with nuclear weapons demilitarization and 
nuclear waste management. Only in the context of the full array of 
implications do the costs of nuclear waste disposal make sense. Such a 
step may seem risky to those fearful that Americans may reject nuclear 
power as the price for tolerating nuclear waste disposal. Our surveys 
show that to be very unlikely. Recall that most Americans would prefer 
to retain or increase our reliance on nuclear energy. And, when asked 
whether their support for a deep geologic disposal facility would 
change if production of nuclear energy ceased in the United States, 
almost as many said abandoning nuclear energy would decrease support 
for a repository as said it would increase support. Furthermore, in an 
open and integrated debate the implications of nuclear energy for 
greenhouse gas emissions would, in all probability, receive substantial 
attention. Such attention is badly needed: in a recent nationwide 
survey, 43 percent of our respondents thought the generation of nuclear 
energy was a cause of greenhouse gas emissions. A more open and 
integrated debate would be very likely to change that, which in turn 
would be likely to increase support for retaining the nuclear energy 
option. More generally, a full and open debate on nuclear policy would 
be unlikely to result in the rejection of nuclear energy. All of us can 
afford to take the high road on this one.
    Opening up the nuclear policy debate would permit changes in 
current policy designs that have the potential to substantially 
increase public support for nuclear waste management programs. We have 
explored how support for a nuclear waste repository would change if the 
policy were modified in a variety of ways. In one experiment we asked 
how support for a disposal facility would change if, in addition to 
storing and monitoring the waste, the facility would be used as a 
laboratory to study the material to increase safety. Under this option, 
support increases dramatically, even among those who strongly oppose 
the facility in the first place. More broadly, ``permanent storage'' in 
a monitored facility evokes less fear and opposition than does the idea 
of ``disposal''. Benefits are evident as well as risks. In short, 
Americans prefer to generate and retain options for dealing with 
nuclear waste in the future, rather than foreclosing them now. Thus 
even small steps to increase the benefits side of the equation can 
generate significant increases in support for nuclear waste policies.
    Let me conclude by pointing to some very hopeful signs for the 
future of nuclear policy in the United States. One is that the design 
for the proposed Yucca Mountain high level nuclear waste repository now 
includes the capability to remain open for up to 300 years, permitting 
future generations to pursue options other than entombment. Another is 
that, after 20 years of often acrimonious debate in New Mexico, a near 
majority or respondents in a recent University of New Mexico survey 
said they would vote to open WIPP if a referendum on the issue were 
held today. Among those who ventured a preference, 52 percent were in 
favor of opening the facility. My hope is that, with an open and full 
debate on nuclear policy, we can build on these hopeful signs.
    I would be happy to answer any questions you may have.


STATEMENT OF JOE F. COLVIN, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, NUCLEAR ENERGY INSTITUTE
    Senator Domenici. Thank you very much. And we will have 
some questions later.
    Mr. Colvin.
    Mr. Colvin. Mr. Chairman, Mr. Reid, thank you very much for 
the opportunity to talk about these important issues.
    I think it is important, as we look to the needs of our 
Nation, moving into the 21st century, and that of the world, to 
look at the strategic elements of these issues and how they 
come together to ensure that we can address the concerns 
related to energy demand, energy security and ensuring that we 
have needs that meet the environmental issues that we are 
concerned about.
    So, as we move forward, we need to take advantage of the 
lessons learned that we have had in the past, and ensure that 
we do not focus on the short term but rather on the strategic 
issues. And as a result, there is a tremendous benefit and 
importance of the policy debate on these issues moving forward. 
And I would say, Mr. Chairman, your leadership and that of the 
committee in this activity is particularly important, and 
encouraging certainly for our industry.
    I think as we see these issues, we see a convergence of the 
policy issues on nuclear energy coming together from many 
different forums. And just last week, in San Francisco, Mr. 
Chairman, we issued a strategic direction for the 21st century, 
which is a shared vision that the industry has on what we need 
to do to move forward to ensure that the benefits of this 
technology continue to inure to our Nation.
    You have a copy of that in front of you, and I might just 
point out the scope and dimension of that. The issues, in fact, 
we have pointed out--which are just inside the front cover--
really are talking about eight compass points which tend to set 
that direction. I will just mention those briefly.
    First, an actual energy policy that ensures diversity and 
reliability of energy supply. Second, excellence in safe and 
reliable nuclear power and powerplant operations worldwide. 
Third, an effective safety-focused regulatory framework. 
Fourth, an integrated used fuel management system, and 
effective low-level waste disposal system. Fifth, the 
recognition of the intrinsic economic value of emission-free 
nuclear energy. Sixth, business conditions and policies that 
position nuclear plants for a competitive electricity market. 
Seventh, increased recognition of the strong public 
policymakers' support for nuclear energy and, last, really the 
next generation of nuclear powerplants.
    I would like to talk about two of those issues, the first 
issue being really how we take advantage of the tremendous 
value and the intrinsic value of emission-free electricity in 
the United States. And in that arena, I really want to talk 
about clean air--nuclear's role in meeting not only clean air 
requirements, but those of the carbon dioxide debate that is 
going on in the global climate change arena.
    The map that is up here really illustrates nuclear's 
tremendous contribution in the Clean Air Act compliance base. 
And just on that map, the nuclear powerplants are shown in 
pink. The blue and yellow sections represent those areas in the 
United States that do not meet ozone attainment under the Clean 
Air Act, or will be out of attainment. As you can see, those 
are also areas that have dense population and many other 
activities that generate pollution.
    Those particular regions of the country are really required 
to take actions to reduce their emission levels. And those 
actions may entail and have entailed reducing industrial 
expansion or even in adding increased emission controls for 
automobiles. Nuclear energy's role in those areas is 
particularly important as we move forward and to how we meet 
clean air requirements.
    Nuclear energy in the United States has--really, the 
powerplants, since 1973--have added 40 percent to our Nation's 
energy supply, and have done that without any pollutants to the 
environment. CO<INF>2</INF> emissions have been reduced by over 
147 million metric tons, sulfur dioxide by about 80 million 
metric tons, and nitrous oxides by about a corresponding 30 
million metric tons from this energy source. And it is ironic 
that with this tremendous contribution our administration has 
not recognized nuclear's important role in any of its 
discussions on clean air attainment or in this context of 
global climate change.
    Senator Domenici. Mr. Colvin, those numbers you just cited 
are quantities that would have been emitted and contributed to 
polluted air if the nuclear powerplants that you are describing 
were coal burning; is that correct?
    Mr. Colvin. Yes, sir; those are the emissions that were 
avoided through the use of nonemitting technologies. In this 
particular case, that is nuclear, yes, sir.
    Senator Domenici. That would be interesting for somebody to 
see how far off attainment we would be or where those 
pollutants would get us.
    Mr. Colvin. Yes, sir; in fact, we are doing some analyses. 
We have done some emission avoidance studies for the United 
States and for the world. And we are also doing some studies 
related to ozone nonattainment that follows up on this 
particular graph. We would be happy to share that with the 
subcommittee, sir.
    Senator Domenici. We would be happy to receive that.
    Mr. Colvin. The second issue I would like to talk about, 
Mr. Chairman, is the issue of public safety. Dr. Jenkins-Smith 
has raised the issue, and I support the comments that he has 
made. I would say that in our view and in our analysis, there 
is tremendously strong public support for nuclear energy. It is 
ironic when you look at this issue--and this is probably the 
most disturbing fiction about our industry, and it is a 
misconception that has gone unchallenged for a long time, and 
in particular I would like to just point out a couple of facts.
    We have done, and continue over the years to do, a number 
of polls. And two-thirds of the public over these number of 
years personally support nuclear energy in the United States. 
As this chart shows, a recent national survey conducted earlier 
this year determined that 76 percent of the public agreed we 
should keep our existing plants, 87 percent support renewing 
the operating licenses of these plants that meet continued 
safety standards; and, in fact, 73 percent agreed that we 
should build new nuclear plants in the future.
    Interestingly, on this particular poll, when asked what 
sources of energy would be most used in the United States 15 
years in the future, they picked nuclear over solar. I think 
that is clear that these polls certainly burst the myth of the 
public. But the reality is that there is a perception gap. And 
I would say, Mr. Chairman, that perception gap exists within 
the public and exists within the policy infrastructure in our 
country.
    In this case, in this particular poll, you can see the 
dramatic difference. When you ask people what they believe, 
they believe--in this case, 65 percent--we should support 
nuclear energy. But when you asked them what their neighbors 
think, they think that number drops to 21 percent.
    There are a couple of basic reasons for that. And the first 
reason, sir, is that the issue is somewhat controversial. The 
second issue is they really are not educated well on the issue. 
And they would like more information to be able to support that 
and debate that.

                           PREPARED STATEMENT

    This perception gap must be closed. And I think this 
committee and the leadership that this committee is exercising 
in this area, along with the efforts of the industry, Mr. 
Chairman, would make a great effort in moving this perception 
gap closer to the reality that we see in the public.
    Thank you, sir.
    Senator Domenici. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Joe F. Colvin

    Mr. Chairman and members of the subcommittee, my name is Joe F. 
Colvin. I am pleased to be here this morning on behalf of the Nuclear 
Energy Institute, where I am president and chief executive officer. The 
Institute is a policy organization for more than 275 companies that 
operate U.S. nuclear power plants, along with suppliers, engineering 
and design firms, universities, laboratories, radiopharmaceutical 
companies, consulting firms, law firms and labor unions.
    First, let me thank you, Mr. Chairman, Ranking Member Reid and 
other distinguished members of this subcommittee for inviting me here 
to speak about the strategic direction for nuclear energy for the 
coming years.
    As we draw near the 21st Century, the United States and the world 
face a series of interrelated challenges concerning energy, the 
environment and population growth. But as we know, long-range strategic 
issues like these can be easily deferred, and important energy lessons 
learned in past decades can be easily forgotten. We cannot allow that 
to happen.
    Inaction is no longer an option. The days of dormant energy and 
environmental policy are a thing of the past. For the coming century, 
the energy industry must adapt to a new set of pressures and concerns. 
And policymakers will have to adopt a new course of action to 
successfully forge solutions on many related issues, such as a 
competitive energy market, new air quality controls, and a growing need 
to reach global populations without electricity.

                           A BETTER DIRECTION

    These key policy issues are converging in a way that is positive 
for society as a whole--and for our industry. Just last week, the 
industry unveiled a blueprint for the future at the industry's annual 
meeting in San Francisco. This guiding strategy is called ``Nuclear 
Energy: 2000 and Beyond, A Strategic Direction for Nuclear Energy in 
the 21st Century.''
    The strategic direction is an important document for industry, for 
policymakers and for electricity consumers. It is designed to inform 
and to guide a thoughtful dialogue about deriving the greatest benefits 
from nuclear energy. This document was provided to the subcommittee as 
part of my testimony, and is also in front of you.
    This shared vision for a bright future requires resolution on key 
policy issues that this subcommittee can shape. The document has eight 
sections, each representing a specific policy area in which we need to 
pursue a course of action.
    Please turn to the opening page as I describe the eight essential 
compass points to a better future for nuclear energy:
    1. A national energy policy that ensures diversity and reliability 
of energy supply.
    2. Excellence in safe and reliable nuclear power plant operations 
worldwide.
    3. An effective safety-focused regulatory framework.
    4. An integrated used fuel management system and effective low-
level waste disposal system.
    5. Recognition of the intrinsic economic value of emission-free 
nuclear energy.
    6. Business conditions and policies that position nuclear plants 
for a competitive electricity industry.
    7. Increased recognition of the strong public and policymaker 
support for nuclear energy, and
    8. The next generation of U.S. nuclear power plants.
    Today, I would like to emphasize two of those key points. The first 
point is the need to recognize how absolutely essential the emission-
free value of nuclear energy is to achieving domestic and international 
environmental controls on clean air.
    Today, nuclear energy provides the largest source of America's 
electricity without compromising the quality of our air.
    In the last 25 years, nuclear power plants have met 40 percent of 
the new demand for U.S. electricity. At the same time, nuclear energy 
has prevented emissions of 80 million tons of sulfur dioxide and more 
than 30 million tons of nitrogen oxide that would have been produced by 
other energy sources.
    Yet the Clinton Administration fails to credit the nuclear energy 
industry for its clean air benefits. Nuclear energy is excluded in the 
Administration's industry restructuring principals regarding climate 
change, and in its discussion of the methods the U.S. will use to 
reduce emissions--whether to meet new Clean Air Act restrictions or 
worldwide carbon emissions reductions.
    Let me illustrate nuclear energy's important contribution to Clean 
Air Act compliance. This map to my (right) illustrates the critical 
role of nuclear power plants on a local level. The green dots represent 
nuclear plants. The blue and yellow sections represent areas that do 
not meet ozone attainment under the Clean Air Act or that will be out 
of attainment when a new standard is implemented--areas that also have 
a dense population and many activities that generate pollution.
    These areas are already required to take actions to reduce their 
emission levels, such as restricting industrial expansion or increasing 
emission controls for cars. The job becomes much more difficult if the 
nuclear energy they depend on is not available.
    The estimated cost for clean air compliance at the turn of the 
century is more than $11 billion. Moreover, these costs do not account 
for controls on carbon dioxide emissions proposed in the international 
accords from the Kyoto summit.
    As these financial commitments to emissions compliance grow, it has 
never been more apparent that the United States must maintain its 
existing nuclear generating capacity, renew plant operating licenses 
and build advanced nuclear plants to meet new electricity demand.
    Congress, however, must do more than simply preserve nuclear energy 
for its emission-free benefits. There must be broader recognition among 
your colleagues in the Senate and House, as well as the administration, 
of nuclear energy's environmental achievements.

                           PUBLIC ACCEPTANCE

    That brings me to my second point. There is established strong 
public support for nuclear energy.
    The idea that the public somehow finds nuclear energy unfavorable 
is perhaps the most disturbing fiction about our industry. It's a 
misconception that has gone unchallenged for too long and that is 
particularly distressing when you consider the following facts.
    Industry surveys of opinion leaders and the public consistently 
show that two-thirds of those polled personally support nuclear energy. 
For example, a national survey earlier this year determined that 76 
percent agreed that we should keep our existing nuclear energy plants. 
Eighty-seven percent support renewing the operating licenses of nuclear 
energy plants that meet federal safety standards. In that same poll, 
responders ranked nuclear energy first among electricity sources most 
likely to be used in the United States in 15 years--beating out solar 
energy.
    The findings from these polls certainly burst the myth that nuclear 
isn't publicly supported. Yet when asked about the public perception of 
nuclear energy, policymakers think that their constituents aren't 
supportive.
    This perception gap must be closed. I encourage the members of this 
subcommittee to recognize that strong public support exists for nuclear 
energy, and to exercise the strong leadership necessary to support key 
nuclear energy initiatives.
    The federal government should clearly and openly articulate a 
critical role for nuclear power plants in the nation's energy and 
environmental agenda. The industry is prepared to work with the federal 
government in a leadership role for nuclear energy.
    As we leave the 20th Century, it becomes clear that the premise 
underpinning the U.S. government's energy policy is that we have enough 
electricity to see us through the next decade or so. This status quo 
position, however, does not adequately prepare us for the challenges of 
maintaining our energy diversity, economic security and environmental 
compliance that lay ahead. Recognizing nuclear energy's valuable 
contribution in these policy areas is absolutely key as we continue to 
meet important environmental goals and move toward a competitive 
electricity market.
    Foremost for the remainder of this session, Congress and the 
Administration must work together when it comes to nuclear waste 
disposal. There is legislation pending to remedy that stalemate. The 
Nuclear Waste Policy Act would speed the disposal of used nuclear fuel 
and defense high-level waste by providing above ground, temporary 
storage until a long-term, underground repository is ready to accept 
used fuel. I urge this subcommittee to join the majority of Congress in 
supporting this legislation. And to do all you can to move this bill to 
the Senate floor now. Enacting this legislation is a critical step to 
ensure that nuclear power remains a viable and competitive energy 
source.
    Here to provide a more personal and in-depth view of nuclear 
energy's promise in a restructured electric industry is Corbin McNeill, 
whom I have the pleasure of introducing. Mr. McNeill is chairman and 
chief executive officer of PECO Energy Company. No doubt you all have 
read about PECO's recent decision to join British Energy in acquiring 
nuclear power plants around the country. I'll let him tell you why 
that's a strong position for his and other utilities as we enter a 
competitive marketplace.


STATEMENT OF CORBIN A. McNEILL, JR., CHAIRMAN AND CHIEF 
            EXECUTIVE OFFICER, PECO ENERGY CO.
    Senator Domenici. Mr. McNeill.
    Mr. McNeill. Senator Domenici, Senator Reid, my name is 
Corbin McNeill. I am chairman and chief executive officer of 
PECO Energy Co., an investor-owned utility with headquarters in 
Philadelphia. And I thank you for the opportunity to appear 
before you today to discuss the very important subject of 
nuclear energy. PECO Energy operates two nuclear powerplants in 
Pennsylvania, and we are part owners of a third powerplant in 
New Jersey.
    In the interest of time, I will summarize my testimony, 
which has been submitted in full for the committee's review.
    Pennsylvania, and indeed the entire Nation, is moving 
toward competition in electric generation. These changes are 
forcing utilities to make critical decisions about their 
futures. I and my company believe that nuclear energy must 
continue to be an important part of our Nation's generation 
capacity. And PECO Energy is committed to nuclear energy. We 
formed a joint venture, called Amergen, with British Energy, 
the nuclear generating company in Great Britain, to acquire and 
operate nuclear plants in North America.
    We are doing this because we strongly believe in nuclear 
power and that it can, in fact, be competitive when operators 
take the following action. First, they must develop a strong 
safety culture. Second, they must make investment in plant 
reliability in order to sustain high-capacity operation. Third, 
operating costs must be reduced to competitive levels. Fourth, 
operators must aggressively self-assess for declining 
performance and make timely corrective actions as necessary. 
And, fifth, units must be consolidated to reduce overhead and 
increase the efficiency and economies of scale.
    These steps will make existing plants competitive in the 
new electric generation marketplace. The entire it, as well as 
regulators, must learn that low-cost operation and safety are 
not mutually exclusive. Consolidation, process standardization 
and a strong performance ethic are keys to success. 
Consolidation will reduce overhead and allow expertise and best 
practices to be shared among a number of plants. Commonality of 
operations will help focus on the processes of operation.
    And as noted in the industry's plan for the 21st century, 
the NRC has a strong role in sustaining a competitive industry, 
by providing an effective, safety-focused regulatory framework. 
Currently, nuclear powerplants are regulated to the lowest 
common denominator. Plants are evaluated against a scale based 
not on public safety but on average industry performance. And 
as the industry performance improves, the bar keeps getting 
raised higher and higher.
    While poor performance should be identified and performance 
improved, above-average performers should not be restrained by 
inappropriate regulatory standards. What type of regulatory 
process is needed?
    Well, we believe that the NRC should establish performance 
expectations that are directly linked to public health and 
safety, and that can be effectively measured. The agency should 
also establish a firm safety-based threshold for measuring 
plant performance. The Commission should also take guidance 
from Vice President Gore's initiative in ``Reinventing 
Government.''
    For example, during the next decade, a number of nuclear 
plants will apply for relicense. And it is estimated that the 
NRC will take 2 to 3 years to complete this process for each 
plant. I believe that the Nuclear Regulatory Commission should 
work to put into place processes that, after the first several 
plants are relicensed, would permit the completion of 
relicensing reviews within 6 months. This would be the 
equivalent, at the Government level, of what the industry has 
accomplished in recent years in reducing its outage links from 
in excess of 100 days to about 30 days.
    The energy marketplace is changing very rapidly. All 
utilities are repositioning to compete in a new environment. 
And the NRC must keep pace with the industry to ensure that 
public safety is maintained without jeopardizing the economic 
operation of nuclear powerplants.

                           PREPARED STATEMENT

    Thank you very much, and at the end of the presentations I 
will be glad to answer any questions that you might have.
    [The statement follows:]

                Prepared Statement of Corbin A. McNeill

    Mr. Chairman and members of the subcommittee, my name is Corbin 
McNeill. I am chairman and chief executive officer of PECO Energy 
Company, with headquarters in Philadelphia.
    Thank you for the opportunity to appear before you today to discuss 
the very important subject of nuclear energy and nuclear regulation in 
the United States. PECO Energy operates two nuclear power plants--both 
in Pennsylvania.
    In the interest of time I will summarize my testimony, which has 
been submitted in full for the committee's review.
    Pennsylvania, and indeed the entire nation, is moving towards 
competition in electric generation. These changes are forcing utilities 
to make critical decisions about the future. I believe that nuclear 
energy must continue to be an important part of our nation's generation 
capacity.
    PECO Energy is committed to nuclear energy, and we've formed a 
joint venture--AmerGen--with British Energy to purchase and operate 
nuclear plants.
    We are doing this because we strongly believe nuclear power can be 
competitive if operators take certain actions. (1) There must be a 
safety culture; (2) Investment must be made in plant reliability to 
sustain high capacity operations; (3) Operating costs must be reduced 
as much as possible; (4) Operators must aggressively self-assess for 
declining performance; and (5) units must be consolidated to reduce 
overhead.
    These steps can make plants competitive in the new electric 
marketplace. The entire industry--as well as regulators--must learn 
that low-cost operation and safety can both be achieved. Consolidation, 
process standardization and a strong performance ethic are key to 
success. Consolidation will reduce overhead and allow expertise and 
best practices to be shared. Commonality of operators helps to 
eliminate reactionary responses and, instead, focuses on processes.
    Currently nuclear power plants are regulated to the lowest common 
denominator. Plants are evaluated against a scale based not on public 
safety, but on average industry performance. As the industry improves 
plant performance, the bar keeps getting higher and higher. Poor 
performers should be identified and performance improved. Above average 
performers shouldn't be restrained by standards designed to maintain 
all plants at a minimum level.
    What type of regulatory process is needed? The NRC should establish 
performance expectations that are directly linked to public health and 
safety and that can be measured effectively.
    The agency should also establish a firm, safety-based threshold for 
measuring plant performance.
    The NRC should take guidance from Vice President Gore's initiative 
on reinventing government. For example, during the next decade a number 
of nuclear plants will apply for re-licensing. It's estimated that the 
NRC will take a year or two to complete this process for each plant. I 
believe the Commission should work to put into place processes that, 
after the first several plants are re-licensed, would permit the 
completion of its re-licensing reviews within six months. This would be 
the equivalent at the government level of what the industry has 
accomplished in reducing outage lengths to 30 days.
    The electricity marketplace is changing rapidly. All utilities are 
repositioning to compete in this new environment. The NRC must keep 
pace with the industry to ensure public safety without jeopardizing the 
economic operation of nuclear power plants.
    Thank you and I will gladly answer any questions you may have.

    Senator Domenici. Mr. McNeill, maybe you are the right one 
to answer this. If you are not, maybe one of the other 
panelists would. Japan builds nuclear powerplants. How long did 
it take for their last one?
    Mr. McNeill. I believe it was on the order of 4\1/2\ years 
Kashawazaki No. 4, I believe it was.
    Senator Domenici. How long did it take for the last nuclear 
powerplant to be built in the United States?
    Mr. McNeill. The last nuclear plant in this country was 
Wilkes-Barre, which took 23 years.
    Senator Domenici. I assume there is a similarity between 
the plants?
    Mr. McNeill. The technology is very similar, yes.
    Senator Domenici. The risks are similar?
    Mr. McNeill. I think the risks in Japan may be even a 
little bit higher because of the higher earthquake potential 
that they have in Japan.
    Senator Domenici. Professor Wilson. Again, I want to thank 
you personally for joining us. I understand that is a difficult 
thing to fly in and come right over here. I did not know I was 
doing that to you or I might have held you immune from this. 
But I am glad you are here.


STATEMENT OF RICHARD WILSON, PH.D., MALLINCKRODT 
            PROFESSOR OF PHYSICS, HARVARD UNIVERSITY
    Dr. Wilson. Mr. Chairman, Senator Reid, it is certainly an 
honor to talk to you today. And I apologize; a copy of my 
testimony was first sent by fax and then e-mailed yesterday, 
but they got lost somewhere across the Atlantic.
    The United States emits 11 percent more carbon dioxide than 
in 1990. A Kyoto, we promised to reduce it 8 percent below 1990 
levels. If we abandon nuclear power, there will be another 
immediate 8 percent increase, not decrease. Can we meet our 
international commitments?
    Nuclear power, as your chairman has said, is unique in 
producing no appreciable particulate air pollution, not 
contributing to global warming, and be able to produce power 
for 100,000 years at modest cost. But the cost has gone up 
threefold in the last 25 years. Twenty-five years ago, 
Connecticut Yankee Nuclear Powerplant was producing energy at 
55 cents a kilowatt hour, including some payment of the 
mortgage. The actual operating cost was probably about 4 cents 
a kilowatt hour. Now, it has been permanently shut down because 
it costs 3.7 cents a kilowatt, a ninefold increase in operating 
costs.
    In most technologies, there is a learning curve. In this 
one we have an unlearning, or a forgetting, curve. In 1980, the 
question was, why should any utility company go nuclear? Now, 
the question is, why should any utility company stay nuclear? 
Not one unless the costs can come down or the environmental 
costs of coal burning can be internalized to keep the relative 
costs up.
    Why have the costs gone up? What can we do to bring them 
down?
    Many people suggested that a major problem is the 
regulation is more than needed for adequate safety, and this 
increases the cost. In particular, regulation is too 
prescriptive and not based on performance. Often the response 
to regulation is to increase staff. The staff number at the 
Dresden Powerplant went from 250 in 1975 to over 1,300 today. 
This costs money, and I do not think it increases safety.
    Senator Domenici. Would you repeat that statement, please?
    Dr. Wilson. This costs money, but I do not believe it 
appreciably increases safety.
    Senator Domenici. The number, too, please.
    Dr. Wilson. According to Wally Banke, the numbers at the 
Dresden Powerplant went from 250 in 1975 to 1,300 today.
    Mr. McNeill. Those are not unusual.
    Dr. Wilson. In 1974, when the AEC was split, the NRC had no 
mandate to keep nuclear powerplants in operation, unlike the 
former AEC, but only to ensure that they operate without undue 
risk to the public. It was left to the Department of Energy to 
promote nuclear energy and to provide a balance.
    It is important to realize the utility companies cannot 
provide this balance themselves. Every regulator has the 
ability to keep a powerplant shut down for an extra day, which 
costs $1 million. This is an extraordinary power, which few 
utility companies know how to cope with.
    If there is no one actively from outside promoting nuclear 
energy, regulation will inevitably become more strict, and will 
force unnecessary price increases, until price competition 
destroys the industry.
    I think two steps are necessary. The first is to find more 
efficient regulation; and the second, to find a group which 
will play the active promotional role that is so necessary in 
the U.S. system. The first step was already begun by the first 
Commission under the astronaut, Bill Anders, 14 years ago. 
After 2 years of public hearings, the NRC set radiation safety 
goals. The radiation exposure should be reduced if it costs 
less than $1,000 per man-REM, now increased to $2,000 per man-
REM. A corollary to this, which was implied but not stated, is 
if a proposed dose-reducing action would cost more than this, 
it should not be done.
    In the 1980's, the Commission promulgated a set of safety 
goals. These were calculated and based on keeping it lower than 
the risks of other technologies. A subsidiary safety goal which 
I will address here was to keep the frequency of core melt to 
less than 1 in 10,000 years per reactor. Safety improvements 
must be made to keep the core melt below that amount. 
Presumably, steps to reduce the frequency still further were 
unwarranted unless particularly cheap.
    Studies can be made retrospectively to see whether the 
regulations are such that these goals are met. An independent 
study at Harvard School of Public Health suggests the rad waste 
regulations cost $1 million per man-REM, which is a thousand 
times the goal. That seems a waste of money.
    A PRA can be used to discuss retrospectively whether the 
safety of the reactions, designed and operated under existing 
regulations, are safer or less safe. If they do not meet the 
goal, they should be tightened. If they do meet the goal, with 
a large margin, regulations can be relaxed.
    For example, 8 years ago, the NRC had a study of four 
typical reactors in new regulation 1150. It was found that core 
melt was always less than this amount. Nonetheless, they were 
proposing safety improvements. And when I am on a committee I 
propose that either the goals were wrong, the calculation was 
wrong, or they were being made to save money. Unfortunately, in 
a somewhat isolated case, they decided not to push the 
movements.
    If you have gone too far and you have a structure and you 
have deliberate violations then, of course, it is much more 
difficult. But even here, I would suggest a graded response. A 
powerplant must be shut down, as it was at Millstone in 
Connecticut 2 years ago, but only until the NRC could determine 
whether the safety goals were exceeded.
    Now, several successive administrations have felt it 
desirable to tighten up regulations in order to convince the 
public they are no pushover. I think it is wrong. Far better it 
would be to study, know, understand, and explain to the public 
what the problems do to safety.
    Now, the NRC recent record in the above respects is, I 
think, abominable. Over 2 years ago, I asked the chairman of 
the Commission, by fax, what the technical problems at 
Millstone Point were, and what effect they had on safety. I 
still have not had a reply from the chairman. But after 2 
months, I got a reply from the director of regulation, who gave 
me a two-page comment on procedural violations, but nothing on 
safety.
    No one, within or without the Commission, has challenged my 
contention, repeated many times since then, the effect of the 
procedural violation that caused the shutdown was a change of 
about 1 in 100,000 in core melt frequency--less than 10 percent 
of the safety goals. Yet, why do they make such a big thing of 
it?
    Twenty-five years ago, when I started my interest, I sent a 
two-page letter to the chairman of the AEC, with about one or 
two dozen criticisms. Three days later, I got a personal phone 
call from Dr. Glenn Seborg, and I spent 3 days with him and his 
staff down at the AEC. He introduced me to all his staff and 
answered the questions. These were the secrecy and coverup of 
the bad old days. I personally prefer them.
    Senator Domenici. Were you more renowned when you were 
young?
    Dr. Wilson. No. [Laughter.]
    But I was probably more competent. [Laughter.]
    Senator Domenici. I doubt that, too.
    Dr. Wilson. So, it was calculated that the cost of the 
overregulation at Millstone was huge. It is about $3 million a 
day, or $2 billion so far. The effect on public health is 
important to realize. It is absolutely enormous. Because energy 
has been produced largely by coal-burning powerplants, there 
have been particulants emitted. I calculate, using the numbers 
in this book--of which we sent you a copy last year--there have 
been 400 deaths so far due to that particular action.
    Now, other utility companies have got the message of what 
happened at Millstone: Get out of nuclear power as fast as you 
can.
    It was calculations such as those I have just done here for 
you that led the late Senator Tsongas to say that he did not 
understand how anyone who preferred coal to nuclear power could 
call himself an environmentalist. I urge NRC once again to act 
in the public interest and according to their own safety goals 
to change regulations in either direction to match those goals. 
When there is a procedural violation that has safety 
consequences which are within those goals to give a slap on the 
wrist rather than an execution.

                           PREPARED STATEMENT

    I think I would prefer them to be like W.S. Gilbert's 
Mikado, who made it an object oh sublime to make the punishment 
fit the crime. And let us hope that it will be achieved in 
time, before the nuclear industry is destroyed.
    Thank you.
    Senator Domenici. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Richard Wilson

    Mr Chairman, Senator Reid, ladies and gentlemen. It is an honor to 
be invited to talk to you today.
    In the USA we now emit 11 percent more CO<INF>2</INF> than in 1990; 
and at Kyoto we promised to reduce CO<INF>2</INF> emissions to 8 
percent below 1990 levels in 10 years for a decrease of 19 percent 
below today's levels. If all the electricity now generated by nuclear 
power were to be generated by coal that would increase CO<INF>2</INF> 
another 8 percent making it more difficult if we abandon nuclear power. 
As we ponder whether the U.S. will meet the commitment made at Kyoto, 
one fact stands out. That of all the alternate fuels nuclear power is 
alone in producing no appreciable particulate air pollution, not 
contributing to global warming and, if we develop a breeder reactor 
being able to produce power for 100,000 years at modest cost. The 
present problem is that both the construction cost and the operating 
cost has risen between two and threefold in the last considerably in 
the last 25 years. It is more expensive than fossil fuels and begins to 
approach the costs of some of the solar energy alternatives.
    25 years ago, Maine Yankee nuclear power plant had just been 
completed for $180 million, or $200 per day installed capacity. 
Connecticut Yankee nuclear power plant was producing electricity at 
0.55 cents per kWh busbar cost, some part of which was paying off the 
mortgage. The operating cost was perhaps only 0.4 cents per kWh. Now, 
25 years later, the most recently completed nuclear power plants cost 
at least $2,000 per installed kWe of capacity, 10 times the 1972 cost, 
and Connecticut Yankee is being permanently shut down because it costs 
3.7 c/kwh, 9 times the 1972 cost even though the mortgage is fully 
paid. Yet inflation can only account for a part--perhaps a factor of 
2.5 to 3--of this.
    In most technologies there is a learning curve and are cheaper as 
time goes on. In this technology we have an unlearning or forgetting 
curve. Numbers that I have seen from France give an average cost of 
nuclear electricity including all costs, of 2.9 cents/kwh, whereas a 
similar number in the U.S. averaged over all plants operating in 1995 
was 5 cents/kwh (this ignores costs of plants, like Shoreham, which 
were abandoned for political or other reasons). More generally, the 
operating costs of the best operated nuclear power plants in the USA 
are now about 1.8 cents per kwh compared to a coal cost of about 1.6 
cents a kwh. Construction costs are much more. In 1980 the question was 
``Why should any utility company go nuclear?'' In 1998 the question is 
``why should any utility company stay nuclear?''
    Not one unless the costs can come down or unless the environmental 
costs of coal burning can be internalized to increase the coal price. I 
have pointed out this problem before (Wilson 1994, 1996) and note that 
if the present trend continues half our nuclear power plants will be 
gone in 10 years and we will have no nuclear power plants at all in the 
USA by 2017. Yet if Parkinson (1957) is right the regulatory authority 
will still be expanding many years later!
    Why has the cost gone up? What must we do to bring it down again? 
Various ideas include the following:
  --In 1970 manufacturers built turnkey plants or otherwise sold cheap 
        reactors as loss leaders. But this can only account for a small 
        proportion of the capital cost.
  --Construction costs generally have risen in this time.
  --It may be that in 1972 we had good management and good technical 
        people. But why has management got worse when that has not been 
        true for other technologies?
  --It is probable that nuclear power plants are safer today than they 
        were in 1972. But it would be hard to argue that the actual 
        safety improvements have cost that much money. Most are a 
        result of more careful thought using such approaches as event 
        tree analysis, but without excessive hardware expense.
  --Many people have suggested that the problem is that the regulation 
        is more than needed for adequate safety and this increases the 
        cost (Towers-Perrin 1995). In particular that it is too 
        prescriptive and not based upon performance.
  --The response to many regulations is to increase staff. The staff 
        numbers at the Dresden power plant went from 250 in 1975 to 
        over 1,300 today (Benhke 1997).
  --The problem is not unique to the USA. In the UK the Atomic Energy 
        Authority had to spend a lot of money making the plant as 
        earthquake proof as an operating reactor--yet the inventory of 
        dangerous material is far less and the danger of recriticality 
        remote (Hill 1997).
    I want to address here the problem of regulation and the intricate 
and complex relationship between regulator and licensee. Although not 
an expert, I claim one advantage: I look on the problem from outside 
and I keep the three fundamental societal aims in mind.
             the fundamental need for balance in regulation
    When the U.S. NRC was separated in 1974-5 from the old Atomic 
Energy Commission it was insisted that the promotional role of nuclear 
energy be separated from the regulatory role. It was already 
geographically separated by putting the promotional arm in Germantown 
and the regulatory arm of AEC in Bethesda. But unlike the mandate given 
to the AEC by the Atomic Energy Act of 1945, the NRC has no mandate to 
keep power plants in operation--only to ensure that the power plants 
operate without undue risk to the public. It was left to ERDA and now 
the Department of Energy to promote nuclear energy and to provide the 
balance. It is important to realize that the utility companies cannot 
and will not by themselves perform this function of balance. The 
utility companies are under close local or regional control, and 
historically have shown extreme reluctance to challenge any regulatory 
body. There is a great unbalance in power. A regulator often has the 
ability to keep a power plant shut down for an extra day--an action 
which costs the utility company $1,000,000 per day. There is no 
counterbalance to ensure that this power is used wisely and well. The 
Nuclear Regulatory Commission has been sued in the courts, (in what 
seems to be the preferred procedure in the USA for obtaining balance) 
by one or another group opposed to nuclear power, but to the best of my 
knowledge has not been sued by utility companies. Any regulator will 
automatically adjust his strategy to minimize lawsuits--and probably 
that is easiest done by ensuring that the number of lawsuits from each 
side is equal. If there is no one actively promoting nuclear energy, 
therefore, the regulation will inevitably become more strict and will 
force unnecessary price rises until price competition destroys the 
industry.
    How can we regain the balance in regulation? I submit that two 
steps are necessary. The first is a procedure to decide to regulate 
nuclear power in a more efficient way (including deciding upon how much 
regulation is necessary) and the second to find a group which will play 
the active promotional role that is so necessary in the U.S. system and 
those patterned after it.
    The first step was already begun by the first Commission to take 
office some 14 years ago when astronaut Bill Anders was chairman. After 
2 years of public hearings started by the AEC the NRC set some 
radiation and safety guidelines. (NRC 1975). The Commission proposed 
that expenditure on radiation exposure reduction should be made if it 
costs less than $1,000 per ManRem, now doubled to $2,000 (Kress 1994)--
a number higher than anyone in the hearing had proposed. A corollary 
was implied but not explicitly stated. If a proposed dose-reducing 
action would cost more than this, it should NOT be done.
    In the 1980's the Advisory Committee on Reactor Safeguards (ACRS) 
made a study that led to the promulgation by the Commission of a set of 
SAFETY GOALS. These were appropriately related to the safety of 
individuals living near a power plant. The risk must be appreciably 
less (10 percent or so) of that of another electricity generating 
facility. But it was recognized that such safety goals were difficult 
to implement and a subsidiary safety goal was promulgated that the 
frequency of core melt must be kept to less than 1 in 10,000 years per 
reactor. Safety improvements must be made to keep the core melt 
frequency below that amount. Although not stated, it was implied that 
steps to decrease core melt frequency still further were unwarranted 
and it was not worth the expense to undertake them. For simplicity I 
will address this ``intermediate'' safety goal here but the same 
argument can be applied to the more fundamental safety goal.
    There is a fundamental problem in implementing GOALS as opposed to 
issuing or following regulations. There is no definitive way of 
proceeding. But studies can be made retrospectively to see whether they 
are met. Clearly the $2,000 per Man Rem is a safety goal. An 
independent study (Tengs et al. 1995) suggests expenditures in the 
nuclear industry for RADWASTE have been 1,000 times this amount. It 
seems that either the regulations (in this case probably the Technical 
specifications) are stricter than needed, that the industry is spending 
more than the regulations call for, or the total amount of money is so 
small it is not worth worrying about. The procedure does not, however 
suggest how they be relaxed or whether the cost decrease is large 
enough to be worth the bother. I suggest that the nuclear plant 
operators and the NRC, perhaps aided by IAEA since it is an 
international problem, should study the matter with some urgency.
    Similarly the ACRS has repeatedly stated that it is not sensible to 
regulate on the basis of a Probabilistic Risk Assessment (PRA). But a 
PRA CAN be used to discuss retrospectively whether reactors that were 
designed and operate under existing regulations meet the goals. If they 
meet them, fine. If they do not regulations must be tightened. On the 
other hand if the safety goals are met with a large margin maybe the 
regulations can be relaxed. Indeed the important parts of a PRA can now 
be put on a small PC or laptop so that the effect of any small change 
in procedures can be quickly calculated.
    An example of how the use of this concept can prevent unnecessary 
regulation occurred some 8 years ago. A very careful PRA was done by 
the Nuclear Regulatory Commission (NRC 1987) for a number of 
``typical'' nuclear power plants including an early Boiling Water 
Reactor (BWR). In all cases it was found that the core melt probability 
was LESS than one in ten thousand per year. There are uncertainties 
about this calculation, and there has been some discussion about 
whether one should take the median, the mean or the mode of the 
probability distribution. I have argued elsewhere that one should take 
the mean, and do so in what follows. An immediate use of this argument 
was discussed at an NRC research advisory group meeting. The NRC staff 
was suggesting addition of safety devices to BWR Mark I reactors to 
improve safety. I, as a member of that advisory committee, pointed out 
that these reactors met the safety goal with flying colors. Either the 
safety goals were wrong, or the NRC's research program that produced 
NRC 1150 was useless, or the staff suggestion was excessive. The 
committee agreed with me and so did the director of regulation. In this 
case the staff suggestion was dropped. Unfortunately this was an 
isolated instance. It was also an instance in which regulation was not 
increased rather than an instance in which it was actually decreased. 
Reducing regulatory requirements is FAR more difficult. However, I urge 
that NRC have a formal and MUCH more rapid procedure for examining 
regulations.
    Shortly thereafter I was asked to be Chairman of a task force 
reviewing the safety of the nuclear power plants in Taiwan on behalf of 
the Minister of Foreign Affairs. The director of regulation in Taiwan 
told us that he accepted the idea of guidelines but wanted to have the 
core melt frequency to be less than 1 in 100,000. I asked why he wanted 
it to be so low when the careful studies by NRC thought that 1 in 
10,000 was low enough. The reply was that ``industry can meet it''. 
Maybe so. In the event, I believe that Taiwan did NOT change the safety 
goal. Since the power plants, which were U.S. designed and very well 
run meet the 1 in 10,000 goal easily that leaves wiggle room for the 
utility company (TAIPOWER) to cope with occasional lapses of their 
staff and an occasional overzealous regulator. The ROC AEC can, by 
using PRA can easily justify their goal to the public and TAIPOWER can 
proudly tell the public that they are doing even better.
    Hard though it is to reduce the severity of a regulation, it is 
harder to forgive a deliberate violation of regulations even when that 
violation does not result in any safety goal being exceeded. But again 
I urge immediate and rapid effort in this direction. If there has been 
a procedural violation the NRC must of course act in some way because 
such violations can escalate. But I suggest a graded response. The 
power plant might be shut down, as were the four power plants at 
Millstone and Connecticut 2 years ago, but only until NRC can determine 
whether or not the violation led to exceeding the safety goals. With 
fast computers a PRA can be set up to do such an analysis within a week 
or two at most. If a safety goal was NOT violated, it seems a clear 
indication that the regulation or technical specification was too 
strict and it could be modified and the reactor allowed to restart with 
no further ``punishment''.
    Of course utility company staffs and in particular utility company 
managements are often the most to blame. We have seen in the late 
1970's how TVA went in a few years from one of the best utility 
companies to one of the worst. In the early 1990's Ontario Hydro went 
from having the highest plant availability of any reactors in the world 
to being among the lowest. Many observers attribute each of these to a 
change in top management. There is less agreement on whether the 
management was malevolent (antinuclear) or merely incompetent. The 
Ontario hydro board used to have one person who understood nuclear 
technology--now it has none. (But the management incorrectly in my view 
insist that the only problem is on the shop floor). But the regulatory 
structure should be able to cope with this. If it is necessary (and I 
do not believe it is) to always have perfect regulators and perfect 
management to run nuclear power, there is no hope that costs can be 
reduced. Fortunately the PRA confirms for us that light water reactors 
are a forgiving technology. Northeast Utilities had clear management 
problems. The costs were one of the highest and in an effort to reduce 
costs there was, and is a temptation to cut corners. In addition there 
are cases of inadequate regulation. That usually comes from inadequate 
alertness. There are also occasional ``whistle blowers'' who for 
whatever reason raise issues that they feel have been neglected. In 
such situations there is a temptation for a regulatory authority to 
tighten up all round in the hope of reassuring the public. Indeed 
several successive Chairmen of NRC recently seem to have felt it 
politically desirable to do something dramatic to tighten up 
regulations in an attempt to convince the public that they are no 
pushover for industry. I do not believe that it does reassure the 
public. I believe it makes matters worse, by implying that the 
regulatory action had been too lax. Far better would be to study, know, 
understand and explain to the public the effect that such problems have 
on safety. As noted above, we now have the techniques of PRA available 
to ensure the completeness which is otherwise so difficult. I suggest a 
joint approach by utility companies--perhaps through the Institute of 
Nuclear Power Operations (INPO)--the NRC and academia (hopefully with 
funding from DOE) to study the critical interaction between regulator 
and licensee--always with a background of the risks of other energy 
technologies as discussed in Comparative Risk Assessment (CRA). Even 
though regulatory procedures vary between countries IAEA could also 
play an important role.
    The above would NOT be promotion of nuclear power. It is less clear 
to me how to achieve my second step and who should play the active role 
of promoter of nuclear power. Who should constantly call the regulator 
to task when he takes actions that exceed his own goals. In the USA 
that would have to involve lawsuits because that is where the action 
finally occurs in any subject. I suspect that is not politically 
possible for the Department of Energy (DOE) and to that extent the 
political concept of 1973 when the AEC was broken up was fatally 
flawed. Other mechanisms must be found.
    In 1987 six Long Island residents started a lawsuit nominally 
against Long Island Lighting Company but really against New York State, 
(with a supporting brief by a Department of Energy more friendly to 
nuclear power than the present department) in an effort to prevent them 
dismantling the Shoreham nuclear power plant without filing an 
environmental impact statement--and in that statement would have 
inevitably had to contradict the comments of Governor Cuomo's staff in 
the previous EIS that nuclear power is environmentally advantageous. 
This suggests to me that a publicly minded group of scientists, who are 
concerned about the three environmental issues with which I began this 
paper should form a group to be watchdogs and file suit to enforce fair 
regulation when appropriate. Unless something is done, I do not think 
that nuclear power in the short term will survive.
    The NRC's recent record in the above respects is abominable. I 
mentioned above that the radwaste regulations cost 1,000 times too 
much. The actions at Millstone point were vastly exaggerated also. Over 
2 years ago I asked the Chairman of the Commission by FAX what the 
technical problems were and what effect they had on safety. I have had 
no reply but after 2 months I did get a reply from the Director of 
Regulation, since resigned, who gave me a 2 page comment on procedural 
violations. NO ONE within or without the commission has challenged my 
contention, repeated many times since then that the effect of the 
procedural violation that caused the shut down was a change of perhaps 
1 in 100,000 per year in core melt probability. The NRC should have 
been able to realize within 2 weeks that this is one-tenth of their 
safety goal and that the draconian action was unnecessary.
    Although many people, in Congress and in the press talk about the 
evils of the old AEC it is noteworthy than in those ``bad old days'' 
response to criticism was much faster and more substantive. 25 years 
ago when I started my interest in energy and environmental matters I 
wrote to the Chairman of the AEC a 2 page letter with a dozen or more 
criticisms. 3 days later Dr. Glenn Seaborg, not a secretary, telephoned 
me and invited me to spend 3 days with him and his staff going over 
detailed responses. During the first 3 hours in Dr. Seaborg's office I 
was introduced to each of the appropriate Assistant Secretaries who 
answered my queries to the best of my ability and directed me to 
further sources. That was the secrecy and cover up in the ``bad old 
days'' about which we repeatedly hear complaints.
    The cost of the over regulation at Millstone is huge and seems to 
have been deliberately understated in many reports so far. I take it 
here to be the busbar cost of replacement electricity of about 
$3,000,000 a day or 2 billion dollars so far. The effect on public 
health is also huge. Supposing the replacement electricity to come from 
a mixture of fossil fuels and hydro power in the average proportions, 
each power plant replacement costs over 50 premature deaths a year from 
air pollution, (Wilson and Spengler 1996) or over 400 deaths so far. 
Other utility companies have got the message: ``Get out of nuclear 
power as fast as you can''.
    Indeed it is calculations such as this that led former Senator 
Tsongas to declare ``I do not see how anyone who prefers burning coal 
to nuclear power can call himself an environmentalist''.
    I urge NRC to begin once again to act in the public interest and 
according to their own safety goals. To change regulations too, in 
either direction, to match these goals. When there is a procedural 
violation that has safety consequences that are within these goals to 
give a slap on the wrist rather than an execution. I urge each 
commissioner to take the approach of W.S. Gilbert's Mikado who made it 
``an object all sublime * * * to make the punishment fit the crime''. 
Let us hope that it will be achieved in time--before the nuclear 
industry is destroyed.

                               REFERENCES

    Benkhe W. (1997) Communication from W. Benkhe, former C.E.O. of 
Commonwealth Edison Co. owner and operator of Dresden II and Dresden 
III.
    CMP (1972) Report from Central Maine Power, Majority Owner of Maine 
Yankee. This cost does not include a (later) cost of $20 million to 
remove a causeway and improve tidal flow in the coolant estuary (which 
many experts thought was unnecessary and certainly would NOT and have 
been, and was not demanded of a fossil fuel plant).
    Hill, J. (1997) communication to the author by Sir John Hill, 
Chairman of the UK Atomic Energy Authority at the time.
    Kress, T. (1994) Report to Nuclear Regulatory Commission from the 
Advisory Committee on Reactor Safeguards NRC (1975) Rule making RM-30-
2.
    NRC (1987) Nuclear Regulatory Commission report NUREG 1150.
    NYT (1996) Figures reported in the New York Times.
    Parkinson, C.N. (1957) ``Parkinson's Law'' page 12, Heighten 
Mifflin, Boston.
    Tengs, T., et al (1995) ``Five hundred life saving interventions 
and their cost effectiveness'' Risk Analysis 15:369.
    Towers and Perrin (1995) report to Nuclear Energy Institute.
    Webster W. (1972) Letter from William Webster, President of NE 
Electric System to Richard Wilson.
    Wilson R. (1994) ``The Potential for Nuclear Power'' in Global 
Energy Strategies: Living with Restricted Greenhouse Gas Emissions, 
edited by J.C. White, Plenum Press, NY, pp. 27-45.
    Wilson, R. and Spengler, J.D. Eds. (1996) ``Particles in Our Air: 
Concentrations and Health Effects'' Harvard University Press, 
Cambridge, MA 02138.
    Wilson R. (1999) ``Overregulation and other Problems of Nuclear 
Power'' Presented at the Global Foundation Conference, Washington, DC, 
October 1998.

    Senator Domenici. Could I ask any of you who feel most 
expert, I am going to go during the Fourth of July recess--
since I have decided that this cause--not just nuclear power, 
but the whole issue of nuclear activities--needs to be looked 
at, I intend to vote some of my time to that--in fact, 
formidable time to it--I am going to go to France, and then I 
am going to go to Russia.
    In France, we are going to see how they do their system and 
what happens to their waste. And then, in Russia, we are going 
to talk about their notion of how valuable plutonium, in terms 
of reuse, and see if we cannot generate some exciting 
conversation between Russia and America on some way to 
accelerate the disposition of their plutonium from dismantling 
nuclear arms--and ours--through using MOX facilities around the 
world. That is just a new concept, but anyway it has gathered a 
bit of excitement.
    But, essentially, I built my premise that I wanted to ask 
Congress, and ultimately the people, to take another look at 
things on essentially the proposal and the idea that President 
Jimmy Carter came up with, that we would not have any MOX, that 
we would not use reprocessing of the MOX kind. We are now going 
to have to do some of that in the dismantling process, but we 
are going very, very slowly at it.
    Could any of you tell me what is essentially the difference 
in the way we are treating our nuclear waste from civilian 
reactors versus France? My friend from Nevada comes from a 
State that the United States has already spent $6.5 billion 
exploring the idea of putting a tunnel in a mountain so that we 
can put the spent fuel from civilian reactors, high-level 
waste, so we can put it in there and feel safe for, what are we 
thinking, 200,000 years. And we are asking the computers and 
the technology people to be able to give us simulation and 
other things to prove it can be done.
    Not only have we not started building it, we still have not 
proved it to be viable under the conditions imposed for the 
safekeeping. Maybe those conditions are too extreme, but, 
nonetheless, here we sit. We have a policy, since President 
Carter's time, that says we will not reprocess using the MOX 
approach because it may produce plutonium and spread it around 
the world so that it could be used for nuclear weapons.
    The interesting thing is that we did that based on the 
proposition that nobody would do it, and that if we set the 
standard nobody would do that. But it was a good decision, it 
was almost entirely based on that. Other countries have not 
seen fit to follow suit and, in fact, are doing that.
    So, with that background, what distinguishes what France is 
doing wastewise to what America is doing wastewise, in terms of 
the cycle?
    Mr. Colvin. Mr. Chairman, let me give that a shot. I think 
it is important to say by way of background that you have to 
remember that the United States pioneered this technology. And 
when you compare the United States against a country such as 
France, you have to remember that, in fact, the technology that 
we pioneered was transferred to the French, and, in fact, they 
have operated that exceptionally well. And with that, they have 
learned the tremendous lessons of what to do and perhaps what 
not to do in the operation of this technology and, in 
particular, as it relates to the waste stream.
    Basically, the French program takes the waste byproducts 
from spent fuel, reprocesses that once, twice, three times; 
uses the materials out of the reprocessing and puts that back 
into new fuel. In essence, they are reprocessing their fuel. 
That leaves you with a smaller waste stream that has a long-
lived activity and that needs disposal.
    And they are currently storing that waste stream, that 
byproduct, which is significantly less in volume and, in some 
cases perhaps less in longer-lived activities because of that--
they are currently, like we are evaluating Yucca Mountain, the 
French have, as I understand, two laboratories that they have 
established to evaluate the long-term geologic disposal of 
their waste stream.
    I must say that in this discussion you have to remember 
that the volumes of that waste stream ultimately, in a 
reprocessing cycle, will be significantly less than a once-
through fuel cycle that we are using currently in the United 
States.
    Senator Domenici. Yes; Dr. Jenkins-Smith.
    Dr. Jenkins-Smith. Senator Domenici, the other aspect of 
it, again, from the public perception side and the public 
acceptance side, that distinguishes the French and the American 
systems is that in the United States we have approached nuclear 
waste as a disposal process. We are taking spent fuel and we 
are planning to poke it in a hole and cork it, as it is crudely 
often put.
    The French approach has been to designate these as 
laboratories. In fact, the siting of the repository process 
focused on the creation of facilities to explore future 
enhancements in safety, reductions in volume and alternative 
utilization. So, it was not simply creating a repository or, as 
it is often colloquially known in the United States, as a dump, 
but it was the creation of a high-tech facility that would 
generate benefit streams in the future.
    People view that very, very differently. And in experiments 
we have done, looking at the public reaction to policy 
modifications for repositories and even transport programs, 
when people believe that the waste is actually going to be used 
for these kinds of beneficial future activities support for the 
programs goes up substantially.
    Senator Domenici. Yes; please, Dr. Wilson.
    Dr. Wilson. Senator Domenici, in response to the question, 
I would say that it is important to realize that there is a 
different fundamental concept started in much of Europe than 
here. Here we had the idea, which I think was an erroneous one, 
that you put the waste in the ground in such a way that you can 
now forget about it forever. And there they have the idea that 
you can do something with it and look after it in a modest way.
    There is no doubt in my mind that the waste from a 
powerplant is much safer than operating a powerplant. And you 
can put it next to a powerplant, as we are doing sometimes, 
without appreciably increasing any risk to anybody. So, when 
you are monitoring it and keeping it all the time under your 
eye, there is, it seems to me, no technical problem whatsoever.
    Added to that, of course, as you pointed out earlier, we do 
not compare things. There was a waste product of a lot of 
activities called arsenic. It comes naturally. Once you dig 
something in the ground you dig arsenic up, particularly in the 
West and in California. And that arsenic is carcinogenic. It is 
very nasty stuff. And in comparison with nuclear waste, it has 
one major disadvantage: nuclear waste lasts maybe 30 years for 
most of it, a few thousand years for some of it; arsenic lasts 
forever.
    Senator Domenici. I have two more quick questions here, and 
then I will yield to Senator Reid.
    I note the presence of the chairman of the full 
Appropriations Committee, Senator Ted Stevens. Senator, thank 
you very much for joining us. And whenever you would like to 
inquire or be heard, it will be your turn.
    Let me just ask, what is the comparable risk of the French 
and the United States fuel cycle? Is one more dangerous than 
the other, more risky than the other? Is one safer than the 
other? Can somebody answer that?
    Mr. Colvin. Yes; Mr. Chairman, off the top of my head, I do 
not know the specific answer. I think that I could say pretty 
realistically that when you look at it from a public health and 
safety perspective, as Dr. Wilson has indicated, the risk 
levels that we are talking about in the disposal and storage or 
the reprocessing of nuclear waste are significantly below the 
levels that we typically look at from a public health and 
safety risk standpoint.
    I mean, whether we are talking about automobile or airline 
travel or we are talking about other types of public risk, we 
are operating at much lower levels. And I do not think if we 
did that comparison that there would be a significant 
difference. It would probably be in the range, as Dr. Jenkins-
Smith said, of 10 to the minus 6, 10 to the minus 7 types of 
numbers. It probably would not be significant from a public 
health and safety standpoint.
    Mr. McNeill. MOX fuel is used in many locations in Europe, 
not just in France.
    Senator Domenici. Right.
    Mr. McNeill. And MOX fuel is a well-established fuel regime 
that, to my knowledge, has no perceptible risk difference 
between normal uranium fuel and MOX.
    Dr. Wilson. I think it is important that of 35 reactors 
licensed in Europe to handle MOX fuel, and I think 22 of them 
have MOX fuel in them at the present moment.
    Senator Domenici. Have what?
    Dr. Wilson. Have MOX fuel at the present moment. And if you 
took all the likely reactors now licensed to handle MOX fuel, 
you could dispose of all the military plutonium we want to 
dispose of within about 18 months. And all you have to do is to 
decide to do it.
    Senator Domenici. You understand what the purpose of the 
trip to Russia is now?
    Dr. Wilson. Yes, indeed.
    Senator Domenici. Now, let me ask, do the United States or 
French nuclear workers, in any of your opinion, and the public 
receive higher doses of radiation?
    Mr. McNeill. Not to my knowledge.
    Senator Domenici. Anybody else?
    Mr. Colvin. No, sir.
    Dr. Wilson. Approximately the same.
    Senator Domenici. Approximately the same?
    Dr. Wilson. That is right. It depends on exactly what years 
you are comparing.
    Senator Domenici. Mr. McNeill, we recognize the tremendous 
commitment by a utility to decide to build and operate a 
nuclear powerplant in today's climate in the United States. 
What would it take to get an advanced reactor designed in this 
country built with industry support?
    Mr. McNeill. Well, our interest currently is more in 
acquiring the operating plants and continuing to operate those. 
Because we think that they have a cost basis that is 
competitive. I believe that for a new plant in the United 
States, in the short term, we would undoubtedly need some form 
of governmental support for that. Because the first-of-a-kind 
construction of one of the new plants has high upfront costs in 
the cycle, and may not be competitive with other forms of 
generation right now.
    But as those forms of generation--the cost of fuel for gas 
plants or the construction costs rise for other forms of 
generation, there will be a time in the not too distant future 
when the economics of a new nuclear plant will make them 
competitive.
    Senator Domenici. Senator Reid, I am going to yield to you 
now. I just wanted to make the point with reference to an issue 
that has been part of your responsibility in behalf of your 
State that what we are talking about when we speak of MOX fuel, 
we are talking about a mixed oxide [MOX] reprocessing that 
takes the spent fuel that we are contemplating moving to your 
State by the truckloads and putting in the mountain, we are 
talking about reprocessing that. And not all of the residue, 
but substantial portions of the residue are then used in 
nuclear reactors to produce more energy.
    Now, that is typical of what people think when they speak 
of reprocessing. But in the United States, we have a policy of 
ancient origins, 30 years ago or 40 years ago, that says we 
cannot do that. I understand why you would be very interested 
in reprocessing in that context, not only because you have 
begun to pay close attention to the energy needs of America, 
but you have a very real problem that is demonstrable changed 
if, in fact, we went in a different direction.
    I yield to you.
    Senator Reid. Mr. Chairman, that is why I appreciate your 
holding these hearings.
    No matter how we do the poll numbers, I think 
realistically, Mr. McNeill, to get Federal Government support 
to build a new nuclear powerplant any place in this country is 
farfetched at this stage.
    Mr. McNeill. And I did not call for that.
    Senator Reid. I know that. And I understand that you were 
not advocating it. You were just saying that the industry, to 
build a nuclear powerplant, is going to have to get some help.
    Mr. McNeill. In the short term, yes.
    Senator Reid. That is right.
    And I think the way the mindset of the American public is, 
as articulated by the Congress, it is not going to happen now. 
And that is why I commend Senator Domenici for holding these 
hearings. We have to look at doing some of these things 
differently.
    Dr. Wilson, your statement, I think, said volumes. 
Professor, you said--and I would like for you to expand on your 
comments about how safe it is to store waste near the plants. 
As you know, we have out here at Calvert Hills, in Maryland, 
and other places, where they are storing not only in the 
cooling ponds, but they have moved it one step further and they 
have dry cask storage containment on site.
    Now, I would like for you to expand on your comments about 
how safe it is to store nuclear waste on site.
    Dr. Wilson. I think it is a very safe procedure. And I know 
in Europe that was very strongly encouraged, certainly when I 
first started thinking about this 30 years or 25 years ago. One 
of the main things you need is already in existence. That is to 
say a site perimeter where you keep out for their safety 
reasons. And that is rather important. If you have them off 
site and on a site remote from a powerplant, you do not have 
that safety perimeter. So, all you have to do is to keep people 
away from the waste, and then you are in good shape.
    I suppose the one thing I think would be if a meteor hits 
the nuclear waste cask, I think all bets are off. It would be 
quite a mess.
    Senator Reid. If a meteor hit.
    Dr. Wilson. It would be quite a mess whether the waste cask 
was there or not.
    Senator Reid. It would be kind of a mess, as you have 
indicated, whether the casks are there or not?
    Dr. Wilson. That is right.
    But those are the sort of calculations that people are 
doing when they are trying to prove that Yucca Mountain is safe 
and trying to imagine what would happen in rather extreme 
circumstances. And if those extreme circumstances happened, 
there would be a lot of other troubles, too.
    Senator Reid. But as you said, Dr. Wilson, these same 
calculations about the meteor would also apply to onsite 
storage.
    Dr. Wilson. Of course.
    Senator Reid. Now, Mr. McNeill, what is the average life 
expectancy of nuclear power in the country today if there is no 
relicensing?
    Mr. McNeill. If there is no relicensing, plants were 
originally licensed for 40 years.
    Senator Reid. And I have been told the average life 
expectancy for nuclear power, based upon those calculations, is 
about 15 years.
    Mr. McNeill. I guess the average remaining life of all 
plants is in the 15- to 20-year range, yes.
    Senator Reid. How many nuclear powerplants are there in 
America today?
    Mr. McNeill. Slightly over 100.
    Senator Reid. That is my understanding. For $7 billion 
which we have spent already at Yucca Mountain, what could we do 
to build a--it is my understanding it is called a breeder 
reactor, to start reprocessing some of these plants--how much 
would it cost to build a breeder reactor facility to start 
reprocessing some of our spent fuel?
    Mr. McNeill. I have no knowledge of that. It would be 
probably be in the single-digit billions of dollars.
    Senator Reid. It would not be $7 billion?
    Mr. McNeill. I do not know that. I have a two-unit station 
that the original cost was $6.7 billion. So, the same 
comparable number.
    Senator Reid. Dr. Wilson, would you agree?
    Dr. Wilson. Well, I think there is an important distinction 
here. You do not, in the first instance, need a breeder 
reactor. You need a reprocessing plant. And we have had, of 
course, reprocessing plants in this country, certainly in the 
military sector. In fact, the first use of nuclear fission was 
to reprocess the material and make plutonium for military 
purposes.
    But a reprocessing plant for civilian purposes will be in 
the billions, I think, but probably not $8 billion. But I must 
say, the Japanese, on the other hand, did spend a lot of money 
on their reprocessing plant--close to $20 billion. And 
everybody thinks that was much too much.
    Senator Domenici. Senator, England spent $3 billion for 
their MOX reprocessing.
    Dr. Wilson. That is right.
    Senator Domenici. And the difference between the breeding 
and MOX is breeding is used to produce more plutonium. MOX is 
used to make plutonium such that it can be burnt in the kind of 
reactors that produce electricity around the world.
    Senator, did you have any more questions?
    Senator Reid. Not at this time.
    Senator Domenici. Senator Stevens.
    Senator Stevens. I have no questions.
    Senator Domenici. Senator Craig.

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. I came late, Mr. Chairman, and I do not have 
questions. I will make a very brief comment, and ask unanimous 
consent that my statement become a part of the record.
    I thank you for pushing the envelope on the knowledge that 
this Senate has to gain as it relates to our nuclear generation 
industry in this country. For those who are frustrated by it, I 
would only ask them that in areas where we are in search of 
reaching attainment in clean air, we are going to build some 
more new nuclear plants to get there, plain and simple. We have 
got to.
    And the environmental community is beginning to awaken to 
that simple fact: that our country runs on energy, abundant 
energy, and that to clean up our congested urban areas, a lot 
of things need to get done. And to get there, we have got to, 
whether it is short term, 50 to 100 years, or long term, longer 
than that, we are going to need some more nuclear generating 
plants, powered by nuclear energy.
    Now, having said that, bringing permanency to the issue of 
spent fuel is critical, along with all the other advancements 
we have to make. Their willingness to push the budget envelope 
in this area is critical. This country ought to get smart and 
it ought to wake up. It cannot deny its facts. And even 2 weeks 
ago, when I journeyed out on the front over here, to look at 
all these marvelous new electric car prototypes, I was reminded 
by one thing that is inside the battery of those cars. It is 
electric energy generated by somebody.
    So, even that process is going to require us to have an 
abundance of electrical energy. And there seems to be only one 
way to get there and still achieve our clean air and climate 
change concerns. And I do believe that the country is awakening 
to that.
    Thank you.
    Senator Domenici. Thank you very much.
    I have one last question for you, Dr. Wilson. The Nuclear 
Regulatory Commission has clearly, as you have indicated in 
your brief remarks, a very important role in safety and 
oversight and regulation of the nuclear power and related 
nuclear licenses. The Louisiana Enrichment Corp. decided, after 
11 years of attempting to obtain a license for an enrichment 
facility, to quit this effort. How can the Nuclear Regulatory 
Commission commit to such an excessive licensing process to 
occur? And what can Congress do to ensure such delays do not 
occur?
    Dr. Wilson. Well, I heard about that particular item last 
week, when I was in Vienna. And I thought it was only 7 years 
that they had been trying for the license, but that is bad 
enough. Because this enrichment facility is much safer than a 
reactor. It is one of the more benign things one can have. And 
to spend 7 years on licensing it, it seems utterly absurd. And 
I do not quite know what one can do about it. I would just urge 
the NRC to go at every one of the regulatory actions with much 
more speed than they are now doing.
    Senator Domenici. Mr. Colvin, do you have some suggestions 
in that regard?
    Mr. Colvin. Well, Mr. Chairman, that is a tragic example 
from our national perspective in two elements. And that is, 
first, that the Congress, with the passage of the Energy Policy 
Act in 1992, in fact, set up a one-step licensing program to 
license this enrichment facility, which I agree with Dr. 
Wilson, at those levels, is safer than most other facilities, 
certainly chemical plants or other plants that would be built 
in that part of the country.
    The recommendations that I have for the Nuclear Regulatory 
Commission are really to expedite the changes in their 
licensing process and their atomic safety and licensing and 
board processes that have been, in my view, the problems that 
have caused these delays with respect to not only the scope of 
those hearings, the depth of those hearings in areas not 
related specifically to the safety of the operation of those 
facilities, and also in the incentives, in establishing 
incentives for those licensing boards to bring those issues to 
conclusion within a reasonable period of time.
    In order for our Nation to go forth and relicense or 
transfer the licenses of any issue, they need to deal with that 
in a very expeditious process.
    Mr. McNeill. Senator, if I could comment.
    Senator Domenici. Mr. McNeill, you look like you wanted to 
comment.
    Mr. McNeill. I do. Because this will be an important issue 
as we move forward to acquire plants, because it will be a 
license transfer process. And I think I will be very specific 
on this. I think that the Nuclear Regulatory Commission itself 
needs to make sure that the issues that are allowed to be heard 
are relevant to the license transfer process and that they 
provide very strong guidance for their administrative law 
judges as to the timeframes in which they reach decisions. 
Those two things are going to be very critical in moving 
forward on this issue.
    Senator Reid. Senator Domenici.
    Senator Domenici. Yes; Senator Reid.
    Senator Reid. I am going to go to my office for a few 
minutes and then come back, but I would like Dr. Jenkins-Smith, 
sometime in the next few days, to call me so we can go into 
some detail about your work. If you will do that, I will not 
take up the time of the committee.
    Senator Domenici. Very good.
    Senator Reid. Thank you.
    Dr. Jenkins-Smith. Yes, Senator.
    Dr. Wilson. Mr. Chairman, can I make one comment?
    Senator Domenici. Sure.
    Dr. Wilson. This is partially on the waste question. You 
asked about temporary waste storage. Everybody says no one 
wants waste in their own backyard. But an Indian tribe in Utah 
wants waste in their own backyard. And there are one or two 
people who do not want them to have it. The Nuclear Regulatory 
Commission are estimating the licensing here would last at 
least 4 years, when, in fact, it is not a particularly unsafe 
business.
    I have got together a group called the Scientists for 
Secure Waste Storage, which has six Nobel laureates, three 
former chairmen of the NRC, two former Ambassadors, a former 
astronaut, and an Indian, with some overlap between these, and 
we are trying to intervene in support of this licensing 
hearing. I believe actions such as this may, in fact, if people 
are galvanized into doing these things, public citizens, we may 
get somewhere. But unfortunately, so far, the Licensing Board 
has voted 2 to 1 not to allow us to do it, and we are appealing 
to the Commission.
    Senator Domenici. How long did the Southern Nuclear license 
transfer take? Who knows the answer to that?
    Mr. Colvin. It took about 5 years, Mr. Chairman. That was 
to transfer the license for Plant Vogel and Plant Hatch in 
Georgia, which is part of the same Southern Co. system, to the 
Southern Nuclear Operating Co., one of its subsidiaries.
    Mr. McNeill. If I might make a point here. The operators 
were no different. These were legal entities, and the people at 
the plants were no different before or after the license 
transfer.
    Mr. Colvin. Exactly.
    Senator Domenici. You have probably answered this, but were 
there any difficult issues involved in that?
    Mr. Colvin. There were allegations that were provided to 
the Nuclear Regulatory Commission in a number of different 
areas. But, in my opinion, none were germane to the issue of 
license transfer between the entities, as Mr. McNeill points 
out.
    Senator Domenici. Did you want to say something, Dr. 
Jenkins-Smith?
    Dr. Jenkins-Smith. Yes, Senator, just one point on the 
issue of obtaining licenses and public support. And that is, 
first off, when we get into these debates, what the public 
hears are discussions of risk. Is it big or is it small? They 
never hear it is zero, of course. And because they have 
detached the idea of risk from the national benefits that are 
associated with it, any risk that is being imposed upon people 
from the outside is going to be seen as unacceptable.
    If we do not change the tenor of this debate and integrate 
some notion of benefits and what the national gains are, we are 
not going to make much headway.
    Senator Domenici. That is a very good point.
    In closing, I just wanted to share with the four of you, 
and as part of this public record, there have been a lot of 
complaints and concerns about the Kyoto accords, with reference 
to their impact on the United States and how urgent are the 
reductions that are contemplated. Professor Wilson, as 
Professor Jenkins-Smith alluded to, I wanted to share with you 
that I made a major proposal with reference to a whole scheme 
of nuclear activities, and delivered it at Harvard University, 
and then I circulated it to a number of people.
    First, let me say to all of you that our office has been 
absolutely amazed at the hundreds and hundreds of Americans who 
are knowledgeable in the fields of energy and physics and the 
like who have responded, essentially with long letters, but 
essentially saying it is about time for America to debate this 
issue. We are not on the right wavelength. We are talking about 
something that is not real.
    But getting back to Kyoto, as a result of that text, I held 
a meeting in a number of cities--one in Los Alamos, where some 
of the great, great physicists that America has had, and some 
Nobel people came. And one of them said, I read with interest 
the Kyoto accord, from page 1, all the way through. And I must 
conclude that they were a fraud. And that is a pretty tough 
word. And so I said, why? He said, because how could you write 
in depth on the status of pollution in the atmosphere that 
comes from generating electricity and not mention nuclear power 
one time in the entire report?
    Now, if I had not had such great respect for this 
particular gentleman, who I first met 25 years ago and had just 
marvelous opportunities to talk to him about what was going on 
in Russia when he used to go visit--he was an early on 
predictor that they were not as powerful as we thought. I will 
tell you one thing, professor, that you will appreciate, he 
said, I went to the laboratory of one of their great nuclear 
physicists, and I noted that he was the only one around who had 
a way to sip tea. And he had produced his own little teapot as 
part of a bunsen burner that is used in a laboratory, and that 
they did not even supply that--tea, coffee, or anything--to any 
of their major scientists in this laboratory. And he started 
thinking back from that, that things were kind of different 
than we might have expected.
    But we have to raise the issue with the people of this 
country, that if we are worried about pollution and we are 
worried about what is going to happen if, in fact, we have some 
big climate changes because of ozone, you know some leadership 
is going to be blamed if we do not consider a dramatic way to 
avoid that over the next 50 to 100 years by a source of energy 
that contributes absolutely nothing to the water and air 
pollution of our country and the world. And that is essentially 
the big picture idea that is behind what we are talking about.
    Thank you, all four of you. And let us have the next 
witnesses, please.
    Senator Craig. Mr. Chairman, while the next witnesses are 
coming up, I am pleased that you noted the relicensing process. 
In another committee, I am examining hydro relicensing. Now, 
between nuclear and hydro, nonpolluting energy sources, that 
represents about 33 to 34 percent of the total electrical 
output in this country. And those are the two very areas that 
are most impacted by bureaucracy and uncertainty at this 
moment.
    And, frankly, it is us. It is the Congress of the United 
States that has not had the statesmanship, if you will--and 
that is no reflection of anybody on this committee, but we have 
kowtowed to a myth, and now we are faced with that. And I 
notice that in the administration's proposal, when we talk 
about climate change, you notice they did not mention nuclear. 
And the professor mentioned this. And they did not mention 
hydro either as a renewable.
    So, I think it is reasonable to say that the reports were a 
hoax, because they did not mention, in this country at least, 
nearly 35 percent of the electrical output, of the clean 
output.
    Thank you.
    Senator Domenici. Thank you for the comments.
    Can we go through the next four witnesses and identify them 
right now, and then we will proceed from right to left as we 
did before. And I would hope you would keep to your time. We 
have gone over a bit.
    We have Alan Smith, master of engineering candidate, 
Department of Nuclear Engineering, Massachusetts Institute of 
Technology; Dr. Stan Schriber, deputy division director, Los 
Alamos National Laboratory; Mr. Linden Blue, vice chairman of 
General Atomics Corp.; and Dr. Charles Till, senior counselor 
to the laboratory director at Argonne National Laboratory. I am 
delighted you all would come.
    We will start with you, Mr. Smith. I am going to be excused 
for just 2 minutes. Harry, would you take over for that 2 
minutes?
    Senator Reid [presiding]. Please proceed.


STATEMENT OF ALAN B. SMITH, GRADUATE STUDENT, NUCLEAR 
            ENGINEERING DEPARTMENT, MASSACHUSETTS 
            INSTITUTE OF TECHNOLOGY
    Mr. Smith. Very well, Mr. Chairman, Senators Reid, Stevens, 
and Craig, my name is Alan Smith. I am a graduate student at 
MIT. And with me is Dr. Jeffrey Friedberg, the head of the 
Nuclear Engineering Department at MIT. And I am here 
representing a group of both graduate and undergraduate 
students who have spent about the last 6 months investigating 
advanced nuclear energy technologies that have the potential to 
be developed to address global climate change on a 
proliferation-proof worldwide scale. We think we may have an 
answer.
    This morning I would like to report on this nuclear energy 
design project and what I believe are opportunities to get 
students interested in pursuing a career in nuclear technology. 
This nuclear energy plant design project began as a design 
competition sponsored by the American Nuclear Society, aimed at 
stimulating interest in nuclear energy at those universities 
that still teach the subject. The original title of the 
competition was ``The Economic Imperative,'' which challenged 
students to think creatively about what could be done to bring 
down the cost of nuclear powerplants to a level to be 
competitive with new natural gas fired fossil plants.
    At MIT we took a broader view, and renamed our effort the 
economic and environmental imperative, to incorporate our 
belief that it will take more than just an economic advantage 
to bring nuclear into the energy mix. Our desire was to develop 
a conceptual design of a politically acceptable reactor that 
was also economically viable. And the recent developments in 
India, for example, reinforce the need to develop a nuclear 
energy plant that is more proliferation proof, to take 
advantage of the enormous environmental benefits that nuclear 
energy offers.
    Our goal is to develop an entire package, not just the 
technology. Which, you see, in the past we have had wonderful 
technology in the nuclear industry. We keep wondering why 
people do not get it. It is safe. It is reliable. We have 
focused on the technology. We have tried to broaden that, to 
look at the design, the fuel, the waste, construction 
schedules, final cost of power, and the financing and public 
acceptance portions of this.
    What we did know is that today's current plants were 
expensive to build, are expensive to operate, are very 
difficult to keep in current regulatory compliance, and are 
perceived by a significant portion of the public as generally 
unsafe. And it was our belief that an improved version of the 
same old thing would be insufficient. The time is right to 
develop something completely new. So, with that framework, we 
said we have no preconceived ideas of what is available. What 
would the ideal nuclear plant really look like?
    We decided it would be naturally safe, transparently safe, 
so safe there would be no question. We do not have to talk 
about 1 times 10 to the minus 5th or 10 to the minus 7th or 
whatever else. The answer is it cannot have a fuel damaging 
accident.
    We knew that it had to be economically competitive. And we 
translated that into being able to be assembled in a factory, a 
production line if you will, to crank out these things. It did 
have to be politically acceptable, with easy waste handling and 
storage. And we looked at 20 other different factors, things 
from operating staff size, whatever. Then we researched all the 
available plants that are in the world. We looked at advanced 
lightwater designs. We looked at heavywater designs. We looked 
at the gas plant.
    As a matter of fact, we had a representative from Mr. 
Blue's General Atomics come and speak to us about the things 
they were doing.
    We picked the best attributes, in our estimation, from each 
of those different things and combined them into one conceptual 
idea. And from there we began, this past semester, doing 
detailed analysis of could it really be done. Could it really 
be made foolproof? Could it be made operator proof? Could it be 
made in a factory and shipped by truck, quickly?
    And what we found was it can and it can. There is no exotic 
technology involved. We decided on a gas-cooled small, pebble-
bed type fuel nuclear plant with gas turbines. And it allows us 
a lot of different things. First of all, no meltdown can occur. 
And Mr. Blue, I know, will speak on that some more. It can be 
factory assembled and shipped by truck to any particular site.
    Our particular design has online refueling, which means 
that the plant never has to shut down to refuel. Our concept, 
with a small, 110 megawatt plant, is that you can tailor it to 
any specific energy size demand you need. Perhaps in the United 
States, if you want 1,200 megawatts, that is fine; you can 
build 11 or 12 of those units. But say, if a developing nation 
is looking for a new, environmentally safe energy source, they 
do not have the electrical grid to be able to build a 1,300 
megawatt plant and distribute the power. But they can build 300 
megawatts, 400 megawatts.
    We then went and looked beyond just the nuclear technology. 
And we were able to develop, and are still developing, a 
concept for an international licensing approach. One of the 
goals of this particular plan is it is so simple that a country 
does not need a detailed nuclear infrastructure, with a large 
number of nuclear laboratories, just to support this. So, an 
external organization could be more involved in the operations 
of this.
    We have developed a rapid construction methodology, and we 
have a working model now that shows that the first unit could 
be available in just over 2 years from the time a construction 
order went in. They would build it in the factory, put it on a 
truck, and you could get it.
    Finally, we are developing some frameworks for creative 
financing alternatives to make it more attractive for 
industries to get into this, in some consortium-type ideas, 
whereas with our current plans, if you put in an order, it 
would then go out to bid. Well, who is going to build the 
turbine? Well, let us look at General Electric. Let us look at 
Westinghouse. And it continues to change the design. Now, the 
turbine manufacturer is an equity owner in this operation so 
they can get right into it.
    Senator Reid. Mr. Chairman, one brief question.
    Senator Domenici [presiding]. Yes; Senator Reid.
    Senator Reid. What does being factory manufactured have to 
do with it? You keep talking about that. What difference does 
that make?
    Mr. Smith. To address the fact that the current plants we 
have right now are taking anywhere between 7, 8, 9, 10 years to 
build. So much can change to project the energy needs for a 
particular area 7 to 10 years from now, especially with 
deregulation, there is a very big disincentive. Now we can say 
2\1/2\ years, or build six of these small units and then, 5 
years from now, if you need more capacity, you can add it on 
relatively quickly.
    A great deal of work remains to be done, obviously. The 
inherent safety of this design means that the current 
regulatory framework will need to be reshaped. Risk analysis 
needs to be further evaluated. But as someone who is personally 
convinced of the importance of nuclear power in our national 
security, it has been very encouraging to see the amount of 
enthusiasm that this project has built. One of the things we 
have not heard as we are looking at the future of the nuclear 
industry in the United States is who is going to do it.
    The people that designed these plants in the sixties and 
built them in the seventies are retiring. We just had the new, 
incoming class of freshmen at MIT declare their majors and we 
only had six say nuclear, which is less than one-half of what 
we would typically have. So, it is an issue. And in order to 
keep the interest and ensure enough students continue to pursue 
this, it is important to support projects of this type with 
new, innovative designs, to show there are new challenges.

                           PREPARED STATEMENT

    And I would like to close by thanking the committee for 
your interest and hope that as you are talking about pushing 
the funding envelope, Senator Craig, that ideas and 
developmental projects like this will be an important part of 
the mix.
    [The statement follows:]

                  Prepared Statement of Alan B. Smith

                  ADVANCED NUCLEAR ENERGY TECHNOLOGIES

    Mr. Chairman, my name is Alan Smith. I am a graduate student in the 
Department of Nuclear Engineering at the Massachusetts Institute of 
Technology. With me, is Dr. Jeffrey P. Friedberg, the Chairman of the 
Nuclear Engineering Department. I am representing a group of both 
graduate and undergraduate students who have spent about 6 months 
exploring advanced nuclear energy technologies that could be developed 
to address global climate change on a proliferation-proof, world-wide 
scale. We think we might have an answer. This morning I would like to 
report on our nuclear energy plant design project and what I believe 
are opportunities to get students interested in pursuing a career in 
nuclear technology.
    This new nuclear energy plant project began as part of the American 
Nuclear Society's design competition aimed at stimulating interest in 
nuclear energy at the universities that still teach the subject. The 
original title of the competition was ``The Economic Imperative'' which 
challenged students to think creatively about what it would take to 
bring the cost of new nuclear power plants down to levels that would be 
competitive with new natural gas fired fossil plants. Natural gas 
plants were chosen as the standard because they are the current choice 
of electric generating companies due to their low capital and present 
low fuel costs.
    At MIT, we took a broad view and renamed our effort as ``The 
Economic and Environmental Imperative'' to incorporate the belief that 
it will take more than economics to bring the benefits of nuclear 
energy to bear in addressing the problems of air pollution and global 
climate change. Our desire is to develop a conceptual design of a 
politically acceptable reactor that is also economically viable. Recent 
international developments in India should reinforce the need to 
develop a nuclear energy plant that is more proliferation proof to take 
advantage of the enormous environmental benefits that nuclear energy 
offers.
    The issues confronting reintroduction of new nuclear power plants 
into the world energy mix are many. They have to do with public and 
political perceptions about safety, nuclear waste, proliferation, 
radiation, regulatory stability and financial viability, given the 
history of nuclear power to date. We took a broad view to this issue, 
to the extent that the acceptability of the technology was as much a 
part of the solution as the economics. Our position is that the 
acceptability of the technology is as much a part of the solution as 
the economics. Our objective was a complete package--the technology, 
the design, the fuel, the waste, construction schedules, the final cost 
of power, the financing and the public acceptance program.
    This project began with a review of the present issues confronting 
nuclear energy that prevent its widespread use. The nuclear technology 
currently in use across the country has several shortcomings that limit 
its desirability as the type of nuclear plant for the future. Most of 
the shortcomings stem from the size and complexity of the various 
integrated support systems, which have driven up capital costs, 
staffing requirements, and regulatory requirements. Today's plants were 
expensive to build, are expensive to maintain and operate, and 
difficult to keep in compliance in the current regulatory environment. 
Due to these factors, extraordinary management attention and skill is 
required to keep the plants operating. The high demand for management 
attention, far exceeding that of the alternative sources of 
electricity, is a serious deterrent to new orders. Prescriptive 
regulatory constraints imposed by the Nuclear Regulatory Commission 
stifle innovation, which makes current and even future nuclear plants 
hostage to old technologies and approaches.
    Despite ample scientific evidence to the contrary, the public 
perceives the current generation of nuclear power stations as generally 
unsafe. Additionally, existing nuclear stations are faced with an 
increasingly critical lack of a spent fuel disposal capacity. Falling 
coal and natural gas prices, when coupled with expensive modifications 
to nuclear plants following the Three Mile Island accident resulted in 
the elimination of much of nuclear power's generation cost advantage 
over fossil fuels. Ultimately, the combination of adverse public 
opinion, regulatory pressures, and economic challenges that exist today 
have resulted in two decades of no new orders of nuclear stations.
    As you are aware, worldwide concern over greenhouse gas emissions 
is prompting a reevaluation of the role nuclear power should play in 
the world's energy generation. Conservation efforts and renewable 
resources will simply be unable to meet the growing global demand for 
electricity, let alone reduce current dependence on fossil fuels. 
Secretary of Energy Frederico Pena recently called nuclear power ``an 
important part of our energy mix'' and noted that the Department of 
Energy's proposed fiscal year 1999 budget contains $44 million in 
funding for nuclear energy research and development. When pressed, even 
the most vocal nuclear power opponents are beginning to admit that 
emission-free nuclear power will continue to play a vital part in 
meeting the world's growing energy needs without accelerating the 
greenhouse effect.
    In spite of the obvious benefits, the prospect for building future 
nuclear power plants in the U.S. is questionable. What is not in 
question, however, is that any future nuclear plant must be perceived 
as a significant improvement over current designs if it is to warrant 
serious consideration. Experience gained after thirty years of 
commercial operation has shown that development of a successful design 
must address much more than just engineering issues. Political and 
economic considerations play just as important a role in determining 
the eventual success or failure of nuclear power.
    Perhaps the three largest public (political) hurdles facing the 
nuclear industry deal with the eventual disposal of spent fuel, the 
potential for nuclear proliferation, and eventual plant 
decommissioning. The long delayed nuclear waste disposal facility at 
Yucca Mountain is becoming a multi-billion dollar monument for why 
nuclear power is in decline in the U.S. Additionally, political 
instability and the threat of terrorist use of nuclear material, no 
matter how remote, make growth of nuclear power unattractive to many 
governments. Finally, decommissioning of current nuclear stations is 
costing as much as ten percent of the original construction cost. These 
issues were not considered during the design and construction of the 
current generation of nuclear plants. However, future designs must be 
able to effectively address these issues if they are to receive serious 
consideration in the future.
    Based on the preceding challenges, and even with renewed interest 
in commercial nuclear generation, it is likely that problems associated 
with current designs will make them unattractive for consideration for 
future construction. Public perception, regulatory, and economic 
factors that have caused existing designs to lose favor are unlikely to 
change. It is therefore apparent that any future commercial nuclear 
power plants must be a significant departure from stations built in the 
past. In other words, to be ``revolutionary'' rather than 
``evolutionary''. To that end, we feel the following attributes are 
essential for the new design:
  --The plant design must be naturally safe. In other words, even in 
        the worst-case scenario of having the nuclear plant at maximum 
        power and simultaneously stopping all coolant flow, there can 
        be no damage to the plant or any adverse impact on the safety 
        of the public or the environment. The safety of the plant must 
        be obvious to both the public and the regulators. The design 
        must support risk-informed regulation. The safety of the plant 
        must be demonstrable.
  --The plant design must support a much shorter construction time. 
        Construction costs should be low and predictable. To facilitate 
        rapid construction, designs should emphasize modular 
        construction. This will not only reduce total assembly time, 
        but also offer the improved quality control and economic 
        advantages of production line fabrication.
  --The plant must also be designed with eventual decommissioning in 
        mind. Sizing and design of systems to facilitate rapid 
        disassembly, ease of decontamination, and ease of disposal 
        should be performed so that a decommissioning plan can be 
        developed before construction even begins.
  --In order to reduce operating costs, the plant must be designed to 
        minimize lost generation due to refueling or maintenance 
        shutdowns. Accordingly, the design should provide the 
        capability to refuel and perform maintenance on-line. If on-
        line refueling is not possible, the design should allow for 
        rapid refueling. Components that are expected to require 
        replacement during the life of the plant should be designed for 
        ease of removal and installation.
  --The plant should be simple to operate (amenable to automation), and 
        maintain in order to allow for small staffs that require less 
        technical expertise.
  --The design should be able to be used in a country without the 
        extensive nuclear infrastructure through a turnkey type of 
        contract for operations and support.
  --The design should provide a plant with lower radiation dose levels 
        and less radioactive contamination than current plants.
  --The design should ensure minimal environmental impact. 
        Additionally, it should be capable of operating at high thermal 
        efficiencies and allow for the use of waste heat for other 
        commercial applications if desired.
  --The design should use a simple fuel cycle that provides the highest 
        possible resistance to proliferation, does not depend on 
        reprocessing have high fuel burn up, and it should support 
        burning mixed oxide fuels. Additionally, the fuel type used 
        must offer ease of fuel storage and disposal and good fuel 
        integrity.
  --The design should be acceptable for the international market in 
        terms of safety and proliferation resistance under a standard 
        international safety authority.
  --The plant should be able to be site assembled quickly using 
        prefabricated units shipped by barge or by train to potential 
        sites.
    Using these fundamental criteria as to what we thought we would 
need, we then proceeded to review the options that are currently 
available for construction and those under development to see how they 
ranked against our criteria. As you are aware, the nuclear industry has 
been developing new advanced reactor designs under guidance documents 
prepared by the Electric Power Research Institute and implemented by 
major nuclear plant vendors in the United States. Each of these new 
designs is under review by the Nuclear Regulatory Commission for design 
certification. Some have already been granted approval and detailed 
first of a kind engineering is underway.
    In addition, the issue of nuclear proliferation was explored to 
determine what kinds of design features were important to reduce 
substantially the risk of the spread of nuclear materials to terrorists 
or terrorist states. Presentations of ``new'' technologies were also 
heard which included gas-cooled reactors, lead bismuth reactors and 
light water reactor breeders. We chose not to consider liquid metal 
breeder reactors because the political climate for their acceptance was 
not conducive at the present time (although a great deal of work has 
been done on them in this country).
    Based on these presentations and student research, a matrix of 
important factors was developed with weighting factors and each plant 
type was subjectively ranked against these criteria. The primary factor 
used to judge acceptability was demonstrable safety. Economics was 
second. The list of criteria numbered over 20 and included such things 
as short construction time, small operating staff, high efficiency, 
proliferation resistance, short or on-line refueling, public support, 
ease of maintenance and repair, and ease of decommissioning.
    Upon completion of this review, we selected a small, modular pebble 
bed fuel, helium gas cooled reactor with gas turbines to generate 
electricity. We chose a small modular reactor about one tenth the size 
of today's large nuclear power plants because of the improved safety, 
ease of operation, and ability to be mass produced, which we expected 
to yield lower costs. The 110 Megawatt electric size of the plant is 
naturally safe with no operator or other passive mechanical action 
required, even for the worst contemplated accident in which all cooling 
systems are turned off. No meltdown can occur.
    Given the small size of the plant, there will not even be any fuel 
failure, thus no release of harmful radioactivity. The plant is 
specifically sized and designed such that it will naturally shut itself 
down with no dependence on active or passive systems. The small size 
and improved proliferation resistance is also suitable for developing 
nations as they seek to build their electric grids and developed 
nations who want to add incremental capacity based on market demands. 
Modules in increments of 110 megawatts could be added to each plant to 
make up a plant of 1,100 megawatts or larger depending upon the needed 
capacity.
    The pebble bed fuel design was chosen because it allows for on-line 
refueling which will increase the generating potential of the plant. 
The gas turbine electric generating cycle is also very efficient with 
efficiencies as high as 50 percent possible with less wasted energy. 
The electric generation side consists of a gas turbine that is similar 
in many ways to those currently used in natural gas burning fossil 
plants. Although initial designs would include an intermediate helium 
to helium heat exchanger, future designs could eliminate this feature 
as fuel performance data is developed. The ``direct'' gas cycle 
compares very well with conventional natural gas plants and far exceeds 
present nuclear plant efficiencies of 33 percent.
    The proliferation concerns are addressed by the fuel type used. The 
fuel is contained in carbon microspheres, which provide the containment 
for storage and disposal, and is of a form that makes reprocessing 
extremely difficult, if not impossible. As all nations attempt to 
combat global climate change, proliferation resistance is extremely 
important for worldwide deployment of advanced nuclear energy 
technologies, especially in developing nations. A key attribute of our 
design is that the plant is simple enough such that the need for a 
nuclear infrastructure will not be necessary to allow for safe 
operation. Our concept calls for an international licensing approach 
that will have fuel supplied by international authorities and used fuel 
collected and disposed of by the same international consortium that 
would have strict fuel accountability.
    These plants, because they are so simple in design and naturally 
safe, would be sold as turnkey modules as standardized units. The 
consortium in charge of design and construction would also provide 
training to the operators and maintenance personnel to assure safe and 
reliable operation. This plant would truly be an international plant 
suitable for use in all countries without the need for these countries 
to develop sophisticated research laboratories to support this 
technology. The plant's safety and performance would be regulated in 
accordance with an international regulatory authority such as the 
International Atomic Energy Agency.
    The other key factor in the selection of this technology and size 
of plant is its ability to be factory assembled. This will not only 
enhance quality which can be better controlled in a factory 
environment, it will also speed construction time such that we expect 
to be able to have a 110 MWe module operating within 122 weeks of start 
of construction--just slightly over two years. The key is the small 
base units that allow rapid sequential completion of up to 1,100 Mwe or 
larger. The factory assembling the modules can ship a module to the 
site as soon as it is complete and the next module is still being 
assembled.
    Our analysis shows that the site preparation to support a ten-unit 
station will be completed at approximately the same time that the first 
module is ready to be shipped to the site. It is also estimated that a 
limited-scope factory assembly operation is capable of assembling a 
module and preparing it for shipment within three months of receiving 
all necessary components. Therefore, if modules are shipped to the site 
as soon as they are assembled and tested, a new module will be arriving 
and being installed every three months. Because each module is 
completely autonomous, the unit will be capable of operation as soon as 
it undergoes fuel loading and final installation testing. This means 
that power generation can begin well before the completion of the 
remaining units.
    This radically new approach understandably presents new economic 
conditions and considerations. We believe our design makes it uniquely 
attractive to a wide variety of investors. In the U.S., for example, 
the uncertainties associated with deregulation, regulation, and future 
energy demand have served to discourage construction of nuclear 
facilities. The small size of our design allows for prompt, incremental 
addition to existing generation capacity at the lowest possible capital 
cost. In developing nations or areas that do not have the 
infrastructure to support the construction of a large plant, a few of 
these smaller units represent the ideal solution to their energy needs.
    This past semester was spent performing much more rigorous 
engineering analysis to bring our concept to life. Work on the nuclear 
plant design was performed to analyze the performance of the nuclear 
fuel over the operating cycle. Nuclear plant operating characteristics 
were analyzed under various accident conditions to demonstrate that the 
design is in fact naturally safe (it is). Equipment dimensions were 
calculated in order to determine if components could be shipped from 
the factory to the site by truck or rail (they can). Vendors and 
consultants were contacted to validate the feasibility of the rapid 
construction potential of this design (it is possible).
    In summary, we are very encouraged by the potential of this design 
to meet some of the world's future energy needs safely, economically, 
and without harming the environment. Producing electricity by splitting 
atoms is a technical challenge we were able to meet forty years ago. If 
we wish to continue to do so, however, many more challenges must be 
addressed with the same effort. We believe that this design is uniquely 
able to meet the challenges of proliferation resistance, waste 
disposal, safe operation, and economic performance that the next 
generation of nuclear plants will face. And we are not alone. The 
Germans, Japanese, Chinese, and Russians are all doing research into 
designs of this type, and the South Africans are moving ahead with 
plans to construct a gas cooled plant for commercial power generation.
    Of course, a great deal of work remains to be done. Additional 
research is needed to further investigate new techniques for safe 
handling and storage of waste, improvements in the design of the fuel, 
and ways to make the fuel even more resistant to proliferation. The 
natural safety of this design means that the current regulatory 
framework will need to be reshaped, and risk analysis needs to be 
further evaluated.
    During the course of our work, a large number of students and 
faculty became very interested in the possibilities this design offers. 
As someone who is convinced of the importance of nuclear power to our 
national security, it has been very encouraging to see the amount of 
enthusiasm this project has generated. The enthusiasm however is not 
limited to this specific design. Rather, it is generating new 
discussions about the future of nuclear energy, waste, proliferation, 
and plant safety that will improve the performance of any nuclear plant 
design. They are talking about meeting the greenhouse gas emission 
goals recently established in Kyoto, and talking about new ways to 
safely meet the world's growing energy needs. In short, Mr. Chairman, 
there is a spark of optimism about the future of nuclear power that has 
been absent during recent years.
    I would like to close by thanking the committee for your interest 
and hope that you and your committee approve additional funding for 
universities to continue this project and others like it.

    Senator Reid. Mr. Chairman, I would like to be excused. I 
will say that I have read the testimony of the other three 
witnesses. It was very impressive, just as with this young man. 
I am especially interested in the testimony of Linden Blue, 
about the new technology that we are going to have to look at 
very closely in this subcommittee.
    Senator Domenici. Mr. Smith, I continue to be amazed at 
what the students and graduate students in our great 
universities can accomplish. And your professor was a very 
astute fellow when he asked you, as students, to take this 
project on. And I would venture a big bet that your conclusions 
are probably fairly close to being correct, without having 
large resources to accomplish what you have done. And I 
personally am glad that we found you and brought you here.
    And thank you very much for your testimony and for what you 
are doing. And I hope that we do not let people like you down, 
who have these great ideas and want to do these kind of things 
by turning the spigot off and saying that we want to hide from 
all of this in the United States.
    Dr. Schriber.


STATEMENT OF STAN O. SCHRIBER, PH.D., LANSCE DEPUTY 
            DIVISION DIRECTOR, LOS ALAMOS NATIONAL 
            LABORATORY, NEW MEXICO
    Dr. Schriber. Mr. Chairman and members of the committee, I 
am honored to be here to talk to you about an opportunity for 
this country in one aspect of our generating energy.
    Energy is a strategic commodity for our country, and it has 
and will continue to have an enormous impact on our lifestyle 
and our ability to remain a great nation. In this context I 
would like to make four key points today.
    First is that a technical solution to the issue of long-
lived nuclear waste is feasible. Second, the solution can 
contribute to nonproliferation goals. Third, the solution can 
be economically effective, politically attractive, and has 
international support. And last, the solution builds on 
developments underway in Department of Energy laboratories with 
worldwide collaborators.
    The issue I am addressing is disposal of spent nuclear fuel 
from our nuclear power reactors. Accelerator-driven 
transportation of waste, or ATW as I will call it in this 
presentation, is a technology option for assisting waste 
disposal in this country. With ATW, a permanent repository is 
still necessary, but more efficient use of its capacity is 
possible. A key concept in ATW is transmuting nuclear waste, 
actually destroying the long-lived isotopes so that the 
material to be stored has a lifetime that is short compared to 
the time scale of geological change.
    We have reached the stage in the development where it would 
be prudent to take the next step in technology development: a 
5-year plan. The path of ATW technology development can provide 
technologies important to future nuclear options and/or 
strategies as recommended by the President's Committee of 
Advisors on Science and Technology, even if ATW was not added 
to the suite of future systems.
    ATW design has matured significantly over the years, being 
based on elements that have evolved within the international, 
as well. The nuclear burner would use liquid lead bismuth 
technology based on extensive Russian nuclear reactor work. 
Research groups in Europe and Asia are also considering similar 
systems.
    Operating the ATW burner in a subcritical mode enables the 
destruction of actonides and fission products safely without 
isolation of weapons-grade material, and without extensive 
separations work, all in a single-purpose device. ATW impacts 
the need for a second geological repository by increasing 
storage efficiency and decreasing long-term risk. In addition, 
the ATW system converts the transuranics that were going to be 
buried into useful electrical energy. Thus the system could be 
energetically self-supporting, providing its own energy and 
providing a net power output to the electrical grid.
    I will run through a brief scenario. Over a 65-year period, 
an ATW system consisting of 20 burners could transmute the 
spent fuel accumulated to the year 2015, and enhance the 
efficiency of the repository such that a second one would not 
be necessary well into the foreseeable future. The 70,000 tons 
of spent fuel includes 600 tons of transuranics, mostly 
plutonium, with some neptunium and americium.
    Output from the system would be 67,000 tons of uranium that 
could be considered low-level waste; less than 0.3 tons of 
transuranics--that is a reduction by more than a factor of 
1,000; 3,000 tons of fission products, with minimal technetium 
and iodine, which are really the bad actors--a reduction by 
more than a factor of 20 in capacity for the repository. In 
addition, you get electricity for the grid, you get 5 trillion 
kilowatt hours of emission-free energy over the 40 years.
    And, finally, residual activity and radiotoxicity of waste 
in the repository after 300 years is less than that of a 
nonassisted repository after 100,000 years. The seven 
organizations that are part of this official ATW collaboration 
are the Los Alamos National Laboratory, Lawrence Livermore 
National Laboratory, Sandia National Laboratory, Westinghouse 
Savannah River Co., Bechtel National, Northrup Grumman, and 
Westinghouse Electric Corp.
    In addition, the University of California, Berkeley, and 
the University of Illinois are participating. This is a strong 
collaboration, with expertise in the relevant technologies and 
large-scale applications. Up to now, all of the funding in 
support of ATW studies has come from discretionary funds of the 
institutions participating in this collaboration.
    With our industrial colleagues, we have determined that the 
economics appear favorable for an ATW-assisted waste management 
system. And, in addition, a technical path for the development 
of this option has been identified, with no show-stoppers.
    With industry, we have developed a viable program plan for 
ATW and determined rough cost estimates for the above scenarios 
and for the development program. The 5-year technology 
development program has been estimated at $150 million.
    There are important outcomes or legacies that come from 
this 5-year program that will have an impact in many other 
areas. To give you an idea of the outside view of this program, 
we held a review in January by the Nuclear Engineering 
Department of the Massachusetts Institute of Technology, a 2-
day, in-depth review. Their report was positive, and I would 
like to just make a couple of excerpts from the report.
    One of them was: We see no insurmountable issues or show-
stoppers. The second one was: While we do not judge the merits 
of the ATW as an option and to improve the management of 
nuclear waste, we acknowledge that it has the potential to 
provide added flexibility to the design of the high-level waste 
repository and to reduce the uncertainties about its 
performance. And last: The R&D program is well designed to 
address these concerns.
    The ATW collaboration has reached the stage where it is 
prudent to take the next step. We have an opportunity to make 
significant advances and to enhance the capability of a 
repository solution. In addition, the United States would 
continue its leadership role in an important area for the 
country and for the world.
    Finally, I would like to thank you for the opportunity to 
speak to you today on ATW and its possibilities, and for your 
kind attention to this important issue.
    [The statement follows:]

               Prepared Statement of Dr. Stan O. Schriber

       ACCELERATOR-DRIVEN TRANSMUTATION OF WASTE: AN OPPORTUNITY

Introduction
    Mr. Chairman, members of the committee, distinguished visitors, I'm 
honored to be here to talk to you about an opportunity for this country 
in one aspect of our generating energy. Energy is a strategic commodity 
for our country, and it has and will continue to have an enormous 
impact on our lifestyles and our ability to remain a great nation.
    In this context, I would like to make four key points today:
  --A technical solution to the issue of long-lived nuclear waste is 
        feasible.
  --The solution can contribute to nonproliferation goals.
  --The solution can be economically effective, politically attractive, 
        and has international support.
  --The solution builds on developments underway in the Department of 
        Energy laboratories with worldwide collaborators, but now needs 
        your support.
The Issue--Nuclear Waste
    The issue I'm addressing today is the disposal of spent nuclear 
fuel from our nuclear power reactors. I do not have to lecture you on 
the political difficulties in finding a home for nuclear waste that has 
a radioactive half-life of tens of thousands of years.
    Accelerator-driven Transmutation of Waste, or ATW as we call it for 
short, is a technology option for assisting waste disposal in this 
country and other countires with nuclear power systems. With ATW, a 
permanent repository is still necessary, but more efficient use of its 
capacity is possible. The key concept in ATW is transmuting nuclear 
waste--actually destroying the long-lived isotopes--so that the 
material to be stored has a lifetime short compared to the time scale 
of geological change.
    A national collaboration led by the Department of Energy 
laboratories has made significant technical progress in accelerator 
transmutation technology because of an interest in future energy 
economies for our country. We have reached a stage in the development 
where it would be prudent to take the next step in technology 
development--the 5-year plan which I will describe later. The path of 
ATW technology development could provide technologies important to 
future nuclear options and/or strategies (as recommended by the 
President's Council of Advisors on Science and Technology) even if ATW 
was not added to the suite of future systems. A suitable program to 
continue this important activity should be established in the 
Department of Energy.
What is ATW?
    ATW is based on three major building blocks. These are:
    1. A nuclear assembly where radioactive waste is transmuted by an 
intense neutron flux without using or creating a self-sustaining 
nuclear reaction.
    2. A chemical extraction process to separate elements for recycling 
and eventual disposal, based on work underway at Argonne and Los Alamos 
to enhance proliferation-resistance and minimize environmental impact.
    3. A high-power linear accelerator being developed under other 
programs within the USA.
    ATW design has matured significantly over the years, being based on 
elements that have evolved within the international community as well. 
The nuclear burner would use liquid lead/bismuth technology based on 
extensive Russian nuclear reactor work. Research groups in Europe and 
Asia are also considering similar systems.
    The accelerator provides high energy protons that produce copious 
neutrons from the lead/bismuth spallation target. These neutrons assist 
the nuclear burner in transmuting transuranics by fission, and fission 
products (especially technetium and iodine) by absorption. Operating 
the burner in a subcritical mode (possible because of the accelerator 
drive) enables the destruction of actinides and fission products 
safely, without isolation of weapons grade material, and without 
extensive separations work: all in a single-purpose device.
    High level waste can be treated using an ATW system, whether that 
waste is staged to be placed in an operating geological repository or 
temporarily stored in a monitored retrievable storage facility. A 
deployed ATW system will likely eliminate the need for a second 
geologic repository by greatly increasing the high-level waste storage 
efficiency through transmutation. Transmutation would change the 
inventory of the types of materials stored, reducing long term risks. 
In addition the ATW system produces useful electrical energy as a 
byproduct. Thus the system could be energetically self-supporting, 
providing its own energy, and providing a net power output to the 
electrical grid.
ATW System Scenarios
    We will have about 70,000 tons of spent reactor fuel accumulated in 
this country by the year 2015. This fills the repository as presently 
conceived. If we continue with nuclear power generation in this country 
after 2015, then a second repository will have to be considered unless 
some efficiency improvements are instituted within the repository plan. 
Three scenarios that have been investigated are described in the 
following:
    1. Over a 65 year period, an ATW system consisting of 20 burners 
could transmute the spent fuel accumulated to the year 2015 and enhance 
the efficiency of the repository such that a second repository would 
not be necessary for the foreseeable future. Why was 65 years chosen? 
It was a reasonable compromise between the number of ATW systems, 
electrical output, infrastructure and a desire to stay within a logical 
human time frame up to a quarter filled before ATW starts to have an 
effect. Again the repository capacity is enhanced significantly and one 
can decide at that time whether it is appropriate to remove the stored 
material for treatment within an ATW.
Program and Plans
    The seven organizations that are part of the official ATW 
collaboration are Los Alamos National Laboratory, Lawrence Livermore 
National Laboratory, Sandia National Laboratories, Westinghouse 
Savannah River Company, Bechtel National, Northrup-Grumman, and 
Westinghouse Electric Corporation. In addition, the University of 
California--Berkeley and the University of Illinois are participating. 
This is a strong collaboration with expertise in the relevant 
technologies and large-scale applications. Up to now, all of the 
funding in support of the ATW studies has come from discretionary funds 
of the institutions participating in the collaboration.
    With our industrial colleagues we have determined that the 
economics appear favorable for an ATW-assisted waste management system. 
In addition, a technical path for development of the option has been 
identified; with no show stoppers. The no show-stopper situation has 
been verified independently by a MIT review that is mentioned later. A 
proposed 5-year engineering and development program that addresses key 
issues provides direction for the program and would provide logical 
exit criteria for decision makers based on the program developments. If 
successful, this assisted repository option would have many positive 
environmental and/or societal impacts.
    With industry we have developed a viable program plan for ATW and 
determined ``rough'' cost estimates for the above scenarios and for the 
development program. Part of the five-year plan is to complete a more 
comprehensive study of costs and benefits. The five-year technology 
development program plan has been costed at $115M total assuming 
funding levels at $15M, $20M, $25M, and $30M for each successive year. 
These levels have been determined on the basis of significant 
deliverables and demonstrations, and would provide adequate information 
for decision-makers to make an informed (retirement ages and expected 
human lifetimes). Input to the system would be the 70,000 tons of spent 
fuel mentioned earlier, which includes 600 tons of transuranics (mostly 
plutonium with some neptunium and americium). Output from the system 
would be: 67,000 tons of uranium that could be considered low-level 
waste (a much smaller quantity than what we have from the mining of 
uranium) or a resource to be used in reactors again in the future; less 
than 0.3 tons of transuranics (a reduction by more than a factor of one 
thousand) that would have to go to the repository; 3,000 tons of 
fission products with minimal technetium and iodine (the ``bad'' 
actors), that would have to go to the repository--for a reduction by 
more than a factor of 20 in capacity; electricity for the grid (5 
trillion kilowatt hours of emissions-free energy over the 40 years); 
and residual activity and radiotoxicity of waste in the repository 
after 300 years that is less than that for a non-assisted repository 
after 100,000 years.
    2. Assume that we continue with about 100 power reactors in this 
country for another 40 years beyond the 2015 time frame. For this 
scenario another about 70,000 tons of spent fuel would be produced. 
With an accompanying infrastructure of ATW's, as in the above example 
also producing electrical energy, the spent fuel material is converted 
while it is being produced; but with one ATW for every four power 
reactors on the assumption that they are of the present-day light-water 
reactor (LWR) type. If improved nuclear reactor concepts are realized 
then the support ratio could be one ATW for every ten power reactors or 
even maybe up to one for every twenty. This scenario produces 
electrical energy from the power reactors with a minimized high-level 
waste stream going to a geologic repository that has the possibility 
for a much reduced operation lifetime.
    3. Assuming that an ATW demonstration would not occur until about 
2015, means that the repository would begin accepting spent fuel for 
about 5-10 years prior to an ATW being introduced into the overall 
nuclear system. In this scenario, the repository may be decision on 
future program direction. These development costs, while substantial, 
are small on the scale of national electrical energy economics.
    The five-year program focuses on essential technology development 
and evaluation necessary for a technically and economically sound 
concept for the first implementation. Critical technologies include 
mass flows, pyrochemistry, materials verification, technology transfer 
and integration, liquid lead/bismuth cooled cores with integral target, 
system studies, costing studies, solid fuel development and preliminary 
tests, repository interfaces and nuclear data experiments for improving 
computer modeling. Much of the technology development has broader 
applications.
Spin-offs
    There are important outcomes or legacies from the five-year 
program. These include liquid lead/bismuth for future advanced nuclear 
systems, nuclear data and code improvements for basic science advances, 
high power neutron production targets for basic science research, waste 
disposition processes for environmental management, and system studies 
providing advanced fuel cycle information and a basis for future 
decisions and/or directions.
ATW Board
    As mentioned above, we have a national collaboration involved in 
the ATW studies. We have formed an ATW advisory board from the members 
of this collaboration, a board to provide Los Alamos with advice on 
program's activities.
MIT Review in January
    The Nuclear Engineering Department of the Massachusetts Institute 
of Technology held a two day in-depth review of the ATW technology in 
January. Their report was positive for the ATW program in general. 
Excerpts from their report include the following comments:
  --``* * * we see no insurmountable issues or show stoppers. While the 
        proposed technologies are in several instances extrapolations 
        of existing experience to untested conditions, they represent 
        reasonable targets for development over the next 5 to 10 
        years.''
  --``While we do not judge the merits of the ATW as an option to 
        improve the management of nuclear wastes, we acknowledge that 
        it has the potential to provide added flexibility to the design 
        of the high level waste repository and to reduce the 
        uncertainties about its performance.''
  --``* * * the main technologies to be developed * * * are all 
        worthwhile technologies for other applications beside the 
        transmutation of wastes. We see the spin-offs from the 
        development efforts as equally important reasons for the 
        undertaking of the proposed development program in the next few 
        years.''
  --``As detailed in the following sections there are several 
        commendable attributes but also questions and caveats to be 
        addressed. * * * The R&D program is well designed to address 
        these concerns.''
Megascience Forum
    The Nuclear Physics subgroup of the Megascience Forum for the OECD 
(Organization for Economic Cooperation and Development) included ATW as 
one of the applications for investigation. I believe that this spring 
they will state that the nuclear physics community could assist the ATW 
program with useful nuclear data experiments and with improvements to 
the models and codes that are used in studies of nuclear systems. These 
advances would be useful in many areas other than ATW.
Summary
    The ATW collaboration has reached a stage where it is prudent to 
take the next step in technology development--the 5-year plan. We have 
an opportunity to make significant advances and to enhance the 
capability of our repository solution. At the same time, ATW holds the 
promise of making nuclear power more acceptable to the general populace 
by minimizing the amount of material that has to be stored in a 
repository and by reducing the length of time over which a geologic 
repository must be licensed. In addition, the USA will continue its 
leadership role in an important area for the country and for the world.
    Finally, I'd like to thank you for the opportunity to speak to you 
today on ATW and its possibilities, and for your kind attention to an 
important issue.
    Separately we have provided copies of an October 1997 presentation 
to the Swedish Royal Academy of Engineers at their request in order to 
assist them in discussions they were going to have with the Swedish 
Government relative to policies in effect for nuclear power within 
Sweden.
                                 ______
                                 
  Accelerator-Driven Destruction of Long-Lived Radioactive Waste and 
                           Energy Production
    Abstract.--Nuclear waste management involves many issues. ATW is an 
option that can assist a repository by enhancing its capability and 
thereby assist nuclear waste management. Technology advances and the 
recent release of liquid metal coolant information from Russia has had 
an enormous impact on the viability of an ATW system. It now appears 
economic with many repository enhancing attributes. In time, an ATW 
option added to present repository activities will provide the public 
with a nuclear fuel cycle that is acceptable from economic and 
environmental points of view.
                              introduction
    The nuclear waste disposal issue for spent fuel from nuclear 
reactors is one that has a large impact on public acceptance of nuclear 
power generation and of long-term storage options. To a lesser degree, 
this issue has an impact on the costs of generating electricity, and 
the shipping, handling and transport of highly radioactive materials. 
Various options for long-term storage are being considered by different 
countries, but most schemes result in a geologic repository that has to 
be licensed and certified for a lifetime in excess of 100,000 years. 
Much investment has been made in repositories and their capabilities, 
with significant progress and rational solutions. Many individuals 
state that a geologic repository is a good solution and one that can 
work well. Others express concern over the time needed to protect such 
facilities from overt or covert actions, either from natural effects or 
by planned intrusions. Some express concerns about passing a serious 
legacy to future generations and about the loss of an energy generating 
resource from the heavy elements in the stored spent fuel. These are 
all difficult issues to consider and require well thought-out solutions 
to effect a win-win outcome for a country, its leaders, industry and 
the populace.
    The Accelerator Transmutation of Waste (ATW) system is a repository 
enhancing option that should be considered because of the benefits it 
provides; no matter where the repository is located and no matter its 
status. The ATW option can be employed whether the spent fuel is fully 
buried, monitored and retrievable, or in interim storage ponds at 
nuclear installations. ATW supports the premise that a repository is a 
very good solution and assists this solution by making more efficient 
use of the capacity. A comparison can be made of flying across the 
Atlantic Ocean from North America to Europe in a propeller driven plane 
versus a modern jet aircraft. A traveler spends less time getting 
across, the higher flight path is usually less impacted by the weather 
and the turbulence, and the economics are better because of 
improvements in technology; even though the propeller driven aircraft 
is safe and gets to the destination. Both are acceptable solutions, but 
the jet aircraft is preferred by most individuals because of economics, 
technology enhancements, time spent and other associated benefits. 
Successful development work on jet engines and associated technologies 
allowed the introduction of this option into air travel.
    Estimated benefits to be accrued for an ATW assisted repository 
include the following:
  --Radiotoxicity and radioactivity are significantly reduced. An ATW 
        assisted repository has a lower toxicity (and activity) after 
        300 years than an unassisted repository after 100,000 years.
  --Because of the above improvement, it may be possible to license a 
        repository for 300 years rather than the present anticipated 
        100,000 years plus.
  --The amount of transuranic material introduced into a repository is 
        reduced by more than three orders of magnitude. In the USA this 
        means that the 600 tons of transuranics, contained within the 
        70,000 tons of spent fuel estimated to be handled by 2015, is 
        reduced to less than 0.3 tons.
  --At the same time that the transuranic material is being transmuted 
        in the ATW system, it is generating useful energy that can be 
        coupled to the electrical grids.
  --At no time during the operation of the ATW cycle are weapons 
        materials separated or made available in the processing 
        streams. In that sense, the processes are proliferation 
        resistant.
  --Two of the most worrisome fission products, Tc and I, are 
        transmuted and minimized to the point that they are no longer 
        major concerns for repository licensing.
    Over the past decade many technology alternatives for an ATW system 
were studied. It is intriguing and interesting that the international 
community has evolved to the same three basic components for an ATW 
system. These three components are pyrochemistry for the chemical 
processing, the liquid lead bismuth eutectic (LBE) used for both the 
target and the coolant, and the high-power linear accelerator that 
provides the protons for the spallation process in the target. Other 
common features used in the design of an ATW include solid fuel, fast 
neutron spectrum and a sub-critical assembly. Previously studied 
elements that are no longer considered include molten salt, thermal 
neutron spectrum, liquid fuels and centrifuge separations.
    We have reached the stage in the development for an ATW system 
where it makes sense to take the next step--to start significant 
funding over the next five years to develop and test the concepts to 
the point such that an informed decision could be made by policy makers 
on whether this technology should be taken to the next stage, a 
demonstration ATW plant of the 1,000 MWt class.
    An outcome of the five year development program would not only be 
the concepts and the feasibility of an ATW system, but would include 
the technology that could be used in other applications. The 
pyrochemistry, the LBE target, a LBE-cooled fast reactor concept and 
the accelerator technology could all be of benefit to programs which 
have as part of their infrastructure items such as spallation neutron 
sources and targets, future nuclear stations, and high-power proton 
accelerator applications including radio-isotope production, muon 
colliders and neutron scattering. Some have even suggested that the 
technology developments in LBE and pyrochemistry could be the bridge to 
future nuclear systems that may have the following advantages: 
simplified operation, minimal waste streams, more efficient use of 
heavy element resources and reduced costs.

                           SYSTEM DESCRIPTION

    As mentioned above, an ATW system consists of three major building 
blocks. These are the high-power proton accelerator, a liquid LBE 
target and cooling system, and pyrochemistry processing. Our studies 
and those of our international colleagues indicate that economics for 
an ATW-assisted repository appear to be favorable. This economic 
indication has been verified by industrial partners who have completed 
simple systems studies; not detailed economic analysis based on item-
by-item component lists, scheduled deliveries and supplier quotes. We 
have not reached the state in our studies to be able to provide such 
detailed information. Information of this nature would be part of the 
outcome from the five year technology development program planned for 
the future.
    Choices for the three major building blocks are based on the 
following information. The subcritical burner uses liquid LBE and is 
based on solid fuels and extensive Russian nuclear reactor work with 
liquid LBE. The pyrochemical processes are based on significant work at 
ANL and LANL on efficient processes that have the potential for 
proliferation resistance and low environmental impact. The linear 
accelerator is based on work underway within the USA for an Accelerator 
Production of Tritium (APT) accelerator (170 MW of continuous beam 
power), and the innovations and developments achieved earlier under the 
Strategic Defense Initiative (SDI) ion beam programs. These three 
recent developments have revolutionized the ATW capabilities and have 
made it possible to consider significant advantages for an ATW-assisted 
repository.
    ATW assists waste disposal options by transmuting waste. The 
process starts by accelerating protons to about 1 GeV in an efficient 
linear accelerator. Accelerator economic studies using real hardware 
costs have shown that 1 GeV is an optimum energy for this application, 
within a rather large minimum cost band. These energetic protons 
produce copious neutrons from the spallation process when they impinge 
on a high atomic number spallation target. At the proton beam energies 
and LBE target of interest, each proton produces about 30 neutrons. 
Having this source of neutrons allows an ATW system to operate sub-
critical and thereby assist the nuclear system in transmuting 
transuranics by causing them to fission, and transmuting fission 
products (mainly Tc and I) by neutron absorption to other isotopes. 
Subcriticality and pyrochemistry enable the destruction of actinides 
and fission products safely, without isolation of weapons-grade 
material, without extensive separations and in a single-purpose device. 
Aspects of handling and transportation are minimized by having most of 
the activities completed at the ATW site. The proton beam impinges on a 
liquid LBE target that is also the coolant for the nuclear system 
consisting of transmutation solid fuel assemblies. The choice of liquid 
LBE for the target and coolant is based on the more than 75 reactor 
years of experience in Russia for liquid LBE-based nuclear reactors 
that were mainly used for their ``Alpha-class'' submarines. The solid 
fuel assemblies are made from first decladding spent fuel and then 
performing several stages of pyrochemistry involving direct oxide 
reduction, electrorefining and electrowinning of the materials. Fuel 
assemblies are then fabricated from the material coming from the 
electrowinning process and from the Zr that was declad from the spent 
fuel.
    Transmutation assemblies spend about a year within the 
transmutation burner core, being shuffled between the three zones of 
the core during this period. After this shuffling cycle is completed, 
the rods are allowed to ``cool'' and then go through a similar process 
as for the spent fuel to provide separations and material streams that 
eventually lead to a reduction of three orders of magnitude in the 
transuranics that would be put into a repository.
    Operational parameters for the liquid LBE coolant (340  deg.C inlet 
and 540  deg.C outlet with 400  deg.C to the steam generator) permit 
efficient conversion of heat to electrical power. About 10 percent of 
the power generated would be fed back to the accelerator to provide the 
necessary power to operate it and its ancillaries.

                     REPOSITORY ENHANCING SCENARIO

    A scenario has been developed using information available at this 
time for the performance of the ATW system described in this paper. 
This scenario is based on the 70,000 tons of reactor spent fuel 
expected to be accumulated within the USA by the year 2015. Assuming 
that this material should be transmuted within a reasonable time-frame 
and that the number of ATW systems shouldn't be too complex or costly, 
the following attributes are possible. No optimization of the 
transmutation complex has been completed, nor has any inference been 
made about continuing ATW-type systems after the campaign--this 
scenario is provided only to give an indication of possibilities that 
can be accrued. Over a 65 year period it is possible to convert the 
70,000 tons of reactor spent fuel (with 600 tons of transuranics) to:
  --67,000 tons of uranium (could be considered as LLW (Low Level 
        Waste)--radioactivity of natural U) which would be a small 
        addition to the present LLW uranium.
  --Less than 0.3 tons of transuranics.
  --3,000 tons of fission products (with minimal Tc and I).
  --560 GWe-year of electricity generation assuming an overall 35 
        percent plant efficiency (including thermal conversion). Even 
        at 20 mils per kW/hr this represents a sizable return on the 
        investment--about $100 Billion over the 65 years.
  --No significant Pu or Np.
    Because of this conversion only about 3,000 tons of material needs 
to be transferred to the repository (a reduction of a factor of 20 from 
the initial 70,000 tons), a situation that seriously impacts the needs 
for additional repositories in the future. This impact is realized 
because the repository storage efficiency is improved by the 
transmutation process, by the types of materials to be stored, and by 
the changes in the heat load and radiotoxicity--all leading to 
decreased long-term risks.
    The 65 year scenario involves the commissioning and installation of 
twenty 2,000 MWt transmutation burners, staggered over a 25-year period 
and each with a 40-year lifetime, such that the transmutation campaign 
ends after 65 years. This scenario could be realized by utilizing three 
locations with seven transmutation burners at each of the locations, 
with only one location functional for the last ten years of the 
campaign. A very rough investment cost of this three location scenario 
for the 25 years is in the ``ball park'' of $60 B with average 
operating costs ``guesstimated'' at $2 B per year. Much work needs to 
be done to refine these ``ball park'' numbers and their implications.

                           TECHNOLOGY CHOICES

    As stated above, the three major choices for the accelerator, 
subcritical assembly and the chemical processing were made on the basis 
of recent technology developments and information releases, all of 
which make the ATW system a very interesting option to be considered 
for assisting repositories in the future. Development work is still 
needed to bring this technological application to a state of maturity 
such that reasonable decisions could be made on whether this option 
should be pursued further.

Chemistry And Fuels
    Based on significant work at ANL and at LANL in pyrochemical 
processing and because of difficulties encountered with waste streams 
from aqueous processing, pyrochemistry was chosen as the appropriate 
method for processing reactor spent fuel and the transmutation 
assemblies. Some of the pyrochemical processes are interpolations of 
systems that have been demonstrated, whereas the majority involve 
extrapolations which appear to be within reasonable bounds. Although 
within reasonable bounds, they still need to be demonstrated on a 
larger scale than at present. This is part of the five year development 
program planned for the future. We are using process models and 
simulations that have been verified with data from systems that have 
operated at ANL and LANL.
    The pyrochemical process is considered to be proliferation 
resistant because the transuranics are separated as a group to be 
transmuted within an ATW burner. At no time are weapons-grade materials 
made available during the processing. Obviously, international controls 
will have to be employed to ensure that chemical processes are not 
altered in a significant manner.
    Figure 1 shows a chemical processing flow chart for reactor spent 
fuel on the left and transmutation assemblies on the right. Within the 
processes, secondary wastes are minimized and waste materials destined 
for the repository are segregated in a manner that assists preparations 
necessary prior to repository transport.

[GRAPHIC] [TIFF OMITTED] TSPEC.003

    The spent fuel decladding process provides the feed material for 
the direct oxide reduction process. Zr from the cladding is used as 
feed material for fabrication of transmutation assemblies. Within the 
oxide reduction process, Sr and Cs are left in the molten salt, oxide 
fuel is converted to a metal for further treatment and offgasses are 
collected as in the decladding process. Electrorefining accomplishes 
uranium separation in a manner to ensure no other actinides are 
transferred with it. Electrowinning provides the feed material for 
fabrication of the transmutation assemblies. A reductive extraction 
process is used to remove the rare earths from the molten salt. At 
most, three plants would be required to accommodate the 65 year 
transmutation scenario described above and each of these could fit 
within a 5,000 square foot building.
    In a similar manner, the spent transmutation assembly chopping 
provides the feed material for the electrorefining process. Here the 
electrorefining process separates the U, transuranics and the fission 
products. These processes could fit within the building mentioned 
above.
    The high melting point transmutation assemblies consist of non-
fertile actinides (15 percent) and Zr (85 percent) with 316 SS 
cladding, and are compatible with the pyrochemical processes mentioned 
above. There are many issues that need to be addressed for the 
assemblies including swelling, bonding compatibility, and other 
irradiation effects.

 Liquid Metal Coolant
    Using the same fluid for the spallation target as well as the core 
coolant results in many improvements including elimination of a target 
cooling system and associated mechanical assemblies. Liquid LBE is an 
excellent spallation source because of the high atomic number, very 
``hard'' neutron spectrum generated and very low neutron absorption.
    Russian advances in the use of liquid LBE for nuclear reactor 
cooling showed the importance of oxygen control, and the 
instrumentation for monitoring oxygen to the levels required has been 
developed by them. Liquid LBE is an excellent coolant for this 
application, as well as for future fast reactors, because liquid LBE 
has the following properties: Maintains the ``hard'' neutron spectrum; 
has a very low neutron absorption, which can lead to core design 
improvements; is a very effective radiation shield for the outer walls; 
has the potential to enhance natural convection; has no violent 
reactions with water or air; has low melting and high boiling 
temperatures; and has a potential for self-plugging leaks.
Accelerator
    Using a high power proton accelerator to drive a subcritical 
assembly enables effective nuclear waste disposal. The accelerator-
produced spallation neutrons allow much flexibility for a system that 
needs to handle many types of nuclear waste forms. This frees the 
designer to concentrate on advantages for the transmutation core 
without invoking constraints that could lead to specific designs for 
specific spent fuel assemblies or severely constrain end-of-life 
inventory burn down. Advantages for a subcritical system include the 
following:
  --Power control is linked to accelerator drive, not to control rods, 
        reactivity feedback and delayed neutrons.
  --Fertile materials are not needed for the core. Pure transuranic 
        cores ensure a minimum of further transuranic production.
  --The burner operates independent of fuel composition to first order.
  --End-of-life inventory is not limited by criticality criteria.
  --Neutronics and thermohydraulics are effectively decoupled.
    Design for the ATW accelerator driver invokes a number of design 
constraints including high conversion efficiency of electrical power to 
beam power, current variable by a factor of two, extremely low beam 
loss, minimal length, minimal operating and capital costs, and high 
availability and reliability. Maximum proton beam power required for 
each 2,000 MWt burner is 40 MW at 1 GeV.
    The accelerator design constraints have led to selection of a 
modest linac, 355 m in length, which employs superconducting structures 
to accelerate the proton beam from 21 to 1,000 MeV. The ``front-end'' 
employs conventional room-temperature structures and injectors for 
which all of the necessary performance characteristics will have been 
demonstrated when the ``front-end'' Low Energy Demonstration 
Accelerator (LEDA) operates with proton beam before CY 1999 as part of 
the APT program. Work on the ``spoke'' cavities employed for 
acceleration from 21 to 100 MeV will be required as part of the five 
year development program. Table 1 lists the parameters for the linear 
accelerator. Combining benefits of room-temperature and superconducting 
technology exploits the advantages of both systems for the maximum 
benefit of the ``driver''. Room-temperature technology is employed to 
21 MeV in order to provide excellent emittance control and minimize 
halo generation. After this, superconducting technology is employed to 
minimize rf cavity losses, provide large beam apertures, reduce 
accelerator length, and provide flexibility for rf phasing, error 
tolerances and beam current variations.

                           Table 1.--Accelerator Parameters for 1 GEV ATW Proton Linac
Injector.................................................  0.075 MeV
RFQ......................................................  0.075 MeV-6.7 MeV
CCDTL....................................................  6.7 MeV-21.2 MeV
S/C Spoke Cavities.......................................  21.2 MeV-100 MeV
S/C Elliptical Cavities..................................  100 MeV-1,000 MeV
Maximum Gradient.........................................  4.4 MV/m
S/C Cryomodules..........................................  5/26
Cryoplant Load...........................................  15 kW
Maximum Beam Power.......................................  40 MW
Total RF Power...........................................  42.3 MW
Linac AC Power...........................................  95 MW
Peak Coupler Power.......................................  200 kW
1 MW Klystrons...........................................  3-350 MHz/53-700 MHz
Aperture Radius..........................................  1/4/7.5 cm
Focusing Lattice.........................................  FODO
Room Temperature Quadrupoles.............................  210
Superconducting (S/C) Quadrupoles........................  165

Nuclear System
    A schematic for a 2,000 MWt nuclear transmutation burner is shown 
in Figure 2. The proton beam impinges on the liquid LBE (44.5 percent 
Pb/55.5 percent Bi) from the top with the transmutation area consisting 
of transmutation assemblies surrounding this target area. Liquid LBE 
cools the burner with pumps and heat exchangers co-located in the 
nuclear system. LMR experience is used in the design of the nuclear 
system incorporating hexagonal canned assemblies. The core is about 3 m 
in diameter and 2 m in height fitting into a nuclear system with an 
overall diameter of 10 m and an overall height of about 17 m. Maximum 
keff is 0.967 and maximum power density is 0.34 MW/1. A three zone 
concept is envisioned with fuel assemblies being moved from the outer 
zone to the center and then to the inner zone during burnup fuel cycle 
changes.

[GRAPHIC] [TIFF OMITTED] TSPEC.004

ATW Development Program
    With industrial input, a five year development plan has been 
determined that will provide the technical support for large-scale 
integration and deployment of ATW technologies. This $115 M program 
over five years focuses on issues of importance to enable a logical 
decision to be made at the end of the five year development program as 
to whether a further five year program should be pursued. This second 
five year program would focus on construction and operation of a 5 MW 
Subcritical Test Facility to be driven by a 1 MW proton beam, design of 
an ATW Processing Facility geared toward full scale pyrochemical 
processing and design of a 1,000 MWt Demonstration Plant that could be 
located at some strategic location.
    The first five year program plan focuses on materials verification 
studies and experiments, liquid LBE performance verification including 
spallation product measurements, nuclear design, chemical database, 
chemical processes at up to 10 kg scale, mass flows, accelerator 
design, system studies and some design work to determine 
characteristics necessary for a future Demonstration Facility.

                             COLLABORATIONS

    Considerable interest in ATW has developed within laboratories, 
institutions and industries around the world, not only because of ATW 
but because of technologies spinning-off from this program which have 
many other applications. Within the USA we have formed a team 
consisting of LANL, LLNL, Sandia, Savannah River, Bechtel, Northrup-
Grumman, Westinghouse-STC, UC-Berkeley and U. Illinois. Funds to this 
point have been forthcoming from each institution participating, with 
LANL recently investing $1.7 M for each of the three years ending in 
1999.
    A common technical approach has emerged within the international 
community and this common approach has assisted collaborations in a 
significant manner. Europe and Asia are investing considerable amounts 
of manpower and money in order to put ATW technology on a firmer 
foundation than at present. Within Europe, countries including the 
Czech Republic, France, Italy, Spain and Sweden have shown considerable 
interest and within Asia, S. Korea and Japan have started 
investigations. Collaborations exist between Russia, CERN, CEA, KAERI, 
Sweden and the USA team.

                        CONCLUSIONS AND SUMMARY

    An ATW system could assist a repository by enhancing its 
capability. An ATW-assisted repository has many other worthwhile 
features that need to be investigated in more detail. Work on 
repository solutions should not be stopped. However, options that could 
make a repository even better in the future should be investigated to 
the point that logical decisions based on complete information can be 
made. For this reason it is suggested that a five year development 
program should be vigorously pursued. Enough information is available 
at this time to indicate that there are no known ``show-stoppers''. 
Some development work will lead to further technology selections, but 
this does not appear to indicate that ATW is not possible, nor that it 
isn't within the economic ``ball park''.
    The major components of an ATW system are based on proven 
technology or on those that will be demonstrated very soon by other 
programs. Performance drivers that have been used in determining the 
present ATW system are safety, proliferation resistance, low 
environmental impact, fast burn rates and low inventories. All of these 
goals are met in the system described above.
    A logical path has been shown for developing an ATW system with 
opportunities to make future decisions for continuing or stopping.

                            ACKNOWLEDGMENTS

    Many people have been working in the ATW area for the past ten 
years and they have made significant contributions to the needed 
technology base and understanding. Their legacy will allow others in 
the future to build on this strong base--one that is well documented 
with many international connections. This program is truly an 
international effort and one that requires international collaborations 
to succeed. Resources from the many laboratories, institutions, 
universities and industries around the world have played an important 
role in advancing the technology to the point that it makes sense to 
take the next steps requiring modest government funding. It is 
difficult to acknowledge everyone who has had an impact on making this 
ATW option more visible within the world community. However I'd like to 
express my grateful appreciation to Carlo Rubbia, Massimo Salvatores, 
Yuri Orlov, Waclow Gudowski, Curt Miliekowski, Vladimir Kazaritsky, and 
Edward Arthur for their foresight and willingness to push hard against 
what appeared to be ``closed'' doors. We have come a long way on this 
ATW journey and many new individuals have joined the throng. Although 
we are of differing opinions, Charlie Bowman needs to be singled out 
because he has had a significant influence on the program and the 
understanding of the technology choices.
    Within the USA, I am particularly indebted to the ATW team led very 
ably by Francesco Venneri. This team has put together the promising 
technology and a system that has many exciting attributes. I am 
grateful for contributions from members of that team: Mark Williamson 
(chemistry), Ning Li (LBE), Mario Carelli (nuclear system), Mike Houts 
(nuclear design), George Lawrence (accelerator), Tim Myers, Tom 
Wangler, Keith Woloshun, Valentina Tscharnotskaia, Michael Bjomberg, 
Joey Donahue, Steve Wender and Ann Schake. Others that I would like to 
thank are Sam Harkness, Bob Taussig, Mike Kreisler, Arthur Kermin, Pete 
Lyons, Nestor Ortiz, Pete Miller, Tony Favale, Reed Jensen, Rulon 
Linford, John Ireland, Mike Cappiello, Edward Heighway, Bill Bishop, 
Greg VanTuyle, Paul Lisowski and John Browne for recognizing the many 
implications of this program.

    Senator Domenici. Thank you very much.
    Senator Stevens, I might say that one of the reasons this 
now appears feasible, whereas it was not so feasible in prior 
years, is that the idea of the accelerator is an American one, 
but we always had trouble with what kind of a reactor would you 
use. And the Russians have submitted a subcritical lead bismuth 
reactor. Subcritical, if you understand what that means, it is 
very important.
    And it is around those concepts that they are building this 
possibility, which 5 or 6 years ago they could not have done.
    Dr. Schriber. That is right.
    Senator Domenici. Let us proceed now.
    Mr. Blue.


STATEMENT OF LINDEN BLUE, VICE CHAIRMAN, GENERAL 
            ATOMICS
    Mr. Blue. Mr. Chairman, Senator Stevens, just a little over 
12 years ago my brother and I bought General Atomics. And we 
did it voluntarily. You can say that the last 12 years have not 
been great years for nuclear energy. But I have to say that in 
spite of the fact that that decision was made 12 years ago, we 
would do it again today, and, in fact, we would do it much more 
adamantly than we did then for two basic reasons.
    First of all, we believe strongly in the importance of 
nuclear energy for abundant energy without environmental 
effects. We still do. And as this hearing has bore out, you 
almost cannot get to the future with a proper environment 
without nuclear energy. The second reason was that we believe 
strongly that nuclear energy could be done better; that science 
was making advances that would make it even better than it has 
been in the past 40 years or so.
    And, very interestingly, 40 years ago, when General Atomics 
was founded, the likes of Freeman Dyson and Edward Teller were 
gathered around very similarly to probably the conferences they 
have had at MIT, and they sort of took an empirical look at it, 
and they said, well, how should nuclear energy be done 
properly? And they had many of the criterion that Mr. Smith 
suggested. And they said, and then, sometime far in the future, 
we will be able to hook it to a gas turbine and then get the 
ultimate in efficiency. And essentially that is what Mr. Smith 
and the people at MIT are concluding now, that the time is 
right.
    Well, we at General Atomics saw a fundamental capacity in 
the gas reactor for changing the safety equation. And by so 
doing, you also can change the economics equation, because you 
can save the efficiency. And when you drive up efficiency, you 
dramatically reduce waste and proliferation.
    And I would like to just show you how basically and 
fundamentally we think that the safety equation can be changed.
    Mark, if you would just turn that one around. [Chart.]
    In order to get the kind of safety that Mr. Smith was 
describing, you really should have no possibility of a 
meltdown. And it is simple. You have to have a low-power 
density. It has to be combined with proper geometry. And you 
must have fuel that is tolerant of high temperatures. And that 
is ceramic fuel.
    And if you put those three things together you are not 
going to have enough decay heat to have a meltdown. And that is 
what MIT is after, and I believe what they should be after. It 
is very basic; it is very simple. And people are going to say, 
well, why hasn't it been done before? The short answer is that 
because the reactors that have served the world so well these 
past 4 years, most of it came out of submarine technology, 
where space was at an absolute premium and power density was 
terribly important.
    Well, as good as those reactors have been, it is time to 
move on, time to have low-power density cores that are tolerant 
of the high temperatures and with fuel that can increase the 
efficiency.
    Now, on the efficiency side it is fundamental that you must 
increase temperatures. And ceramic fuel is tolerant and makes 
an increase of temperatures possible. And when you combine the 
increase of temperatures with a gas turbine, you come up with 
much higher efficiency.
    And, Mark, would you show the next one, please. [Chart.]
    The first generation water reactors have been up in the 33 
percent thermal efficiency range, and we are clearly going to 
get above 47. And that assumes operating temperatures of 850 
degrees centigrade. And the Japanese will next month go 
critical on their test reactor that will move up to 950. When 
you get to 950, efficiencies up in the mid-50's are clearly 
indicated.
    Senator Domenici. What does the efficiency mean in this 
context?
    Mr. Blue. Thermal efficiency essentially drives everything 
else. The amount of energy you get from a given number of 
fissions in the amount of heat generated. And when you drive up 
that efficiency, all good things happen, particularly in the 
waste arena.
    So, again, MIT is on the right track here. You want the 
higher temperatures, and you want the gas turbines. [Chart.]
    And this graph shows it pretty basically. If you start with 
24 megawatt hours of electricity in both cases, both for a 
lightwater reactor on the top and a gas reactor on the bottom, 
you essentially need 3 grams of fissionable material in the 
lightwater and 2 in the gas reactor. And you get the result, 
out to the right, where you have twice as much reject heat with 
the lightwater reactor, you have 50 percent more high-level 
waste and you have four times as much plutonium 239, which was 
the bad weapon stuff.
    So, to summarize, may I have the next one? [Chart.]
    As Dyson and Teller, and now MIT, have concluded, if you 
start with the right basis, if you start with helium as a 
coolant, you get away from stress corrosion, the Achilles heel, 
if you will, of first-generation nuclear. If you use ceramics, 
you can have the higher temperatures and, therefore, the higher 
efficiencies and a much better waste picture. You can get to 
the ultimate in safety, which is no meltdown. And, finally, 
with the modularity that Mr. Smith is talking about and the 
simplicity, you get to the lowest possible capital costs. And 
that means low-cost electricity. And that is where I think we 
ought to be going.
    [The statement follows:]

                   Prepared Statement of Linden Blue

    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me this opportunity to discuss the Gas Turbine-Modular Helium 
Reactor (GT-MHR). The GT-MHR represents a major technical breakthrough 
in power production that addresses several important issues affecting 
nuclear power: it is almost 50 percent more efficient than first 
generation reactors, produces about 50 percent less waste and 
essentially eliminates the potential for melt down. In addition, it has 
some distinct advantages for destroying WPu.
    During the last few years, development of the GT-MHR has been 
sponsored under a joint venture between General Atomics (GA) of San 
Diego and the Ministry of Atomic Energy (MINATOM) of Russia. Framatome 
and Fuji Electric are also participants. Prior to this, the U.S. 
Government invested about $1 billion in the technology over a period of 
many years.
    The GT-MHR, the only second generation nuclear reactor currently 
under active development, takes advantage of four recent, and very 
significant, technical advancements. We are also positioned to take 
advantage of the historic opportunity to complete this technology in 
Russia at a very low cost. Cost for completion of the detailed design 
will run about $240 million--about one quarter the cost of completing 
the design in the U.S. Russia has agreed to match all design funds 
coming to Russia. The first operating unit would have the additional 
benefit of destroying Russian weapons grade plutonium (WPu) by using it 
as its fuel. Indeed, at the Vancouver summit, President Yeltsin 
requested that the U.S. share this energy technology to enhance 
Russia's conversion from weapons production.
    GA and Russian scientists and engineers have been working together 
in this project for three years. This partnership is a natural 
extension of nearly forty years of joint GA and Russian cooperation on 
nuclear fusion research and development.
    Mr. Chairman, I will briefly describe some of the characteristics 
of the GT-MHR and some related issues.
    Market.--Electricity is the fastest growing segment of the energy 
market: it is portable, flexible, low cost and environmentally benign. 
However, when it is generated by burning hydrocarbons, it has adverse 
environmental effects. Nuclear power has the potential for eliminating 
adverse environmental effects if reactors are meltdown proof and waste 
is reduced and properly handled. The world market for electricity 
generating plants is estimated at $100 billion per year. GT-MHR 
represents an excellent new technology for fulfilling world energy 
requirements at low cost, without environmental degradation.
    Technology.--The GA developed GT-MHR is the culmination of 40 years 
and $6 billion of R&D world wide. The four enabling technologies 
combined in the GT-MHR are the modular helium reactor, high performance 
gas turbines, highly effective recuperators and magnetic bearings. All 
of these technologies are state of the art now in other applications. 
They were not available a few years ago.
    Safety.--GT-MHR is the only reactor design that is melt down proof. 
It is melt down proof because its power density is 20 times less than 
current reactors. The reactor power density and geometry mean that 
there is simply not enough energy density to raise reactor temperatures 
to the point which would melt its high temperature ceramic fuel.
    Efficiency.--High temperature helium gas goes directly from the 
reactor to a gas turbine which directly drives an electric generator. 
The laws of physics mandate that higher gas temperatures mean more 
efficient energy conversion. Helium direct drive is also more 
efficient, allows utilization of higher temperatures and eliminates 
costly equipment. The result is thermal efficiency of 47 percent which 
is about 50 percent greater than other reactors. Future GT-MHR's will 
allow efficiencies of close to 60 percent. The GT-MHR opens the door to 
quantum efficiency improvements for nuclear energy.
    Environment.--Higher efficiencies mean less thermal discharge to 
the environment, less high level waste. The GT-MHR will produce 50 
percent more electricity for a given amount of thermal discharge and 
waste creation.
    Proliferation.--The GT-MHR is the most proliferation resistant 
reactor design. It's fuel is engineered to achieve high burn up in a 
once through fuel cycle. This means no reprocessing. Because of the 
high burn up, its waste fuel is extremely low in plutonium 239 (4 times 
lower than other reactors). It would be virtually unusable for weapons 
production.
    Cost.--50 percent greater efficiency assures substantially lower 
costs of electricity. After learning curve effects, a plant should cost 
less than $1,000 per KWe and produce electricity for 2.1 cents/KWh. 
Also, GT-MHR is intended to be factory built in modules with factory 
cost and quality control. Electricity capacity can be added in 
digestible bites of about 285 MWe as electricity demand increases.
    Modularity.--The ability to add electricity generation capacity in 
modules of 285 MWe allows more conservative capacity planning, reduces 
developmental carrying costs, allows more flexibility in maintenance 
schedules, reduces backup power requirements, is adaptable to areas 
where power grids have low capacities, allows better distribution of 
generation capacity, and reduces transmission losses in low demand 
power markets.
    WPu destruction.--GT-MHR uses 100 percent Pu fuel compared to 5 
percent Pu in MOX fuel. This means MOX fuel requires something like 
twenty times more fuel manufacturing throughput to dispose of an equal 
amount of WPu. Starting with the same amount of WPu, the residual Pu-
239 in once-through MOX spent fuel would be five times greater than in 
GT-MHR spent fuel. A plant suitable for production of Pu particle fuel 
has been estimated to cost $50 million. This is about one-tenth the 
cost of a MOX plant processing the same amount of WPu. It would be 
possible to convert WPu to GT-MHR particle fuel on whatever schedule 
was expedient. Once converted to particle fuel, it would be 
substantially proliferation resistant and can be stored for later use 
in GT-MHR's.
    Technical Challenges.--Further fuel tests must be run to prove the 
fuel for the GT-MHR has characteristics similar to fuels used 
successfully at the Peach Bottom, Fort St. Vrain, AVR, and THTR 
reactors rather than the fuel proposed for the NPR which had an 
inherent design flaw. Design confirmation testing must be done on 
recuperators, seals, and magnetic bearings. The power conversion module 
is large and complex and will experience substantial thermal growth 
during its heat up. All of the systems must be proven to work together.
    Balance of Payments and International Ramifications.--The U.S. 
currently burns about $1 billion per week in imported oil. This is by 
far our largest import and accounts for about half of our entire 
balance of payments deficit. Installed in the U.S., GT-MHR will reduce 
U.S. reliance on foreign oil. Installed in Russia, it will free up 
natural gas supplies to earn foreign currency and create a new export 
industry.
    Attached are some additional details on the issues discussed above.

               GT-MHR: TECHNOLOGY BACKGROUND AND OVERVIEW

    The GT-MHR plant design has evolved from the experience of 
operating more than 50 gas cooled nuclear reactors worldwide and recent 
technological advances in fossil-fired Brayton (gas turbine) cycle 
systems.
    Five helium cooled reactors, which operated in the 1960's, 1970's, 
and 1980's demonstrated the inherent characteristics of helium cooled 
reactors. In the 1980's, modular helium reactor (MHR) designs were 
developed, both in Germany and in the U.S. in response to the general 
public's safety concerns. These designs had inherent passive 
characteristics for meeting stringent safety goals without relying on 
active safety systems or operator action. The major drawback of these 
passively safe designs, which employed the Rankine power conversion 
cycle, was they were evaluated to be non-competitive economically.
    By the early 1990's, because of advances in industrial gas turbine 
technology, highly effective recuperators and related equipment, the 
potential emerged for coupling the unique high temperature capability 
of an MHR with a gas turbine in a closed Brayton cycle for the 
achievement of high efficiency and competitive economics.
    The GT-MHR couples an MHR, contained in one vessel, with a high 
efficiency gas turbine energy conversion system contained in an 
adjacent vessel. The reactor and power conversion vessels are 
interconnected with a short cross-vessel and are located below grade in 
a cylindrical silo.
    The MHR employs a graphite moderator and TRISO-coated particle 
fuel. TRISO fuel contains a spherical kernel of fissile or fertile 
material, as appropriate for the application, encapsulated in multiple 
coating layers. A low-density carbon (buffer) layer surrounds the 
kernel to attenuate fission recoil atoms and provide void volume to 
accommodate fission gases. Surrounding the buffer is an inner 
pyrocarbon coating (IPyC), a silicon carbide (SiC) layer, and an outer 
pyrocarbon coating (OPyC). The IPyC, SiC, and OPyC layers together form 
a miniature, highly corrosion resistant pressure vessel and an 
essentially impermeable barrier to the release of gaseous and metallic 
fission products. Extensive tests in the U.S., Europe, and Japan have 
proven the excellent performance characteristics of this fuel.
    The overall diameter of standard TRISO-coated particles varies from 
about 650 microns to about 850 microns. For the MHR, TRISO-coated 
particles are bonded with a graphitic matrix to form cylindrical fuel 
compacts approximately 13 mm in diameter and 51 mm long. Approximately 
3,000 fuel compacts are loaded into a hexagonal graphite fuel element, 
793 mm long by 360 mm across flats. This is the same type of fuel 
element which showed excellent performance at Fort St. Vrain. One 
hundred and two columns of the hexagonal fuel elements are stacked 10 
elements high to form an annular core. Reflector graphite blocks are 
provided inside and outside of the core.
    TRISO-coated particle fuel remains stable to very high 
temperatures. The coatings do not start to thermally degrade until 
temperatures approaching 2000  deg.C are reached. Normal operating 
temperatures do not exceed about 1250  deg.C and worst case accident 
temperatures are maintained below 1600  deg.C.
    Helium, heated in the reactor, expands through a gas turbine to 
generate electricity. From the turbine exhaust, the helium flows 
through the hot side of a recuperator transferring residual heat energy 
to helium on the recuperator cold side which is returning to the 
reactor. From the recuperator, the helium flows through a precooler 
where it is further cooled. The cooled helium then passes through low 
and high-pressure compressors with intercooling. From the compressor 
outlet, the helium flows through the cold, high-pressure side of the 
recuperator where it is heated for return to the reactor.
    The gas turbine power conversion system has been made possible by 
four key technology developments during the past decade in: large 
aircraft and industrial gas turbines; large active magnetic bearings; 
compact, highly effective plate-fin heat exchangers; and high strength, 
high temperature steel alloy vessels. Demonstrated gas turbine 
technology is available for turbines with power ratings that match the 
requirements of the passively safe modular helium reactor. Indeed, the 
high pressure (and density) helium working fluid actually provides 
higher output (i.e., the GT-MHR gas turbine is actually smaller) than 
an equivalently rated fossil fired gas turbine. The gas turbine system 
eliminates extensive and expensive equipment required for the century-
old Rankine steam cycle technology used by other nuclear power plants 
for conversion of thermal energy to electrical power.
    Not only does the elimination of steam plant equipment reduce 
capital and operating costs, but also the plant efficiency is markedly 
increased. The GT-MHR achieves a net thermal conversion efficiency of 
approximately 47 percent as compared to current nuclear plants that 
have efficiencies of about 33 percent.
    GT-MHR advantages include:
    Unique Reactor Safety.--The GT-MHR is meltdown-proof and passively 
safe. The overall level of plant safety is unique among nuclear reactor 
technologies. This is achieved through a combination of inherent safety 
characteristics and design selections that take maximum advantage of 
these characteristics. These design selections and features include: 
(1) helium coolant, which is single phase, inert, and has no reactivity 
effects; (2) graphite core, which provides high heat capacity and slow 
thermal response, and structural stability at very high temperatures; 
(3) refractory coated particle fuel, which allows extremely high burnup 
and retains fission products at temperatures much higher than normal 
operation; (4) negative temperature coefficient of reactivity, which 
inherently shuts down the core above normal operating temperatures; and 
(5) an annular, 600 MWt low power density core in an uninsulated steel 
reactor vessel surrounded by a reactor cavity cooling system. Power 
level and geometry together enable passive heat transfer from the core 
to the ultimate heat sink while maintaining fuel temperatures below 
damage limits. These safety design features result in a reactor that 
can withstand loss of coolant circulation or even loss of coolant 
inventory and maintain fuel temperatures below damage limits (i.e., the 
system is meltdown proof).
    High Plant Efficiency.--Use of the Brayton Cycle helium gas turbine 
in the GT-MHR provides electric generating capacity at a net plant 
efficiency of about 47 percent, a level that can be obtained by no 
other nuclear reactor technology. This high plant efficiency results in 
low power generation costs. The high efficiency also results in 
significantly less thermal discharge to the environment, than other 
reactor technologies, and significantly lower waste generation per unit 
electricity produced.
    GT-MHR Fuel Cycle.--Per GWe-Yr, the GT-MHR requires more U3O8 but 
achieves 2.5 times the burnup of the comparable PWR. The GT-MHR thermal 
discharge is about 50 percent less and the actinide production is about 
60 percent less per unit electricity produced.
    Superior High Level Waste Form.--Coated particle fuel provides a 
superior spent fuel waste form for both long-term interim storage and 
permanent geologic disposal. The refractory coatings retain their 
integrity in a repository environment for hundreds of thousands of 
years. As such, they provide defense-in-depth to ensure that the spent 
fuel radionuclides are contained for geologic time frames and do not 
migrate to the biosphere.
    Effective Plutonium Destruction.--For the disposition of weapons 
grade plutonium (WPu), the GT-MHR provides the capability to consume 
more than 90 percent of the initially charged plutonium-239 and more 
than 65 percent of the initially charged total plutonium in a single 
pass through the reactor. The performance of plutonium coated particles 
to burnup levels of 750,000 MWd/MT has been demonstrated by irradiation 
tests in the Dragon and Peach Bottom 1 gas cooled reactors. The level 
of plutonium destruction is well beyond that achieved by other WPu 
disposition alternatives. By achieving this high level of plutonium 
destruction, the GT-MHR extracts a substantially higher portion of the 
useful energy content from the material than other reactor options 
without reprocessing and recycle. Because the plutonium fueled GT-MHR 
uses no fertile fuel material, all fissions in the core are plutonium 
fissions, and no new plutonium is produced by the operation of the 
reactor. Comparable results would apply to the utilization of reactor 
grade plutonium.
    Diversion/Proliferation Resistance.--The GT-MHR is particularly 
well suited for international deployment for plutonium disposition. 
Both the fresh fuel and the spent fuel discharged from the GT-MHR have 
higher resistance to diversion and proliferation than other reactor 
options for plutonium disposition. The plutonium content of the fresh 
fuel is very diluted within the fuel element graphite. In addition to 
having the self-protecting characteristics of other spent fuel (high 
radiation fields and spent fuel mass and volume), the amount of 
plutonium per GT-MHR spent fuel element is very low and there is 
neither a developed process nor capability anywhere in the world for 
separating the residual plutonium from GT-MHR spent fuel. Furthermore, 
the discharged plutonium isotopic mixture is severely degraded (well 
beyond light water reactor spent fuel) making it particularly 
unattractive for use in weapons.

                              CONCLUSIONS

    The GT-MHR represents a second-generation, meltdown proof, nuclear 
power solution.
  --The GT-MHR is the best nuclear energy source for the next century. 
        The design addresses many of the current concerns with nuclear 
        power with regard to safety, economics, proliferation 
        resistance, and high level waste disposal.
  --The GT-MHR is highly attractive for the disposition of weapons 
        plutonium. High levels of plutonium destruction are achieved, a 
        high portion of the useful energy content from the material is 
        obtained without reprocessing and recycle, and the fuel is 
        highly diversion and proliferation resistant.
  --The GT-MHR small modular size coupled with its safety, economic, 
        environmental, and proliferation resistant characteristics make 
        the GT-MHR an ideal system for responsibly meeting the 
        burgeoning electricity demand in developing countries. The GT-
        MHR's passive safety characteristics reduce the need for a 
        developing country to have an elaborate nuclear infrastructure.
  --An international team is actively working on the design to (1) 
        complete the deployment of a prototype in Russia, with an 
        initial mission of plutonium disposition, and (2) marketing 
        uranium fueled GT-MHR plants to the world for electricity 
        generation.
  --Technical issues are solvable.
  --Support of the U.S. Government will accelerate completion of the 
        project and early destruction of Wpu.


STATEMENT OF CHARLES E. TILL, PH.D., ASSOCIATE 
            LABORATORY DIRECTOR (RETIRED), ARGONNE 
            NATIONAL LABORATORY
    Senator Domenici. Thank you very much.
    Dr. Till.
    Dr. Till. Thank you, Mr. Chairman, Senator Stevens, for 
having me here today. I am Charles Till.
    For 17 years, until January 1 of this year, I directed the 
reactor development program at Argonne. And, with my 
colleagues--in particular, my successor, Dr. Chang--I was the 
initiator of the IFR concept at Argonne and was responsible for 
its development. So, when I was asked by your very competent 
staff to talk about the IFR today, it should not be expected, 
although I will try to be as neutral as I can, it should not be 
expected I will say unkind things about it. Where opinion slips 
in, it is my own.
    The what, where, why of the IFR: First, the what. What was 
the IFR? The IFR is the integral fast reactor. It is a type of 
reactor, an advanced reactor concept is actually a whole 
reactor system--the reactor, the fuel, the new reprocessing 
scheme, and the new waste form, the whole entity, for a 
complete reactor system--that has a range of unusual and 
valuable characteristics. It was invented at Argonne in 1983.
    It saw intensive development from 1984 through 1994. It was 
a program funded at about $100 million a year, including the 
operation of the necessary facilities. And it was terminated, 
incomplete, in 1994, following the President's 1993 State of 
the Union Address, where he stated no further need for advanced 
reactor development.
    Now, the why. Why was it undertaken at all in the 1980's, 
not a favorable environment for nuclear any more then, than it 
is today? Simply, by the early eighties, several things were 
clear. The path to long-term sustainable nuclear power was 
blocked, and increasingly so. In part, it was because the 
reactors in place at the time do not have the characteristics 
necessary to change that. The characteristics that are 
necessary are pretty easily identifiable. They are not the ones 
that were the basis of the choice for the present reactors. 
And, finally, the new reactors that do have these 
characteristics were now possible.
    The when: It was first put together as a complete in 1983. 
The idea was a new reactor type that had inherently safe 
operational characteristics, a new fuel which allowed a 
radically different reprocessing scheme, and new short-lived 
waste form. It was not out of the blue. It was based on the 
discoveries mainly at Argonne, going back 40 years.
    As to where: It was carried out at Argonne, IL, the 
analytical work, but largely Argonne in Idaho, where the 
necessary facilities were, the reactor, the safety facilities, 
the chemical hot cell facilities and so on.
    And where did it stand when it was terminated? It was 
largely proven as a concept, some parts more than others. It 
was sufficiently promising that the Japanese had either 
invested or promised $100 million, part of which was cancelled 
then when the administration cancelled the program. And two 
large American utilities had also put money in it.
    Mr. Chairman, in the moments I have, I think it is 
important to describe the characteristics of this. It is not so 
important--it is in my testimony--the technical reasons why 
these characteristics are possible. But the principle 
characteristics are inherent safety, proliferation resistance, 
reduced waste, and fuel resource efficiency. Those four things. 
That is what this reactor was aimed at.
    Now, in inherent safety, fundamentally--you can define it a 
number of ways--but, fundamentally, what you are trying to do 
is protect against overheating. Every reactor accident involves 
overheating. And a reactor that will regulate its own 
temperature naturally is an inherently safe reactor. The IFR 
would do that.
    In proliferation resistance, any proliferation threat from 
a commercial reactor simply means, can you get pure 235 or 
weapons plutonium from it in an easier way than you could get 
it by some other path. Weapons plutonium is normally the focus 
of this, and it is not a radioactive material. As you know, it 
is adequately shielded with a piece of paper. But if you have 
fission products and it remains highly radioactive even after 
processing, that product is self-protecting and it does not add 
in any material way to proliferation threats.
    Reduced waste--what do I mean by that? I mean the goal in 
reducing nuclear waste is twofold. One is the volume. The IFR 
did that by a factor of about three. The other is the longevity 
and the importance of the longevity of the radioactivity 
associated with the waste. The important radioactivity as far 
as groundwater and so forth is concerned comes with the 
actonide elements. The IFR removed the actonide elements. That 
reprocessing scheme did that. The present reprocessing schemes 
do not. And that is a difference.
    In uranium resource efficiencies--and that is the most 
important point for future reactor development in my view--is 
that you have got to use the U<INF>238</INF>. Only one-half 
percent of the uranium mined is used today. You can do a simple 
calculation, and that limits the life of nuclear power. You 
have got to use the 238. The IFR did that.
    So, in summary, all of those things have to be done. The 
IFR had all four of those characteristics. But they have to be 
done without increases in cost. They have to be a natural part 
of the system. The IFR did that, too.
    So, it is important that advanced technology, if it is to 
be developed, be the right technology. And, Mr. Chairman, I 
think those are the characteristics that are required. The IFR 
had those. And I think it is useful to have another look.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Charles E. Till

    Mr. Chairman, members of the Committee, I thank you for the 
opportunity to speak to you today on the possibilities for reactors of 
the future.
    I am Charles Till. For seventeen years, until my retirement on 
January 1st this year, I was in charge of reactor development at 
Argonne National Laboratory, the principal laboratory in the DOE system 
for civilian nuclear reactor development.
    With my colleagues, and, in particular with my successor, Dr. Yoon 
Chang, I was the initiator of the Integral Fast Reactor, or IFR, 
concept at Argonne National Laboratory. In the early 1980's, it became 
very clear that nuclear reactors could and should be designed which 
would have significant improvements over today's nuclear plants. It was 
also clear that the time was right to include the full fuel cycle in 
the new plant design--for to not do so would mean a continuation of 
intractable problems with nuclear waste and resource efficiencies which 
could eventually preclude any further use of nuclear power.
    Nuclear reactor systems, and the problems associated with them, are 
best thought of in terms of the whole of the fuel cycle--everything 
from mining the uranium ore to producing the waste products. The IFR is 
a reactor which incorporates each step of the nuclear power fuel cycle 
into one complete system treated as a whole. We knew that the IFR must 
be an efficient system, that it must utilize the uranium resource 
properly and completely--if not, it would not be a long-term energy 
option, and probably not worth spending tax dollars for it's 
development.
    Begun in 1984, the IFR was a $100m per year development program at 
Argonne in which the entire system--a reactor, a new fuel cycle and new 
waste process were all being developed and optimized as a single 
nuclear plant system, each part complementing the other. Its rationale 
was based on resource use, ultimate safety, and waste content, improved 
proliferation resistance, with revolutionary improvements to be 
expected in each of four areas. These are:
  --It is self-protecting against overheating, and therefore is 
        passively safe;
  --It's fuel is self-protecting against diversion, and therefore is 
        proliferation resistant;
  --It both burns more of its fuel and includes a simple recycle 
        procedure, and therefore is nearly 100 percent fuel efficient; 
        and
  --It burns material that would be waste in other reactors, and 
        therefore produces far less waste.
    Reactor system characteristics are established fundamentally by the 
choice of basic materials used for coolant and for fuel, primarily, and 
somewhat so for structural materials. Water, oxide fuel and zircaloy 
cladding, for example, define the current generation Light Water 
Reactor used in the United States and throughout the world for 
commercial power production. Helium and graphite define the High 
Temperature Gas Reactor; sodium, oxide fuel and stainless steel define 
the traditional Liquid Metal Fast Breeder Reactor.
    Reactor material choices made 40 years ago did not recognize the 
importance of characteristics that are now seen as vitally important to 
a reactor system. The materials must be chosen and exploited 
specifically to achieve the characteristics being sought. The IFR is 
defined by liquid sodium metal as coolant and metallic uranium/
plutonium alloy as fuel. It is the fundamental, natural properties of 
these materials which give the IFR the ability to achieve the four 
characteristics I outlined above.
    Mr. Chairman, allow me please to give you and the committee an 
overview of how these characteristics are achieved.

                            INHERENT SAFETY

    Every reactor accident has to do with overheating. To achieve 
inherent safety, the reactor must be able to regulate its own 
temperature. To be inherently safe, this must be done without depending 
on any engineered system or operator intervention because both 
engineering and operation can fail. The IFR regulates its own 
temperature through the natural physical phenomena of thermal expansion 
and convection flow.
    Like most metals, the metallic fuel is quite responsive to changes 
in temperature. It stores very little excess heat. When a disruption in 
cooling occurs, even at full power, there is ample margin in the sodium 
coolant to safely remove the heat and protect the fuel from melting. 
The reactor simply shuts down.
    This phenomenon is supported by the liquid metal sodium coolant and 
its natural properties. Sodium has a boiling point in excess of 1600 
degrees Fahrenheit. The reactor operates between 700 and 900 degrees 
Fahrenheit. This means the coolant does not have to be pressurized. 
Which in turn means you can have a large pool of coolant. A current 
generation water cooled reactor, by comparison, has to be pressurized 
to about 2,200 pounds per square inch to avoid boiling off the water. 
The high boiling point of liquid sodium allows the IFR to have large 
pools of coolant which run at low pressure and are easy to build and 
maintain. Currents naturally develop in this large pool just as they do 
in an ocean or lake. These currents, produced by a natural phenomenon 
called convection flow, serve to further cool the reactor core as the 
metal fuel properties shut down the reactor in any off-normal event.
    I wish to note that what I describe is neither conjecture nor a 
computer model. It has been demonstrated and proven. In 1986 we 
produced accident conditions more severe than both Three Mile Island 
and Chernobyl. In all cases, the IFR prototype reactor regulated its 
own heat and shut itself down with no damage to the reactor or its 
fuel. The IFR is passively safe. It has an unprecedented degree of 
inherent safety.

                             PROLIFERATION

    The need remains to assure that the nuclear material used for the 
peaceful purpose of generating electricity is never diverted to a 
military purpose. This concern was at the forefront in the conception 
and design of the IFR.
    The IFR addresses this in two ways. First, as I will discuss in 
more detail in a moment, the IFR is extremely efficient in its fuel 
use. What this means for proliferation and diversion concerns is that 
the IFR burns as fuel the plutonium used to make weapons. And it does 
so with great efficiency. Further, it can burn as fuel, with great 
efficiency, the material taken from dismantled warheads. It is the 
ultimate swords-to-plowshares machine.
    The second way the IFR is proliferation resistant is in how it 
protects against the improper diversion of its fuel material. As the 
fuel comes out of the reactor to enter the recycling process I will 
describe shortly, the fuel is highly radioactive. So much so that 
exposure to it for even a few seconds would be lethal. This requires 
special remote handling techniques performed behind walls and windows 
that are five feet thick in special rooms called hot cells. The 
recycling process is chemically incapable of separating pure plutonium 
from the fission products that are emitting this lethal radioactivity. 
Weapons plutonium in its pure form, as I know you know, Mr. Chairman, 
is not highly radioactive at all. In fact, this piece of paper in my 
hand provides enough shielding to keep me safe if some were on this 
table now. But the plutonium in the IFR process in always, and I 
repeat, always, mixed with fission products which render it immediately 
deadly to anyone who would try to remove it from the hot cell. Any 
attempt to use fuel from an IFR for weapons purposes would require 
applying other, separate, well known and established chemical processes 
to extract the pure material.
    The IFR therefore, does nothing to add to any proliferation risk. 
In fact, it has the ability to reduce proliferation risk by tying up 
existing stores of plutonium with highly radioactive fission products, 
and by burning the plutonium.

                               EFFICIENCY

    The efficiency of the IFR comes from the nature of the reactor 
physics--which is driven by the choice of fuel and coolant. I'll not go 
into detail here except to say that the sodium coolant and metal alloy 
fuel allow much higher energies in the nuclear reactions with the 
result that the IFR system could utilize uranium fuel 100 percent--
instead of the 1 percent or so that today's reactors can do. But that 
isn't the whole story--the IFR could fully use weapons plutonium, the 
reactor waste plutonium and other, similar elements found in spent 
fuel.
    Let me give you a rough feel for the economics of burning nuclear 
fuel--and this includes waste and weapons materials. One ton of 
material fissioned in a reactor will result in a revenue stream of 
about $350 million if the electricity generated is sold for 4 cents per 
kilowatt/hour. Economics really does matter. Burning waste and selling 
power is better than burying waste and collecting taxes. By the way, 
the example is about what a large IFR plant would consume in a year--to 
produce power at the rate of 1,000 Megawatts for a year.

                                 WASTE

    As with all the major goals for the IFR, waste reduction is 
integrated together with all the other goals. To reduce the amount of 
waste per unit of energy produced, you must recycle fuel until all the 
usable fuel is fissioned. To further improve the waste stream, the 
majority of materials in waste which have long radioactive lives must 
be removed. In the IFR, both goals were met by recycling the fuel and 
the long-lived materials like plutonium, americium, and related 
materials with very long radioactive lives are simply used as reactor 
fuel.
    The bottom line for waste for the IFR is that the quantity is small 
compared to the amount of power produced, and compared to what is 
produced by today's reactors. In addition, the waste that is produced 
has a shorter lived radioactivity. It decays to less than the original 
uranium ore in about 300 years. That means that the toxicity rapidly 
becomes less than if the uranium were not removed from the ground in 
the first place.
    The purpose, then, in initiating IFR development was precisely that 
implied by today's hearing--to define the best advanced nuclear reactor 
options for the nation. The Integral Fast Reactor program began with a 
reexamination of the aims of advanced reactor development, to redefine 
the characteristics of a successful reactor system according to today's 
knowledge. In the IFR we sought to develop a new reactor, a new fuel, a 
new fuel cycle, and a new waste process--all building on the old. But 
for the first time, really integrating our knowledge into a coherent 
system--something which had not been done before. No single 
characteristic promised by the IFR makes the IFR unique, but taken 
together, the characteristics constitute a revolutionary improvement in 
reactor technology.
    The reason was simple. The old path that the nation had taken in 
nuclear development, the Light Water Reactor; or LWR, could even then 
be seen to be blocked. LWR orders had stalled, the Clinch River Breeder 
Reactor project had been canceled, reprocessing was blocked, and 
progress on the repository was difficult. But it was equally obvious 
that a viable long-term system to replace fossil fuels would still be 
needed.
    The basic purpose of advanced reactor R&D should be the same today 
as it was then. Such R&D must provide the means for substitution of 
uranium-based fuel for carbon-based fuels on a massive scale in the 
next century. Simple arithmetic shows the need to use all the uranium 
resource. Today's reactors just use one-half of one percent of the 
total uranium resource.
    In addition to resource utilization, tomorrow's reactors need 
improvements in other characteristics as well. Although there is 
temptation to call nuclear's problems ``institutional,'' technical 
improvements that address the public concerns are essential. Safety, 
safeguards, transportation and waste; all these are now critically 
important reactor system characteristics. And, in the long term, it 
will be increasingly clear that uranium is a scarce resource too, so 
resource efficiency for the next-generation system is important to 
long-term success.
    During its decade of development, IFR progress was rapid. The 
status in the key areas of fuels, safety, and fuel and waste processing 
can be summarized as follows: The fuel is largely proven. Remarkable 
safety characteristics have been demonstrated, most dramatically by 
demonstrations of passive safety from full power in EBR-II. In the 
experiments, the IFR prototype easily survived both TMI and Chernobyl-
type accidents. The highest priority remaining in the program when it 
was canceled was the demonstration of the entire fuel-cycle in EBR-II.
    In summary, the improvements that were promised by the IFR included 
passive, simple safety, proliferation resistance, much more efficient 
use of resources, and a decrease in the amount of waste produced, as 
well as it's long-term toxicity.
    The IFR program was an R&D program that was aimed at making 
feasible a huge new energy source for the next century, and well 
beyond. It was based on, and related to, present nuclear power but 
differed in significant ways so as to eliminate, or at least 
ameliorate, present problems with nuclear power. In the magnitudes of 
energy possible, it is comparable in importance to the 19th century 
exploitation of oil for our century. The development--undertaken on 
every element of the nuclear reactor system--reactor, processing, and 
waste product was pushed far along before being terminated in 1994, for 
stated lack of need.
    Mr. Chairman, I can supply any further information you might want 
on any aspect of this subject, and I wish to thank you and your staff 
for giving me this opportunity to discuss this with you.
    Thank you.

    Senator Domenici. Well, you can tell what we are trying to 
do here today. And obviously this chairman is interested in 
taking another look at some technologies that we might have 
passed over or even defunded. We are going to have to do them 
in a way that is practical and acceptable around here and out 
there in the countryside. And I am very much appreciative of 
what I have heard. Obviously our staff people have to do a 
little more work with you all, in terms of what we might 
recommend. And I thank you very much for that.
    Let me talk a minute with you, whomever feels comfortable, 
Mr. Smith or Mr. Blue. Incidentally, Mr. Smith, how far away 
are you from a Ph.D.?
    Mr. Smith. I have just finished my master's degree, sir; 
and that is enough for now. [Laughter.]
    Senator Domenici. Enough for now. Well, just keep on this 
work and somebody will give you one for free. You will not have 
to do any more. They will call you Doctor. [Laughter.]
    The MHR, which you spoke of, and you, Mr. Blue, consumes 
more than 90 percent of the initial plutonium 239, the weapons 
material. That is a lot more than a conventional reactor. And 
that is a big plus. I understand that the MHR effectively burns 
or uses weapons plutonium fuel far more completely than a MOX 
approach and conventional reactors.
    Can you provide some specific examples of this increased 
destruction of plutonium? And can you discuss the proliferation 
potential of spent fuels in an MHR fueled with plutonium versus 
a reactor fueled with MOX? How much weapons plutonium can each 
module of MHR destroy in a period of time, a year, say?
    Mr. Blue. Well, I imagine Mr. Smith has been more oriented 
toward the pure commercial reactor, so I will go with that.
    First of all, there is an inherent advantage that we have 
with the gas reactor. It does burn down the 239 to a five times 
greater degree than the MOX does. But it also, because it burns 
100 percent of plutonium as compared to 5 percent of plutonium 
which is in a MOX system, it effectively allows us to produce 
plutonium fuel for destruction at a much more rapid rate--like 
20 times.
    So, one of the things that is very interesting to the 
Russians--and I should mention that we have a very significant, 
ongoing program with the Russians. We completed the conceptual 
design of the reactor last October and we are continuing with 
it. One of the primary reasons the Russians are interested in 
this is because of its ability to destroy their weapons 
plutonium. And I think we should be very, very pleased about 
that prospect.
    The first thing you do is convert the weapons plutonium to 
fuel. And then you can feed it into reactors at whatever rate 
you want. The difference being that you are dealing with 100 
percent plutonium instead of 5 percent plutonium. And that is 
good if the objective is destroying plutonium.
    Senator Domenici. Did you want to comment, Mr. Smith?
    Mr. Smith. Sir, although the fuel we are going to use is a 
slight variation of that ceramic fuels in the way that it is 
fabricated, we looked at that from a proliferation standpoint. 
And the studies that the Germans have done particularly shows 
that it is much, much more difficult, if you had one of these 
reactors, to try to extract any kind of weapons-grade material. 
So, it is a very complicated process, and we could not see it 
happening.
    Senator Domenici. Dr. Schriber, I did not ask you, nor did 
you mention, the dollar figure that you think would be 
necessary now for this 5-year plan to be carried out with the 
players that are involved.
    Dr. Schriber. The 5-year to carry out the program would be 
$150 million total. And that is on the basis of a 5-year 
program, and for each subsequent year, of 15, 20, 25, 30.
    Senator Domenici. So, in 1999, 15 would get the program 
going, in this 5-year plan?
    Dr. Schriber. Yes, sir.
    Senator Domenici. Mr. Blue, did you summarize the extent of 
the international interest in the MHR and the kind of 
agreements that are in place?
    Mr. Blue. Well, I would like to amplify. We have a 50/50 
joint venture going with the Russians now. It has been 
operational now for about 3 years. Progress has been excellent. 
The Russian physicists and engineers, we have the highest 
respect for. We have been working with them in the fusion 
program for nearly 40 years. They are extremely competent. 
Their product is excellent. I have a model of the reactor that 
I brought with me, which you might like to see.
    The work has been superb. They have done more work for less 
money, faster than the program called for.
    In addition to the Russians, the French and the Japanese, 
Framatome and Fuji Electric, have joined our consortium. The 
French are looking at it. They see a limited time for the first 
generation technology. With 75 percent of their electricity 
coming from nuclear, it is terribly important. They have gone 
further than anybody else. They want to continue that into the 
future, because they do not have options. So, that is why they 
are interested in it.
    The Japanese also look far ahead. And as I said, the 
Japanese are going active with their test reactor just next 
month. They will be loading fuel and going critical soon after 
that.
    Senator Domenici. Did you want to comment, Mr. Smith?
    Mr. Smith. Well, just one more thing, sir. Also, the South 
Africans are taking a real lead in the gas-cooled reactor 
design. As a matter of fact, SCOM, which is the major utility 
in South Africa, has got plans underway to construct a full-
size commercial nuclear powerplant using ceramic, pebble-type 
fuel, and gas turbines. And they are estimating completion in 
2001 or 2002. And in talking with them, they are estimating 
their generating costs, total, of 1.2 cents per kilowatt.
    If you look at long-term natural gas futures in today's 
Washington Post or the Wall Street Journal, just to buy the gas 
would be 3.4 cents. So, the high efficiencies, the high 
operability of these plants really have a big economic 
potential.
    Mr. Blue. If I might add something.
    Senator Domenici. Please.
    Mr. Blue. The fact that the Russians have agreed to match 
whatever funds we bring to Russia in the design effort, and the 
French and the Japanese are involved, it is a great opportunity 
for the United States to keep its costs at an absolute minimum.
    Senator Domenici. Yes; and we do not put anything in now.
    Mr. Blue. No; the U.S. Government does not; General Atomics 
does.
    Senator Domenici. Right. Of course.
    Dr. Till, let me raise one issue with you. First, I want to 
congratulate you and the laboratory for all the work you have 
done, not only in the IFR, but the many exciting things that 
you do as part of the laboratory system. And I must confess 
that I have visited more and more of the laboratories as I 
undertake this job. Some people think that I do not do right by 
them all because I have two of them in New Mexico, the big 
ones, but I am trying to get around and I am trying to 
understand what is going on.
    I just wanted to ask you a question. This IFR would be 
sodium cooled.
    Dr. Till. That is correct.
    Senator Domenici. And sodium can be very difficult to work 
with. Are you certain you have resolved that issue?
    Dr. Till. Yes; I believe so. First of all, let me say you 
would be most welcome at our laboratory, particularly in Idaho, 
where the sodium facilities are.
    We had, of course, operated the sodium-cooled reactor, EBR-
II, that we operated from 1964 to 1994. We had occasional 
spills. We had occasional small fires. What happens? You put 
them out.
    Much has been made of the dangers of sodium. Much more 
should be made of what a wonderful reactor coolant it actually 
is. It is better than water in thermal ways, and it allows a 
room pressure system. Too much can be made with its interaction 
with air.
    Senator Domenici. Do you think those incidents that you 
have referred to could be tolerated in commercial plants?
    Dr. Till. No; I think if it happened in a commercial plant, 
they would deal with it perfectly sensibly, as happens. You 
know, what happens, Senator, I mean, if you get a small leak, 
you do not have water rushing out at 2,200 psi. What you have 
is a small coil of smoke which announces the fact that you have 
got a leak. And in a commercial plant it would be fixed, the 
same as in the experimental plant, EBR-II.
    My point in EBR-II was it was one of a handful of first-of-
a-kind, and a lot of the things were done experimentally there 
that would allow such spills. You would not have those things 
happening commercially.
    Senator Domenici. I was telling my staff--they were 
discussing the characteristics of sodium--and I said that I 
vividly remember my one-half year of getting ready to teach in 
junior high and high school and science--was to go to a high 
school and run a chemistry class, which included a laboratory. 
And one of the most prominent young kids in that school, in 
that laboratory session, left sodium without any liquid around 
for just a little while, and all of a sudden we had smoke and a 
little bit of flames. And that was the last time I ever taught 
kids in a laboratory. [Laughter.]
    I am not sure if I would have done it again. But I ended up 
teaching algebra and then going to law school. So, I do not 
remember much about it.
    I note the presence of Sam Gibbons, a former Member of the 
House, a longtime Member, and former chairman of Ways and 
Means. I welcome you. I was not aware of your interest, but I 
am delighted to have you here.
    Mr. Gibbons. I am deeply interested in what you are doing, 
and we will talk later.
    Senator Domenici. Thank you very much.
    It is 12 o'clock, and we have had a lot of testimony in our 
2 hours. And there have been no obstructions, which is very 
good. I want to thank all of you. Our staff may be back in 
touch with you. We are going to do something in some of these 
areas--I do not know what yet--in this year's appropriations 
bill. And then we will have to defend it with some of the 
exciting testimony you have given it, and maybe some more that 
we will have to get.
    I look forward to the debate. And I hope we can find some 
issues where the debate is properly framed. And I believe our 
pollster and public opinion director that testified first today 
has it right. I do not know that we can do it, but you cannot 
let the debate center around a problem with risks. You have got 
to have it in a broader arena of what is the overall situation 
versus America's future and energy in its totality, including 
all the others that we might have to use. I do not know that we 
can get that done, but I am learning. And I am hoping that 
people like you will give us good examples of how minimal the 
risks really are, even as we have to discuss risks, which we 
will have to.

                         CONCLUSION OF HEARING

    Does staff have anything further to put in the record?
    [No response.]
    We stand recessed. Thank you.
    [Whereupon, at 12:01 p.m., Tuesday, May 19, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
